<html>
<title> - H.R. 2183, MINORITY SERVING INSTITUTION DIGITAL AND WIRELESS TECHNOLOGY OPPORTUNITY ACT OF 2003</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                      H.R. 2183, MINORITY SERVING
                    INSTITUTION DIGITAL AND WIRELESS
                   TECHNOLOGY OPPORTUNITY ACT OF 2003

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JULY 9, 2003

                               __________

                           Serial No. 108-20

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

88-165              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
                                 ------                                

                        Subcommittee on Research

                     NICK SMITH, Michigan, Chairman
LAMAR S. SMITH, Texas                EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         MICHAEL M. HONDA, California
GIL GUTKNECHT, Minnesota             ZOE LOFGREN, California
FRANK D. LUCAS, Oklahoma             DENNIS A. CARDOZA, California
W. TODD AKIN, Missouri               BRAD SHERMAN, California
TIMOTHY V. JOHNSON, Illinois         DENNIS MOORE, Kansas
MELISSA A. HART, Pennsylvania        JIM MATHESON, Utah
JOHN SULLIVAN, Oklahoma              SHEILA JACKSON LEE, Texas
PHIL GINGREY, Georgia                RALPH M. HALL, Texas
SHERWOOD L. BOEHLERT, New York
                PETER ROONEY Subcommittee Staff Director
              DAN BYERS Professional Staff Member/Designee
            JIM WILSON Democratic Professional Staff Member
        ELIZABETH GROSSMAN, KARA HAAS Professional Staff Members
                      JIMMY HAGUE Staff Assistant


                            C O N T E N T S

                              July 9, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Smith, Chairman, Subcommittee on 
  Research, Committee on Science, U.S. House of Representatives..     9
    Written Statement............................................    10

Statement by Representative Eddie Bernice Johnson, Minority 
  Ranking Member, Subcommittee on Research, Committee on Science, 
  U.S. House of Representatives..................................    11
    Written Statement............................................    12

Statement by Representative Gil Gutknecht, Member, Subcommittee 
  on Research, Committee on Science, U.S. House of 
  Representatives................................................    12

Statement by Representative J. Randy Forbes, Member, Committee on 
  Science, U.S. House of Representatives.........................    13
    Written Statement............................................    13

                                Panel I:

Honorable George Allen, Member, U.S. Senate from the State of 
  Virginia
    Oral Statement...............................................    14

Discussion.......................................................    17

Honorable Edolphus Towns, Member, U.S. House of Representatives 
  from the State of New York
    Oral Statement...............................................    18
    Written Statement............................................    19

Discussion.......................................................    20

                               Panel II:

Dr. Frederick S. Humphries, President, National Association for 
  Equal Opportunity in Higher Education
    Oral Statement...............................................    24
    Written Statement............................................    26
    Historically Black Colleges and Universities: An Assessment 
      of Networking and Connectivity, October 2000, U.S. 
      Department of Commerce.....................................    34
    Biography....................................................   101
    Financial Disclosure.........................................   102

Dr. Ricardo R. Fernandez, President, Herbert H. Lehman College-
  CUNY
    Oral Statement...............................................   105
    Written Statement............................................   107
    Biography....................................................   112
    Financial Disclosure.........................................   113

Dr. Larry L. Earvin, President, Huston-Tillotson College
    Oral Statement...............................................   114
    Written Statement............................................   115
    Biography....................................................   121
    Financial Disclosure.........................................   122

Dr. Dwight J. Fennell, President, Paul Quinn College
    Oral Statement...............................................   123
    Written Statement............................................   125
    Biography....................................................   126
    Financial Disclosure.........................................   127

Discussion.......................................................   128

                               Panel III:

Dr. Rita R. Colwell, Director, National Science Foundation
    Oral Statement...............................................   137
    Written Statement............................................   139
    Biography....................................................   142

Discussion.......................................................   143

             Appendix 1: Answers to Post-Hearing Questions

Dr. Rita R. Colwell, Director, National Science Foundation.......   152

             Appendix 2: Additional Material for the Record

``Playing Catch-Up,'' Chronicle of Higher Education, June 27, 
  2003...........................................................   156

H.R. 2183, Minority Serving Institution Digital and Wireless 
  Technology Opportunity Act of 2003.............................   160

 
H.R. 2183, MINORITY SERVING INSTITUTION DIGITAL AND WIRELESS TECHNOLOGY 
                        OPPORTUNITY ACT OF 2003

                              ----------                              


                        WEDNESDAY, JULY 9, 2003

                  House of Representatives,
                          Subcommittee on Research,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick Smith 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                        SUBCOMMITTEE ON RESEARCH

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      H.R. 2183, Minority Serving

                    Institution Digital and Wireless

                   Technology Opportunity Act of 2003

                        WEDNESDAY, JULY 9, 2003
                         10:00 A.M.-12:00 P.M.
                   2318 RAYBURN HOUSE OFFICE BUILDING

1. Purpose

    On Wednesday, July 9, 2003, the Research Subcommittee of the House 
Science Committee will hold a hearing to examine the technology 
infrastructure needs of minority-serving institutions (MSIs) and to 
consider H.R. 2183, the Minority Serving Institution Digital and 
Wireless Technology Opportunity Act.

2. Witnesses

Panel I

Senator George Allen (R-VA)

Congressman Edolphus Towns (D-NY)
Panel II

Dr. Fred Humphries is the President of the National Association for 
Equal Opportunity in Higher Education. Prior to joining NAFEO, Dr. 
Humphries served as President of Florida A&M and Tennessee State 
Universities for a total of more than 27 years.

Dr. Richardo Fernandez is the President of Herbert H. Lehman College-
CUNY and he will be testifying on behalf of the Hispanic Association of 
Colleges and Universities. Prior to joining CUNY-Lehman, Dr. Fernandez 
served at the University of Wisconsin, beginning as an Assistant 
Professor of Cultural Foundations and rising to full Professor and 
Assistant Vice Chancellor for Academic Affairs.

Dr. Larry Earvin is the President of Huston-Tillotson College in Texas 
and he will be testifying on behalf of the United Negro College Fund.

Dr. Dwight J. Fennell is the President of Paul Quinn College in Texas. 
Prior to joining Paul Quinn, Dr. Fennell worked as a American Council 
on Education Fellow and he served in various capacities at Saint 
Augustine's College, ranging from Assistant History Professor to Vice 
President for Academic Affairs.
Panel III

Dr. Rita R. Colwell is the Director of the National Science Foundation 
(NSF). Before joining the Foundation, Dr. Colwell served as President 
of the University of Maryland Biotechnology Institute and Professor of 
Microbiology at the University Maryland. She was also a member of the 
National Science Board from 1984 to 1990.

3. Overarching Questions

    The hearing will address the following overarching questions:

        1. What is the Administration's position on H.R. 2183?

        2. What is the state of networking, connectivity and 
        technological preparedness at minority-serving institutions 
        (MSIs)? Are major federal investments in this area warranted?

        3. What are the principal findings of the Department of 
        Commerce's review of Historically Black Colleges and 
        Universities (HBCUs) and minority racial/ethnic populations?

        4. How does H.R. 2183 propose to meet the needs of MSIs? How 
        might federal assistance better complement existing initiatives 
        by the states, localities and private sector?

        5. How would H.R. 2183 ensure that federal spending is used to 
        further the education and research mission of MSIs?

4. Brief Overview

        <bullet> LThe term ``digital divide'' was popularized in the 
        U.S. Department of Commerce series entitled Falling Through the 
        Net, which documented the disparity in access to technology 
        between whites and minority populations. Despite recent gains, 
        our most recent data suggest that a digital divide still exists 
        between racial and ethnic groups and it may be grower wider 
        still.

        <bullet> In particular, a recent survey by an association 
        representing minority serving institutions found that 
        Historically Black Colleges and Universities (HBCUs) trail 
        behind other institutions of higher education, with limited 
        access to networking and computer resources, less integration 
        of technology into classroom activities and fewer students with 
        access to their own computing resources. Other minority-serving 
        institutions report technology problems similar to those of 
        HBCUs.

        <bullet> Minority-serving institutions award about one-fifth 
        of all degrees and certificates to the minority populations 
        they serve.

        <bullet> H.R. 2183, the Minority Serving Institution Digital 
        and Wireless Technology Opportunity Act, which would create a 
        $250 million grant program at the National Science Foundation, 
        seeks to help narrow the digital divide by building the 
        technology infrastructure of these minority-serving 
        institutions.

        <bullet> One issue with H.R. 2183 is whether this program 
        belongs in the National Science Foundation, which generally 
        provides funds for research and education programs on a 
        competitive basis to all institutions of higher education. H.R. 
        2183, on the other hand, is a set-aside for equipment, 
        primarily for the benefit of minority serving institutions.

5. Background

Minority Serving Institutions
    As defined by the Higher Education Amendments of 1998, minority 
serving institutions (MSIs) are institutions of higher education that 
have a combination of different minority groups that total at least 50 
percent of their enrollment. MSIs fall into one of several categories. 
A Historically Black College or University (HBCU) is any black college 
or university that was established prior to 1964 and whose principal 
mission was, and is, the education of black Americans. There are 
currently 103 HBCUs in the U.S. There is no official designation of 
Hispanic Serving Institutions (HSIs) but the Higher Education Act 
identifies HSIs as accredited and degree granting institutions of 
higher education with at least 25 percent or more full time 
undergraduate Hispanic students. In 1999, there were 203 HSIs 
recognized by the Department of Education. Tribal Colleges and 
Universities (TCUs) were created to provide a quality education to 
American Indians and serve geographically isolated populations. The 
first TCU was created in 1968. Today, there are approximately 30 TCUs. 
Finally, the Higher Education Act defines Alaska Native Serving 
Institutions and Native Hawaiian Serving Institutions as those with an 
undergraduate student enrollment of at least 20 percent and 10 percent 
respectively.
    MSIs have access to federal resources and monies that are not 
available to other institutions of higher education. Most significant, 
Title III of the Higher Education Act provides funds for institutions 
serving students from low income or racial minority backgrounds. 
Specifically, Part A authorizes funds for institutions that serve a 
high number of students receiving Pell grants. This program was funded 
at $81.5 million for FY 2003. Section 316 of Part A authorizes grants 
for TCUs: $22.8 million was appropriated for FY 2003. Similarly, 
Section 317 of Part A authorizes grants to Alaskan Native and Native 
Hawaiian institutions: $8.2 million was appropriated in FY 2003. Funds 
under Title III may be used for a variety of purposes, including the 
acquisition of educational technologies and the provision of 
educational services (such as faculty development in the use of these 
technologies). Part B provides 5-year formula grants to HBCUs. 
Authorized activities include education technology and related services 
and the program was funded at $214 million for FY 2003. Finally, Title 
V provides grants to HSIs and the uses of funds parallel Title III. The 
FY 2003 appropriation was $92.3 million.
    Other smaller programs in the Department of Agriculture and the 
Department of Housing and Urban Development also support technology-
related activities at minority serving institutions.
The Digital Divide
    During the Clinton Administration, the U.S. Department of Commerce 
issued a series of reports that documented the existence of a ``digital 
divide'' among its citizens. For our purposes, the term ``digital 
divide'' describes the gap between the ``information haves and have-
nots,'' or between those Americans who use or have access to 
telecommunication technologies (e.g., computers, the Internet) and 
those who do not.
    A July 2000 report, entitled Falling Through the Net: Toward 
Digital Inclusion, found that most groups of Americans were adopting 
the new technology, regardless of income, education, age or gender. 
Still, traditional ``have-not'' populations, including African-
Americans and Hispanics, were experiencing a digital divide that 
persisted and, in some cases, grew. Whites were more likely to have 
access to the Internet from home than African-Americans or Hispanics 
from any location, with African-American and Hispanic households 
approximately one-third as likely as a household of Asian/Pacific 
Islander descent and roughly two-fifths as likely as white households. 
The 2000 report also found that the gap appeared to be growing wider, 
with the digital divide increasing slightly for African-Americans and 
Hispanics from their December 1998 rates.
    The digital divide series prompted the National Association for 
Equal Opportunity in Higher Education (NAFEO), a non-profit public 
policy and advocacy group, to assess the computing resources, 
networking and connectivity of its member HBCUs. Of NAFEO's 118 member 
institutions, 80 HBCUs provided input into the study, known as the HBCU 
Technology Assessment Study. Funded by the U.S. Department of Commerce, 
the study found that 88 percent of HBCUs had access to T-1 lines, the 
minimum standard for connectivity and generally considered insufficient 
to support capabilities beyond Internet and World Wide Web 
connectivity. Larger bandwidth, for faster connections and more web-
based applications, was available to half of reporting institutions.
    The larger problem turned out not to be the availability of 
networking capacity, but rather its use. Only 7.5 percent reported 
using the high-speed lines even though they were available at half the 
institutions. Similarly, of the 29 percent of HBCUs with access to 
wireless technology, only 43 percent were using it. It was not clear 
why many HBCUs weren't using high speed connections even when it was 
available to them, but some speculated that it had to do with finance, 
lack of strategic planning, faculty motivation and training. Regardless 
of the reason, many schools reported minimal use of collaborative 
groupware, online registration, e-commerce, distance learning and 
connectivity with other libraries, state college systems or the Federal 
Government as a result of this lack of connectivity beyond the T-1 
level.
    In addition, the study found that none of the participating HBCUs 
required undergraduate students to own computers and only 15 percent 
recommended student computer ownership. As a result, the vast majority 
of HBCU students relied on institutional resources to connect to the 
Internet, World Wide Web or other networks; yet only 50 percent of the 
respondents reported providing ``on-demand'' student access to 
computing resources.
    Although the report did not examine the need for an improved 
technology infrastructure at other MSIs, anecdotal information 
indicates that the problems at other MSIs mirror those at the HBCUs. 
Unfortunately, data are incomplete and the magnitude of the current 
need for all MSIs is somewhat difficult to quantify.
Current Issues
    According to recent reports, 21 percent of all college degrees and 
certificates awarded to African-American, American Indian and Hispanic 
students are conferred by MSIs. For example, NAFEO member institutions 
award 29 percent of all Bachelor's degrees to African Americans in 
higher education, despite the fact that they enroll approximately 17 
percent of all African-American students. Similarly, Hispanic-Serving 
Institutions (HSIs) award 42 percent of all degrees awarded to Hispanic 
graduates, and tribally-controlled colleges and universities (TCUs) 
award 19 percent of all associates degrees to American Indians.
    Equally important, MSIs play an important role in the success of 
under-represented students in all disciplines, including science and 
engineering. For example, of African Americans earning Bachelor degrees 
in science, math, engineering or technology fields in 1996, 31 percent 
received them at HBCUs. Also, a high percentage of African Americans 
who go on to earn advanced degrees in science disciplines received 
their baccalaureate degrees at HBCUs. Similarly, HSIs produced 20 
percent of all science, math, engineering or technology Bachelor's 
degrees awarded to Hispanics in 1996.
    These statistics are especially significant because minorities earn 
only one-tenth as many science and engineering doctoral degrees as 
their white counterparts. This at a time when up to 30 percent of the 
Nation's workforce now need to possess significant information 
technology skills to hold their jobs, and an estimated 50 percent of 
the Nation's jobs will require significant information technology 
skills within the next five years.

6. Legislation

    On January 17, 2003, S. 196, The Digital and Wireless Network 
Technology Act of 2003, was introduced by Senator Allen to establish a 
$250 million per year grant program within the National Science 
Foundation to strengthen the ability of MSIs to provide instruction in 
digital and wireless network technologies. Senators McCain, Hollings, 
Campbell, Cochran, DeWine, Fitzgerald, Graham, Grassley, Hutchison, 
Lott, Miller, Santorum, Sessions, Stevens, Warner, Domenici, Talent and 
Kerry are cosponsors of the legislation.
    On March 13, the Committee on Commerce, Science and Transportation 
reported S. 196 by voice vote and, on April 30, it passed the Senate by 
a vote of 97-0. According to the Congressional Budget Office, the cost 
estimate for fiscal years 2004-2008 is $823 million.
    On May 21, 2003, Congressman Randy Forbes introduced bipartisan 
companion legislation to the Allen bill--H.R. 2183, the Minority 
Serving Institution Digital and Wireless Technology Opportunity Act of 
2003. Representatives Alexander, Baker, Burns, Cantor, Clay, Filner, 
Hart, Hinojosa, Jackson-Lee, Owens, Payne, Pickering, Rogers (AL), 
Rush, Scott, Snyder, Vitter, Weller and Wilson are co-sponsors of the 
legislation. Congressman Edolphus Towns has introduced similar 
bipartisan legislation (H.R. 2272). Both bills have been referred to 
the House Science and the Education and the Workforce Committees.

7. Concerns

    The Administration has raised concerns about the cost of the bill 
and about whether the National Science Foundation (NSF) is the 
appropriate agency to run the proposed grant program. (The 
Administration, however, did not release an official position on the 
bill while it was pending before the Senate.)
    The concern is that NSF programs generally do not have set asides 
for particular types of programs and are not geared toward providing 
grants for general equipment purchases (i.e., purchases not connected 
with a particular research or education project).
    Possible alternative locations for the program include portions of 
the Department of Commerce, including the National Telecommunications 
and Information Agency or the Technology Administration. Versions of 
the bill introduced in previous Congresses have placed the program in 
the Department of Commerce.

8. Section-by-Section--H.R. 2183

Section 1. Short title

    Section 1 provides that the bill, if enacted, would be cited as the 
`Minority Serving Institution Digital and Wireless Technology 
Opportunity Act of 2003.'

Section 2. Establishment of office

    Establishes an Office of Digital and Wireless Network Technology 
within the NSF to serve the following purposes: to strengthen the 
ability of eligible institutions to provide instruction via digital and 
wireless networks through grants, contracts, or cooperative agreements; 
and to strengthen the national digital and wireless infrastructure by 
increasing national investments in eligible institutions.

Section 3. Activities supported

    Authorizes the Office of Digital and Wireless Network Technology to 
award grants, contracts, or cooperative agreements to eligible 
institutions. Eligible grantees would be allowed to use such awards for 
the following purposes:

To acquire equipment, instrumentation, networking capability, hardware 
and software, digital network technology, wireless technology, and 
infrastructure;

To develop and provide educational services for students or faculty 
seeking an approved degree or certificate;

To provide teacher education, library and media specialist training, 
and preschool and teacher aid certification to those individuals who 
want to acquire or enhance technology skills for use in the classroom;

To implement joint projects and consortia to provide technology 
education to a State or State education agency, local education agency, 
community-based organizations, national non-profit organizations, or 
businesses, including minority businesses;

To provide professional development to administrators and faculty of 
institutions with institutional responsibility for technology 
education;

To provide eligible institutions with capacity-building technical 
assistance through remote technical support, workshops, distance 
learning, new technologies, and other technological applications;

To foster the use of information communications technology to increase 
scientific, mathematical, engineering, and technology instruction and 
research; and

To develop proposals to be submitted under the Act and to develop 
strategic plans for information technology investments.

Section 4. Application and review procedure

    Requires that for an institution to be eligible to receive a grant, 
contract, or cooperative agreement, it must submit an application to 
the Director. Such an application would be submitted according to 
requirements developed by the Director. The Director, along with the 
Advisory Council established under subsection (b), would establish a 
procedure for acceptance and notification as well as a statement 
regarding the availability of funds.
    Requires the Director to establish an Advisory Council. The 
Advisory Council would be responsible for advising the Director on the 
best ways to involve eligible institutions in the activities described 
in section 3. In selecting the members of the Advisory Council, the 
Director may consult with representatives of appropriate organizations, 
including representatives of eligible institutions, to ensure that the 
membership of the advisory council reflects participation by technology 
and telecommunications institutions, minority businesses, communities 
of eligible institutions, federal agency personnel, and other 
individuals who are knowledgeable about eligible institutions and 
technology issues.
    Requires each institution awarded a grant, contract, or cooperative 
agreement under section 2 to provide the new Office of Digital and 
Wireless Technology with any relevant institutional statistical or 
demographic data it requests.
    Requires the Director to hold an annual meeting with those 
institutions that receive awards. Such meetings are expected to foster 
collaborations and promote capacity building activities among eligible 
institutions, allowing for the dissemination of information and ideas.

Section 5. Matching requirement

    Requires that when an institution is awarded a grant, contract, or 
cooperative agreement by the Director, it make available non-federal 
contributions in an amount that is 25 percent of the award or $500,000, 
whichever is less. The matching requirement is waived for any 
institution with no endowment, or an endowment worth less than 
$50,000,000.

Section 6. Limitations

    An institution awarded more than $2,500,000 shall not be eligible 
for another grant, contract, or cooperative agreement, until every 
other eligible institution that has applied for an award has received 
one. Even when each grant, contract, or cooperative agreement has been 
awarded for the implementation of a consortium or joint project, the 
funding shall be made available to, and administered by, an eligible 
institution.

Section 7. Annual report and evaluation

    Requires each institution awarded a grant, contract, or cooperative 
agreement, to submit an annual report to the Director detailing its use 
of the funding.
    Requires that the Director, in consultation with the Secretary of 
Education, review the reports required under subsection (a) and 
evaluate the program authorized by section 3 on the basis of those 
reports every 2 years.
    Requires that the Director, as part of the evaluation of subsection 
(b), describe the activities undertaken and assess the short- and long-
range impact of activities carried out with the use of the awards on 
the students, faculty, and staff of the institutions.
    Requires the Director to submit a report to Congress based on the 
evaluation. The report shall include such recommendations, as may be 
appropriate, including recommendations concerning the continuing need 
for federal support of the program.

Section 8. Definitions

    Defines the terms `eligible institution,' `Director,' and `minority 
business.' The term `eligible institution' is as defined in the Higher 
Education Act of 1965 (20 U.S.C. 1061(2)). The term `Director' means 
the Director of the National Science Foundation. The term `minority 
business' includes HUBZone small businesses as defined in section 3(p) 
of the Small Business Act (15 U.S.C. 632(p).

Section 9. Authorization of appropriations

    Authorize $250,000,000 to the Director of the NSF for each of 
fiscal years 2004 through 2008, to carry out the Act.
    Chairman Smith. The Subcommittee on Research will come to 
order. It is a pleasure to welcome everyone to our hearing this 
morning on an issue of importance to, certainly, everybody, but 
especially, members of the Science Committee and the Research 
Subcommittee in particular. The role of technology in helping 
to create a diverse and scientific literate workforce is very 
important to our country's future.
    We are all here today because we believe in the value of 
technology to improve commerce, the public sector, and even how 
citizens interact. And we recognize that many of our nation's 
smaller colleges and universities, certainly, those serving 
minorities, face challenges in meeting the ever evolving 
advanced technology requirements important to educating and 
preparing a 21st century workforce. These technological 
challenges have collectively become known as the ``Digital 
Divide'', and today we are going to examine the impact that the 
digital divide is having on our workforce, as well as some 
proposed solutions to the problem.
    Let me just say that from the outset this committee has 
long recognized the importance of education in science, 
mathematics, engineering, and technology for all students. In 
fact, our National Science Foundation legislation that was 
signed into law last December 22, and originated in this 
subcommittee, included the Tech Talent and Math and Science 
Partnership legislation that is going to help implement our 
best efforts and best knowledge in stimulating an interest and 
the ability of K through 12 students.
    That said, it would be a mistake to rest on our laurels. It 
is estimated that up to 30 percent of our nation's workforce 
now need to possess significant information technology skills 
if they are going to hold their jobs, and within the next five 
years, an estimated 50 percent of the Nation's jobs will 
require significant IT, information technology, skills if they 
are going to survive and if we are going to compete in the new 
challenges of a world economy. Unfortunately, many are not 
being adequately prepared and that is part of our discussion on 
legislation that has been introduced both in the Senate by 
Senator Allen and also here in the House.
    According to recent statistics, minorities earn 
proportionately less science and engineering doctoral degrees 
and advanced degrees in math and science than their 
counterparts. The legislation before us today would attempt to 
address this problem by providing grants to strengthen the 
technology infrastructure and the ability to provide 
instruction and education technology to minority students in 
this country.
    I embrace the goals of this legislation, but recognize that 
the so-called digital divide is more complex than it might 
first appear. Foremost, I want to take a close look at the 
limited dollars we have available and make sure they are 
appropriately targeted to solving the problem at hand and that 
taxpayer support be results oriented.
    And I believe that the digital divide is a challenge that, 
if the Federal Government is to be involved, should be 
addressed on the basis of a school's financial need to provide, 
if you will, connectivity, networking, and other technologies 
to their students, not on the race and/or ethnicity of its 
student population. To be sure, many minority serving 
institutions do not have the depth and breadth of financial 
resources that large research universities have and other 
colleges across this country, and that needs to be one of our 
goals and considerations. But we also know that not all 
minority serving institutions are poor and that hundreds of 
other smaller and rural colleges also face the challenge of 
bridging the digital divide.
    In conclusion, I don't want to make false assurances to our 
minority-serving colleges and universities. The fact is that 
the effective use of technology and educational setting is not 
inexpensive. It is going to take a coordinated effort, one that 
involves institutions, governments, and the private sector to 
motivate and train more students to bridge this technology 
divide.
    In an effort to strengthen the technology infrastructure at 
the minority serving institutions, I think we want to ensure 
that we do not inadvertently reduce the very programs in this 
committee's jurisdiction that help elementary and secondary 
school students be better prepared in science and math.
    Without objection, the rest of my statement will be 
included in the record at this point, and I would ask 
Representative Johnson for her comments.
    [The prepared statement of Chairman Smith follows:]

               Prepared Statement of Chairman Nick Smith

    It is a pleasure to welcome you to our hearing this morning on an 
issue of importance to the members of the Science Committee and the 
Research Subcommittee in particular--the role of technology in helping 
to create a diverse and scientifically literate workforce.
    We are all here today because we believe in the value of technology 
to improve commerce, the public sector, and even how citizens interact. 
And we recognize that many of our nation's smaller colleges and 
universities, including those that serve minorities, face challenges in 
meeting the ever evolving advanced technology requirements important to 
educating and preparing a 21st century workforce. These technological 
challenges have collectively become known as the ``Digital Divide,'' 
and today we will examine the impact the digital divide is having on 
our workforce, as well as some proposed solutions to this problem.
    Let me just say from the outset that this committee has long 
recognized the importance of education in science, mathematics, 
engineering and technology for all students. In fact, last year, our 
National Science Foundation legislation that the President signed into 
law, and which originated in this subcommittee, included the ``Tech 
Talent'' and ``Math and Science Partnerships'' legislation--significant 
programs to educate and inspire our young people, and women and 
minorities especially, to become scientists, engineers and 
mathematicians.
    That said, it would be a mistake to rest on our laurels. It is 
estimated that up to 30 percent of the Nation's workforce now need to 
possess significant information technology skills to hold their jobs, 
and within the next five years, an estimated 50 percent of the Nation's 
jobs will require significant information technology skills. 
Unfortunately, many are not being adequately prepared to meet this 
demand. According to recent statistics, minorities earn proportionately 
less science and engineering doctoral degrees as their non-minority 
counterparts.
    The legislation before us today would attempt to address this 
problem by providing grants to strengthen the technology 
infrastructure--and the ability to provide instruction in education 
technology--to minority serving institutions through a new grant 
program at the National Science Foundation.
    I embrace the goals of this legislation but recognize that the 
``digital divide'' issue is more complex than it might first appear. 
Foremost, I want to take a close look at the limited dollars we have 
available and make sure they are appropriately targeted to solving the 
problem at hand and that taxpayer support be results-oriented.
    And I believe that the Digital Divide is a challenge that, if the 
Federal Government is to be involved, should be addressed on the basis 
of a school's financial need to provide connectivity, networking, and 
other technologies to their students, not on the race and/or ethnicity 
of its student population. To be sure, many Minority-serving 
institutions do not have the depth and breadth of financial resources 
that large research universities have. But we also know that not all 
Minority-serving Institutions are poor, and that hundreds of other 
smaller and rural colleges also face the challenge of bridging the 
digital divide.
    In addition, I do not want to make false assurances to our minority 
serving colleges and universities. The fact is that the effective use 
of technology in educational settings is not inexpensive. It will take 
a coordinated effort--one that involves institutions, governments, and 
the private sector--to motivate and train more students to bridge the 
technology divide.
    And in our efforts to strengthen the technology infrastructure at 
minority serving institutions, I want to ensure that we do not 
inadvertently reduce the very programs in this committee's jurisdiction 
that help elementary and secondary school students be better prepared 
in science, math, engineering and technology education. With regard to 
this, creating a competing program in NSF's Education and Human 
Resources Directorate could be a problem.
    Finally, and most important, I want to ensure that these scarce 
federal resources are used to improve the technological literacy of 
students and faculty. In our discussions about bandwidth and 
connectivity, I hope we will remain mindful of the fact that bridging 
the digital divide is more than making technology available: it is 
using technology to improve education, make students more 
technologically literate and better equip them to solve problems in the 
community and work productively.
    Working together, I am confident that we can address concerns while 
also ensuring a better future for the students and faculty at minority 
serving institutions.
    With that, I am pleased to welcome all of our distinguished 
witnesses to our subcommittee hearing. And I especially want to thank 
Senator Allen and Representative Forbes, a member of our Committee, and 
Representative Towns--who are with us today--for their thoughtful 
leadership on the legislation before us today and their continued 
efforts on behalf of minority serving institutions. I look forward to 
the testimony.

    Ms. Johnson. Thank you very much, Mr. Chairman, and let me 
express my appreciation for you calling this committee hearing, 
and welcome our distinguished guests--distinguished witnesses 
this morning.
    Minority serving institutions will prepare a growing 
portion of the future science and technology workforce simply 
because demographics dictate that minority students will 
comprise a greater and greater share of the Nation's college-
age population. It is in the national interest to ensure that 
minority serving institutions have the capability to provide a 
quality education for their students. This includes the 
presence of an information infrastructure capable of supporting 
distance learning, research collaborations with partner 
institutions, and remote access to educational resources and 
national research facilities.
    Unfortunately, the capability does not exist at most 
minority serving institutions. A recent report from the 
National Telecommunications and Information Administration 
[NTIA] documents the deficiencies in the information 
infrastructure of these colleges and universities. Although 
most institutions have some Internet access, it is generally 
not the high speed access necessary to support distant 
education and research applications. More troubling, half of 
these institutions have no plan in place for upgrading the 
information technology infrastructure. Since minority serving 
institutions have significantly smaller budgets than other 
higher education institutions, and therefore, less money for 
information technology support and upgrades, they would 
inevitably, fall further behind as the technology continues its 
rapid advance.
    The legislation on review today seeks to address this 
problem by providing grants to minority serving institutions 
for information technology upgrades and for training faculty 
and staff to use the technology effectively in support of their 
education and research activities. This morning, we will review 
why the program authorized by H.R. 2183 is needed and will 
discuss how best to implement it. I solicit the comments and 
recommendations of our witnesses on ways to improve the 
legislation to make the program more effective.
    Mr. Chairman, I want to thank you again for calling this 
hearing and for your intent to move this legislation 
expeditiously by scheduling a Full Committee Markup next week. 
I also thank our witnesses for appearing before the 
Subcommittee and I look forwards to our discussion. Thanks 
again, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]

       Prepared Statement of Representative Eddie Bernice Johnson

    Mr. Chairman, I am pleased to join you in welcoming our witnesses 
today to review this important legislation.
    Minority serving institutions will prepare a growing portion of the 
future science and technology workforce, simply because demographics 
dictate that minority students will comprise a greater and greater 
share of the Nation's college-aged population.
    It is in the national interest to ensure that minority serving 
institutions have the capability to provide a quality education for 
their students. This includes the presence of an information 
infrastructure capable of supporting distance learning, research 
collaborations with partner institutions, and remote access to 
educational resources and national research facilities.
    Unfortunately, the capability does not exist at most minority 
serving institutions. A recent report from the National 
Telecommunications and Information Administration [NTIA] documents the 
deficiencies in the information infrastructure of these colleges and 
universities. Although most institutions have some Internet access, it 
is generally not the high-speed access necessary to support distance 
education and research applications. More troubling, half of these 
institutions have no plan in place for upgrading their information 
technology infrastructure. Since minority serving institutions have 
significantly smaller budgets than other higher education institutions, 
and therefore less money for information technology support and 
upgrades, they will inevitably fall further behind as the technology 
continues its rapid advance.
    The legislation under review today seeks to address this problem by 
providing grants to minority serving institutions for information 
technology upgrades and for training faculty and staff to use the 
technology effectively in support of their education and research 
activities.
    This morning we will review why the program authorized by H.R. 2183 
is needed and will discuss how best to implement it. I solicit the 
comments and recommendations of our witnesses on ways to improve the 
legislation to make the program more effective.
    Mr. Chairman, I want to thank you for calling this hearing and for 
your intent to move the legislation expeditiously by. I also thank our 
witnesses for appearing before the Subcommittee today. I look forward 
to our discussion.

    Chairman Smith. Thank you, Representative Johnson, and we 
have scheduled, not next week but the week after next, have 
scheduled for the full Committee. Without objection, 
Representative Forbes, who is a member of the Science Committee 
will sit with us in this subcommittee because of his interest 
and leadership in this particular issue. And Mr. Forbes, I am 
going to ask for your comments, but before that, I will yield 
to Mr. Gutknecht for about a minute for his comments, since he 
has to leave also.
    Mr. Gutknecht. Mr. Chairman, thank you very much, and I 
want to congratulate the authors of this legislation. I want to 
thank you for having this hearing. And I apologize on behalf of 
other Members of this subcommittee. The attendance is not going 
to be what it really should be. This is a very important issue. 
Unfortunately, I have a Budget Committee meeting going on right 
now and I am going to have to leave as well. But I think this 
does get to a pretty fundamental question, and that I think 
philosophically bridges a lot of territory.
    The argument sometimes around here is between equality of 
opportunity and equality of result. I don't think we can 
guarantee equality of result, but we do have a responsibility 
to guarantee equality of opportunity. And if we are in the 
information age, and if research is going to become an 
increasingly important component of higher education, it seems 
to me we need to do everything we can to make certain that 
students that go to any university or any college in the United 
States, regardless, at least have the opportunity to have 
access to that information.
    So this is a very important piece of legislation. I want to 
thank you for bringing it forward. Hopefully, we can move it 
along. And with a little help from the appropriators, can 
perhaps get something done this year. Thank you very much.
    Chairman Smith. And your comments, Representative Forbes.
    Mr. Forbes. First of all, Mr. Chairman, let me thank you 
and Ranking Member Johnson for holding this hearing today. I am 
also grateful for our witnesses for joining us today to discuss 
H.R. 2183. I want to particularly thank Senator Allen, my 
colleague, Congressman Towns for testifying before the 
Committee today.
    As we have heard mentioned, full access to technology has 
become the standard, not a bonus, in how we communicate and do 
our jobs every day. Right now, 60 percent of all jobs require 
information technology skills, and information technology jobs 
pay significantly higher than jobs in non-technology related 
fields. Yet, minority serving institutions often lack the basic 
information and digital technology infrastructure needed to 
provide their students the necessary skills and access to 
compete and qualify for America's best paying jobs.
    A recent article published in the Chronicle of Higher 
Education highlights the need for this legislation. At the 
University of Virginia, there are 62 people to assist with the 
development, use, and maintenance of campus information 
technology. At Virginia Union, an historically black college 
with half the enrollment of the University of Richmond, has a 
computing staff of four for the entire school. At Virginia 
State University, which is located in my district, only 10 
percent of the students own computers, while 96 percent of the 
students own computers at the University of Richmond.
    Mr. Chairman, I just want to close by saying that whenever 
we get an issue like this, it is often times easy for us to 
agree on the goals. It is hard for us, though, to come together 
on the specifics. In this particular case, we can find all 
kinds of reasons to differ over the specifics and the details, 
but if we do and we take our eyes off the goal, we are going to 
lose that goal and it is not going to become a reality. I think 
this piece of legislation should move forward, and if it does, 
it is going to move a long way to providing the digital 
infrastructure that we need at our historically black colleges.
    [The prepared statement of Mr. Forbes follows:]

          Prepared Statement of Representative J. Randy Forbes

    Thank you, Chairman Smith and Ranking Member Johnson, for holding 
this hearing today. I am also grateful to our witnesses for joining us 
today to discuss H.R. 2183, the Minority Serving Institution Digital 
and Wireless Technology Opportunity Act of 2003. I would also like to 
thank Senator Allen and my colleague Congressman Town for testifying 
before the Committee today.
    Full access to technology has become the standard, not a bonus, in 
how we communicate and do our jobs everyday. Right now, 60 percent of 
all jobs require information technology skills and information 
technology jobs pay significantly higher than jobs in non-technology 
related fields, yet minority-serving institutions lack the basic 
information and digital technology infrastructure needed to provide 
their students the necessary skills and access to compete and qualify 
for America's best paying jobs.
    H.R. 2183 would help provide essential resources to address the 
technology gap that exists at many minority-serving institutions by 
providing $250 million in grants Historically Black Colleges and 
Universities, Hispanic Serving Institutions and Tribal Colleges and 
Universities. The program would offer opportunities to these 
institutions for activities such as computer acquisition, campus wiring 
and technology training. Each of these activities is an important step 
towards bridging the digital divide.
    A recent article, published in the Chronicle of Higher Education, 
highlights the need for this legislation. At the University of Richmond 
there are 62 people to assist with the development, use, and 
maintenance of campus information technology. At Virginia Union, a 
historically black college with half the enrollment of the University 
of Richmond has a computing staff of four for the entire school. At 
Virginia State University, which is located in my district, only 10 
percent of the students own computers, while 96 percent of the students 
own computers at the University of Richmond.
    A study completed by the Department of Commerce and the National 
Association for Equal Opportunity in Higher Education indicates that no 
historically black college or university requires computer ownership 
for their undergraduate students; 13 HBCUs reported having no students 
owning their own personal computer; over 70 percent of the students at 
historically black colleges and universities rely on the college or 
university to provide computers, but only 50 percent of those 
universities can provide their students with access to computers. While 
this study did not address the needs of other MSIs, there is anecdotal 
evidence that other MSIs have the same problems as those found at 
HBCUs.
    This legislation is a start in the right direction. I look forward 
to working with each of you to come up with a solution to solve this 
problem.
    Again, I would like to thank Chairman Smith and Ranking Member 
Eddie Bernice Johnson for holding this important hearing on this 
pressing issue for our nation's minority-serving institutions.

    Chairman Smith. Thank you. And Senator Allen, we realize 
you have other meetings, so please proceed with your comments.

                                Panel I

  STATEMENT OF GEORGE ALLEN, A UNITED STATES SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Allen. Thank you, Mr. Chairman, Chairman Smith, 
Ranking Member Johnson, other members of the Committee, and 
Congressman Forbes. It is great to be with you all and thank 
you for holding this hearing. It is good to be back in the 
people's House where I once served for a whole 14 months. It is 
great to be with you all and I really do thank you all for 
holding this hearing. I, particularly, want to thank 
Congressman Forbes for introducing H.R. 2183, which is the 
companion of Senate Bill 196, the Minority-Serving Institution 
Digital and Wireless Technology Opportunity Act, which passed 
the Senate on a vote of 97 to nothing. And the report of the 
Senate Committee on Commerce and Science and Transportation I 
think would be good reading for you all. The important 
background that your staff has done here in this committee, the 
Subcommittee, is very helpful as well.
    As Congressman Forbes said, the goal of our legislation, of 
this legislation, is very clear. We want to increase access to 
technology and address the technological deficiencies that 
exist at minority serving institutions and provide our young 
people, regardless of their ethnicity, regardless of their 
race, with important tools for success not just in college but 
in succeeding in life and the workforce.
    Now, these initiates you can call it the digital divide. 
The way I look at this is it is an economic opportunity divide. 
It is, generally, an economic matter. It has manifested itself 
in colleges and universities, what you may see in the general 
public as far as access to the Internet, what you see in the 
general population insofar as computer ownership and all the 
rest, and it gets even manifested in greater intensity when you 
look at the facts, and figures, and statistics insofar as 
minority serving institutions.
    I know the Members of this committee, the Subcommittee on 
Research, as well as Chairman Boehlert and all the folks on the 
House Science Committee, know better than most in Washington 
that the demand for workers in science and technology continues 
at a steady pace. The facts are that African-Americans, 
Hispanics, and American Indians constitute one-quarter of the 
total United States workforce and 30 percent of college-age 
population. It is estimated that in 10 years, these minorities 
will comprise nearly 40 percent of all college-age Americans. 
Yet, African-Americans, Latinos, American Indians comprise only 
seven percent of the U.S. computer and information science 
workforce, only six percent of the engineering workforce, and 
less than two percent of the computer science faculty. As 
Congressman Forbes said, 60 percent of all the jobs out there 
require technological proficiency, and clearly, those IT jobs 
pay more than the non-IT jobs. We have over 200 Hispanic-
serving institutions, over 100 historically black colleges and 
universities, and 34 tribal colleges throughout our land. It is 
clear that minority serving institutions provide a valuable 
service to the educational strength and the future growth of 
our nation. These institutions must have the capabilities and 
the infrastructure available for their students, and as well as 
their faculty and even to attract faculty, so that those 
students can compete and succeed in today's workforce.
    My view is we need to tap that under-utilized talent that 
we have in this country. I am in favor of the H-1B visas to 
bring in workers from overseas because of the demands of 
technology, but when you recognize the absolute truths and 
facts, there are millions of Americans with the proper 
training, with the proper education, that can get those good 
jobs, those good paying jobs right here in our own country. And 
the fact of the matter is, in particular, for the historically 
black colleges and universities, they are a legacy of the days 
of separate but unequal. They do not have the endowments, they 
do not have for the most part the foundations to pay for it so 
they are behind. Their students don't have the aid to get their 
own computers. And that is why we put in this bill the 
requirement that if anybody, any college or university has a 
$50 million endowment or more, there needs to be matching 
funds. So there is that aspect of economics to it.
    And Hampton University in Virginia is one of those that 
does have it. They weren't real pleased with this. They said 
why in the heck should we have to do it. I said, look, this is 
better than what you have otherwise, so the president wisely 
said, okay, we will go along with it. But gosh, just because we 
have a bigger foundation, we have done all this, why should we 
have matching funds. I said, it is an economics issue, it makes 
sense. But most students don't have computers so they are 
queued up in computer labs and that is why that infrastructure 
needs to be improved there. They also don't have the 
professors.
    And Congressman Forbes mentioned the Chronicle for Higher 
Education, and Mr. Chairman, I would like the June 27, 2003 
article entitled, Playing Catch Up, in the Chronicle for Higher 
Education be made a part of the record.
    Chairman Smith. Without objection, so ordered.
    [Note: The article referred to appears in Appendix 2: 
Additional Material for the Record.]
    Senator Allen. And it does show the difference between 
Virginia Union, an historically black college and university, 
compared to University of Richmond, both private colleges in 
Richmond. And I venture to say that if you compare Texas 
Southern to Texas Tech, or Florida A&M to Florida State, or 
Virginia State and Virginia Tech, you would see these vast 
disparities in opportunity and infrastructure. I will say that 
this has been supported by the Information Technology 
Association of America, ITAA, Computer Associates 
International, Oracle, Gateway, Bearing Point Technologies, 
Motorola, as well as others in the minority-serving 
associations.
    There were some concerns by some, including our colleague 
here, Congressman Towns, insofar as a peer review process at 
the National Science Foundation. We do have that peer review 
while providing flexibility needed to administer the grant 
program. We are working--also, they would be working with the 
Advisory Council that was created in the bill. And our hope is 
to provide the NSF with a maximum amount of flexibility to 
develop an equitable and fair process for evaluating these 
grants while ensuring that any peer review panel include 
members from minority serving institutions.
    So let me close with this, Mr. Chairman and Members of the 
Committee. A lot of us talk about doing something about the 
digital divide or the economic opportunity divide. There is a 
lot of talk, there are a lot of studies, a lot of facts, 
statistics, and a whole lot of rhetoric. With this measure that 
Congressman Forbes has introduced and the measure we got passed 
in the Senate, we recognize the time is now for action; not 
talk, but action--positive constructive ideas that will 
tangibly improve the educational opportunities for students and 
faculty at minority serving institutions across this country.
    We need to provide that access, that better technology. And 
I trust, Mr. Chairman, with your leadership and that of 
Congressman Forbes, with this initiative, the Minority Serving 
Institution Digital and Wireless Technology Opportunity Act, 
with this measure we can truly help close that opportunity gap, 
that economic opportunity gap, here in the United States of 
America. We will see the tangible difference in positive 
improvements in those campuses and will help make sure that no 
college student is left behind.
    I thank you, Mr. Chairman and all the Members of the 
Committee.

                               Discussion

    Chairman Smith. With the permission of the Committee, and 
Representative Towns, with your permission, I would--since 
Senator Allen is on a tight schedule, if we might ask Senator 
Allen any questions the Committee might choose to ask, and then 
we will proceed with Representative Towns.
    And Senator Allen, one question I have is how do we get 
some of these minorities into those colleges? We have started 
this partnership act, and it seems to me that it is very 
important that we look at ways to encourage and inspire, and if 
you will, put some kind of an effort to encourage more minority 
students to take an interest in science and math in the K 
through 12 and get them into college to accommodate the 
additional requirements of this.
    How do we do something like this for the K through 12 
effort to encourage more minority students, including women, to 
get into the science and math arena?
    Senator Allen. We actually had a hearing on that in the 
Senate as well, my friend, Senator Wyden. I think that the 
basic K through 12 needs to have an increased emphasis and 
accountability in science and mathematics, as well as 
economics, and social studies, and language arts. And all of 
that is very important. And that is, primarily, in my view, a 
function of state governments working with administration of it 
by local governments. And so in Virginia, Senator--I keep 
calling him Senator Forbes--Congressman Forbes was a big ally 
when we put in high academic standards, and you can't leave any 
child behind. We don't want students being graduated from grade 
to grade without knowing the essentials of science and 
mathematics, as well as being able to read, and write, and 
speak the English language well, and know about major 
civilizations of the world and economics and technologies.
    So in Virginia, we have the technology standards. 
Obviously, the academic standards in math, science, social 
studies, and language arts. We did have to get more graphing 
calculators for those who could not afford them because of the 
higher math standards. We had to provide also for different 
science probing kits for the science standards. And so you do 
have to invest in that area. Then you have to make sure that 
these students recognize, hey, there are good paying jobs here. 
There is something relevant to all of this. Why am I studying 
all of this? Well, there is a relevance, whether it may be 
interesting them to get into aeronautics, or nanotechnology, 
computer sciences, and others. But if they have that basic 
understanding when they go on to college to either become 
teachers or enter the field of work in the private sector, for 
African-Americans in particular, at least from my experiences 
and it is borne out by the facts in talking to Congresswoman 
Johnson, many of the historically black colleges and 
universities are nabbing you. It is a tradition, maybe their 
families went there, but still, it is a very important 
component in higher education. And if they then get there and 
they don't have, as Congressman Forbes said, the professors 
there, and they can't attract the professors because they don't 
have the infrastructure, what they are doing is just really 
limiting that higher education. Because the more education 
someone gets, it is just proven by facts the more knowledge one 
has, the better jobs they have. That is the good logic to it 
all.
    So K through 12 is important. This addresses, though, 
higher education, and higher education is where you fine tune 
those schools for those who do want to get those computer 
sciences or engineering jobs. But if you don't have the faculty 
because you don't have the critical technological 
infrastructure, the students may be doing fairly well, but they 
are really missing out on the opportunities to get the 
training, the education, that when they graduate from, whether 
it is Virginia Union, or Norfolk State, or Texas Southern, or 
Grambling, or Albany State, or the Mississippi Valley State, or 
Jackson State--we could go on for many of the schools--then 
they are not going to be able to get those good paying jobs and 
contribute to our society. So this is a comprehensive approach. 
It is focused on higher education and it is a great opportunity 
that I think we can make that positive impact on their lives 
and the security of our country, economic as well as national 
security.
    Chairman Smith. I agree. Senator, my staff nudged me and 
said that they had promised that you could leave by 20 after, 
but if there is a quick question for Senator Allen, I will 
accept it. Senator Allen, thank you very much for your 
leadership on this issue and for testifying before our 
subcommittee.
    Senator Allen. Thank you, Mr. Chairman. I look forward to 
working with you and Congressman Forbes to get this over the 
goal line. Thank you.
    Chairman Smith. We will do it week after next. Congressman 
Towns, thank you for being here and for your leadership on this 
issue.

STATEMENT OF EDOLPHUS TOWNS, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF NEW YORK

    Mr. Towns. Thank you very much.
    Chairman Smith. Is your button on?
    Mr. Towns. Thank you, Mr. Chairman and Ranking Member 
Johnson. Let me begin by expressing my appreciation to testify 
before you today with Senator Allen. In the 107th Congress, 
Senator Cleland and I decided it was time to do something about 
the lack of technological resources at our nation's MSIs. While 
our bill did not pass in the last Congress, I was pleased that 
we had strong bipartisan support in the Senate, including 
Senator Allen from Virginia, Chairman Young from Alaska here in 
the House.
    This year, Senator Allen advanced the cause by introducing 
S.196, which placed a similar program in the National Science 
Foundation. I would first like to thank and congratulate 
Senator Allen for doing that, for his fine work, and I have 
been pleased to have the opportunity to work with him on the 
legislation, which passed the Senate a few weeks ago, 97 to 0.
    While I support the effort of Senator Allen and my 
colleague, Congressman Forbes, I would like to briefly comment 
on the one difference in our two bills. It is on the issue of 
peer review. Peer review is the manner by which members of the 
MSI community would be able to advise the National Science 
Foundation on which school should receive this grant money. It 
is important, Mr. Chairman, as opposed to reviewers from large 
research universities who do not have any familiarity with the 
MSI community. Similar language was included in the bill last 
Congress, which was supported by Senator Allen and myself.
    It is my understanding that the NSF has concerns with the 
notion of a peer review provision, however, I believe the past 
record of performance by NSF argues strongly for a peer review 
provision. For example, in the year 2000, numbers suggest that 
only 1.29 percent of eligible NSF monies went to historically 
black colleges and universities. In Fiscal Year 2002, the 
representation of racial and ethnic minority reviewers who make 
decisions on grant recipients was approximately 1,100 
individuals from a pool of over 37,000. These statistics 
definitely suggest that there is, in fact, a need for reviewers 
from MSIs to participate in a peer review process, which for 
this program goes beyond a mere advisory capacity.
    I might add further, Mr. Chairman, I know that some have 
argued that this program may be better suited for placement in 
the Department of Commerce rather than NSF. As one of the 
authors of last year's bill, I do believe the MSIs would reap 
greater benefit from a program that was not limited to solely 
funding academic enhancements for science, research, and 
development, which would be the case if the program became part 
of NSF. Let me reiterate that last year's bill contained a peer 
review provision, because the Commerce Department did not have 
a record of interaction with MSIs.
    I would certainly encourage the Committee to explore both 
the Commerce Department and the NSF as agencies which could 
house this program. I would also again stress that there 
remains a need for the inclusion of a peer review provision 
regardless of where the program is located.
    Mr. Chairman, the legislation before us today reflects the 
need for a program that will help countless students at MSIs 
across the country regardless of where it is located. Just as 
the government has a responsibility to ensure that students 
have up-to-date textbooks and classrooms, we must also ensure 
that all of our students have access to modern technology 
services. I want to emphasize that my interest in this 
legislation is focused on creating opportunities available for 
all MSIs, not just those few who may have established 
themselves as elite research universities. If we all work 
together, this basic principle can be achieved if we make the 
commitment to do it.
    I would once again like to thank Senator Allen and my 
colleague, Congressman Forbes, for their leadership on this 
issue, and look forward to working with them to enact 
legislation that would truly help lift all of these schools 
into the 21st century. I thank you, Mr. Chairman, for allowing 
me the opportunity to testify, and I agree with my colleague, 
Senator Allen. I think that the time for action is now, and I 
think that we should move as quickly as possible. And on that 
note, I yield back the balance of my time.
    [The prepared statement of Mr. Towns follows:]

          Prepared Statement of Representative Edolphus Towns

    Thank you Chairman Smith and Ranking Member Eddie Bernice Johnson 
and I appreciate the opportunity to testify before you today with 
Senator Allen regarding H.R. 2183.
    Long before coming to the United States Congress, I have been 
intimately involved with our nation's Minority Serving Institutions or 
``MSIs,'' specifically Historically Black Colleges and Universities, 
not only graduating from North Carolina A&T but also serving on Shaw 
University's Board of Trustees and assisting for years in fundraising 
for the United Negro College Fund, now headed by our former colleague 
Bill Gray.
    In the 107th Congress, Senator Cleland and I decided it was time to 
do something about the lack of technological resources at our nation's 
MSIs. While our bill did not pass last Congress, I was pleased that we 
had strong bi-partisan support in the Senate, including Senator Allen 
from Virginia as well Chairman Young from Alaska here in the House.
    This year, Senator Allen advanced the cause by introducing S.196, 
which placed a similar program in the National Science Foundation. I 
would first like to thank and congratulate the gentleman from Virginia 
for his fine work and I have been pleased to have the opportunity to 
work with him on the legislation, which passed the Senate a few weeks 
ago.
    While I support the efforts of Senator Allen and my colleague, 
Congressman Forbes, I would like to briefly comment on the ONE 
difference in our two bills. It is on the issue of Peer Review. Peer 
Review is the manner by which members of the MSI community would be 
able to advise the National Science Foundation on which schools should 
receive this grant money, as opposed to reviewers from large research 
universities who do not have any familiarity with the MSI community. 
Similar language was included in the bill last Congress which was 
supported by Senator Allen and myself.
    It is my understanding that the NSF has concerns with the notion of 
a Peer Review provision; however, I believe the past record of 
performance by NSF argues strongly for a Peer Review Provision. For 
example, the Year 2000 numbers suggest that only 1.29 percent of 
eligible NSF monies went to HBCUs. Moreover, the current representation 
of racial and ethnic minority reviewers is approximately 60 individuals 
from a database containing over 240,000 people.
    These statistics definitely suggest that there is, in fact, a need 
for reviewers from MSIs to participate in a peer review process, for 
this program, which for this program goes beyond a mere advisory 
capacity.
    I might add Mr. Chairman; I know that some have argued that this 
program may be better suited for placement in the Department of 
Commerce rather than NSF. As one of the authors of last year's bill, I 
do believe that MSIs would reap greater benefits from a program that 
was not limited to solely funding academic enhancements for ``science, 
research and development'' which would be the case if the program 
became part of NSF. Let me reiterate that last year's bill contained a 
``Peer Review'' provision because the Commerce Department did not have 
a record of interaction with MSIs.
    I would certainly encourage the committee to explore both the 
Commerce Department and the NSF as agencies, which could house this 
program. I would also again stress that there remains a need for the 
inclusion of a peer review provision regardless of where the program is 
located.
    Mr. Chairman, the legislation before us today reflects the need for 
a program that will help countless students at MSIs across the country 
regardless of where it is located. Just as the government has a 
responsibility to ensure that students have up to date textbooks and 
classrooms, we must also ensure that all our students have access to 
modern technology services. I want to emphasize that my interest in 
this legislation is focused on creating opportunities available for all 
MSIs, not just those few who may have established themselves as elite 
research universities. If we all work together, this basic principle 
can be achieved.
    I would once again like to thank Senator Allen and my colleague Mr. 
Forbes for their leadership on this issue and look forward to working 
with them to enact legislation that will truly help lift all of these 
schools into the 21st Century. I thank you Mr. Chairman for the 
opportunity to testify today and look forward to taking any question 
the panel may have.
    I yield back the balance of my time.

                               Discussion

    Chairman Smith. Mr. Towns, when you talk about peer review, 
are you suggesting that there be minority representation on the 
peer review for all research grant applications?
    Mr. Towns. That is correct.
    Chairman Smith. But normally, the review of a particular 
area of research is given--I mean, who we ask to review is, 
generally, some of the individuals that are expertise in those 
particular areas. And it seems to me--are you suggesting that 
we legislatively demand that minorities be involved regardless 
of what the grant application is for?
    Mr. Towns. Mr. Chairman, what I am saying is simply this, 
that if you have reviewers that have gone to these elite 
universities--and I think that they might not have the 
sensitivity to some of the other schools that we need to bring 
in, and I think that is the problem. So even if you have a 
minority person on, and that person is not, you know, familiar 
with some of the other universities, colleges, then I am not 
certain that they would be served well. So I think that we have 
to have the kind of balance to be able to make certain that 
everybody is included.
    Chairman Smith. I see. I think I agree with you that it is 
reasonable to make sure that there is an outreach to include 
schools that are serving minorities to get some of those 
research grants, but in terms of what grants and what research 
areas are going to be pursued maybe isn't as important as 
trying to make sure that some of the research grant effort go 
to all institutions.
    Mr. Towns. I am not saying that you know--the point that I 
am making, I think we are agreeing with each other. I really 
do. What I am saying to you is this, that if you do not have, 
you know, people involved from these institutions that, Mr. 
Chairman, I am afraid they are going to be left out. You see, 
what happens is we have certain elite universities out there. 
They get the grants and others do not. Take, for instance, we 
have in Mr. Forbes' area a school like St. Paul, will never be 
able to benefit from, you know, if we don't indicate that. Like 
Everetts in my home town. Of course, if we don't say something 
about it or legislate it, then they will never benefit from it.
    So what I am saying is simply this, that we have to have 
people that are sensitive to these kinds of issues to be able 
to include everybody, bring everybody in. If not, you know, we 
are going to continue business as usual, and I think we cannot 
afford the luxury of that.
    Chairman Smith. Thank you. Representative Johnson.
    Ms. Johnson. Thank you, Mr. Chairman. Mr. Towns, I had a 
conversation with Senator Allen prior to us starting this 
morning. He indicated he has made a correction in his bill. 
Have you seen that correction?
    Mr. Towns. I have not.
    Ms. Johnson. Nor have I, but he feels that that takes care 
of the concern and felt that out of his research it warranted 
that change. If this coincides with your concern, can these 
bills be merged?
    Mr. Towns. Right, if it does. I would like to see his 
language, Ms. Johnson, before I would commit to that.
    Ms. Johnson. Sure.
    Mr. Towns. But I am eager to move this along. I really want 
to see it happen. But the point is that I think that we do not 
want to make a mistake in terms of business as usual. So I 
would like to see the language and see--you know, if we could 
merge it, I would be receptive to doing that.
    Ms. Johnson. Well, I agree with you totally. I would like 
to see it myself, because the record speaks for itself. It is 
documented that these institutions have not received any 
significant grant dollars, and that certainly is going to be 
necessary to correct. We all know that most of the African-
American teachers graduated from these institutions and the one 
thing that we need for the future is students who are literate 
in science and math. In my district, we have the number one 
institution, high school, in the country for science and 
engineering, scoring higher than any other high school in the 
country. But we are turning students away because of the lack 
of space. When we ask about getting assistance, it is clear 
that there is hardly anyplace to go. This has been an area that 
I came here concerned with because I saw Texas Instruments 
start from scratch and become a worldwide business, and several 
others, ADS, and we had the largest number of H-1B visa 
employees than anyplace else in the country because we were not 
producing the talent that is needed in the area. So the 
correction is certainly needed.
    I have an historically black college in my district who has 
never received anything from the National Science Foundation. 
And I realize that, originally, the bill was set to be in 
Commerce. I think, correctly, it should be in the National 
Science Foundation. And I believe that the people there are 
willing to attempt to adjust to see that the problems are taken 
care of. We have had conversations about it, but we do need 
some concrete guidelines to be sure of that. When you look at 
the difference, it is just alarming. And so I will work with 
you to see that we have the proper language in whatever bill 
that does move to make sure that these problems are addressed. 
And I thank you for your efforts.
    Mr. Towns. Right. And let me assure you as well, the last 
thing I want to do is slow this bill down. That I don't want to 
do. I want to make certain, you know, that we fix certain 
things that are broken, and that is my concern. And as soon as 
we could do that, you know, we could move it forward. I am not 
interested in terms of, you know, creating any kind of 
slowdown. I want to make that very, very clear, Mr. Chairman. 
But I do want to make certain that some of those institutions 
that have been left out are able to be pulled in. So thank you 
very much for the opportunity.
    Ms. Johnson. Thank you.
    Chairman Smith. As I understand it, there are about 400 
minority serving institutions. We are talking about 250 
million. To adequately accommodate some of the needs, it is 
going to take maybe $2 or $3 million at some of these 
institutions. Give us your ideas. As we sort of left--the 
legislation leaves this a little open-ended on how we make the 
decision of which institution gets the funds. But obviously, we 
are not going to be able to--if you simply divide the $250 
million to all 400 schools, then it is not going to be the kind 
of dollars that are necessary to accommodate the needs if they 
are going to be effective in accomplishing our goals, it seems 
to me. Any thoughts on how you decide which schools get the 
grants?
    Mr. Towns. If we have a good peer review team, I think that 
they would be able to be helpful. Also----
    Chairman Smith. If a need based on their effort to----
    Mr. Towns. Look at needs, but also, Mr. Chairman, I am 
hoping that we will come to the realization that additional 
money is needed. If we are serious about, you know, making 
certain that we are able to compete, then we might have to look 
at additional dollars. But I think that with additional dollars 
and with the peer review team looking at these universities and 
their needs, I really feel that, you know, we can do a much 
better job. In terms of, you know, how we get them, if we put 
together the right kind of team, I think they can answer a lot 
of our questions, really, and a lot of our concerns if we have 
that. The point is that that is so crucial. That is key in 
terms of having people that are sensitive to what is going on 
out here, and to be able to reach out to some of these other 
schools.
    And also, to let us begin to fight for additional money. 
Additional resources, you know, are needed. If we are going to 
say, leave no child behind, and then cut the budget, then leave 
all the children behind, I mean, something is wrong with that 
kind of thinking. So we have to now recognize the fact that if 
we are serious about leaving no child behind, we have to do all 
the kind of things to make certain they are not left behind. 
And I am hoping that you and the other members will begin to 
fight, you know, for that, and I think that we should because 
it is the appropriate thing to do. I mean, if we are going to 
be the leaders, we should exemplify that in terms of our 
commitment to the cause.
    Chairman Smith. Mr. Forbes, did you have a question?
    Mr. Forbes. Mr. Chairman, I don't have any additional 
questions.
    Chairman Smith. Mr. Towns, thank you very much.
    Mr. Towns. Thank you.

                                Panel II

    Chairman Smith. If Panel II would come to the table? A 
brief introduction, Dr. Fred Humphries is the President of the 
National Association for Equal Opportunity and Higher 
Education. And Dr. Humphries, prior to joining the NAFEO, Dr. 
Humphries served as President of Texas A&M and--pardon?
    Dr. Humphries. Florida A&M.
    Chairman Smith. Florida A&M. Thank you. And also, Tennessee 
State University, for a total of what we have in our records as 
more than 27 years. So Dr. Humphries, thank you very much for 
giving your time to the Committee this morning.
    Ricardo Fernandez is the President of Herbert H. Lehman 
College, the CUNY, and he will be testifying on behalf of the 
Hispanic Association of Colleges and Universities. And prior to 
CUNY, Dr. Fernandez served at the University of Wisconsin, 
beginning as an Assistant Professor of Cultural Foundations and 
rising to full Professor and Assistant Vice Chancellor for 
Academic Affairs. Dr. Fernandez, welcome to our Committee.
    Dr. Larry Earvin is the President of the Huston-Tillotson 
College in Texas, and he will be testifying on behalf of the 
United Negro College Fund [UNCF].
    And Dr. Dwight Fennell is the President of Paul Quinn 
College in Texas. And prior to joining Paul Quinn, Dr. Fennell 
worked as an American Council on Education fellow, and he 
served on various capacities in the St. Augustine College, and 
his duties ranged from Assistant History Professor to Vice 
President for Academic Affairs.
    So Representative Johnson, Texas is represented today in 
your behalf. Would you like to make any additional introductory 
comments?
    Ms. Johnson. Mr. Chairman, I want to thank the panelists. I 
support what they stand for, what they are here for. I have 
worked with them. We have even discussed this bill in detail 
and I look forward to their testimony. I think they can offer 
us an idea of how we might be able to structure what dollars we 
do have to cover as much ground as we can. And I appreciate the 
fact that we have at least two Texans here. You know, we have a 
very, very large potential college enrollment in Texas, 
probably one of the State's largest, and so it is significant 
that we have two Texans here, besides, Texas being a leading 
state. Thank you.
    Chairman Smith. It almost makes me wish we had somebody 
here from Michigan. Project Hope, by the way, I need to get you 
to Michigan to visit our Project Hope in Detroit.
    Dr. Humphries--for the record, everybody's total testimony 
will be included in the record. We will ask you to come close, 
between five and seven minutes, wherever you are comfortable. 
Dr. Humphries, please proceed.

 STATEMENT OF DR. FREDERICK S. HUMPHRIES, PRESIDENT, NATIONAL 
     ASSOCIATION FOR EQUAL OPPORTUNITY IN HIGHER EDUCATION

    Dr. Humphries. Thank you very much, Mr. Chairman.
    Chairman Smith. Dr. Humphries, there is a button there.
    Dr. Humphries. Okay. It shows you we need technology help. 
Mr. Chairman and distinguished members of the House Science 
Committee, Subcommittee on Research, I am the Chief Executive 
Officer of the National Association for Equal Opportunity in 
Higher Education, NAFEO. I want to thank you for the 
opportunity to participate in the hearing on H.R. 2183, the 
Minority Serving Institution Digital and Wireless Technology 
Opportunity Act, as introduced by Representative Randy Forbes. 
H.R. 2183 would establish within the National Science 
Foundation an Office of Minority Serving Institution Digital 
and Wireless Technology. The purpose of this office will be to 
strengthen the ability of minority serving institutions to 
provide a capacity for instruction in digital and wireless 
network technologies by providing grants to, or executing 
contracts or cooperative agreements with, those institutions to 
provide such instruction; and (2) strengthen the national 
digital and wireless infrastructure by increasing the national 
investment in telecommunication and technology infrastructure 
at minority serving institutions.
    Very similar legislation, H.R. 2272, has been introduced in 
the House of Representatives by Representative Edolphus Towns, 
and in the Senate, Senator George Allen has introduced Senate 
Bill 196. The introduction of each of these measures 
collectively reflect the vision, understanding, and leadership 
needs to close the digital divide and to stimulate national 
awareness and involvement in this area.
    NAFEO is the umbrella organization of the historical black 
colleges and universities and the predominantly black colleges 
in the United States of America. Our colleges span from Texas 
to Florida, to Massachusetts, and from New York to California. 
We have 118 member institutions, 450,000 students, largely 
African-American, attend these institutions. They are 46 
percent public and 54 percent private, the membership of NAFEO. 
The organization's membership is comprised of two-year and 
four-year institutions, and the schools that offer advanced and 
professional degrees, they are public and private, large and 
small, urban and rural, liberal arts, agricultural, and 
research. We embrace the whole scope of the institutions that 
consider themselves predominantly black or HBCUs in the United 
States of America.
    There are two major dimensions to the digital divide: (1) 
Providing access to information technology; and (2) expanding 
the application and use of information technology. We think the 
$250 million, hopefully, will be done annually; not in just a 
one-single shot to solve the problem, but to do it annually. 
And that the level of funding, about $2.5 million per 
institution, to support the eight broad categorical areas that 
are introduced by the bill is just about right to really make a 
significant dent in the project for those schools that actually 
get the grant from the National Science Foundation. We support 
the idea of an advisory council and we support the idea of a 
peer review system wherein the peer review team comes from the 
institutions that will be served by the money that is granted 
from the National Science Foundation.
    You asked that I address three specific questions, and I 
will direct my attention directly to that. The first question 
being what were the findings of the National Telecommunications 
and Information Administration funded report, entitled, 
Historically Black Colleges and Universities: An Assessment of 
Networking and Connectivity? What do these findings mean for 
graduates of historical black colleges and universities? We 
found that approximately 75 percent of the students attending 
the historical black colleges and universities do not own their 
own computers. The national average is about 50 percent; one 
out of two will own their computers across the higher education 
spectrum. So we have a really serious deficiency in our student 
body simply because students are poor, they come from poor 
families, and they cannot afford to buy a computer. And our 
financial aid allocation under the Title IV [of the Higher 
Education Act] programs of our government do not provide enough 
support that if you included a computer in the allocation of 
need, you couldn't fund it anyway, because the money that is 
appropriated in Title IV [of the Higher Education Act] does not 
meet the need today without a computer, of the needs of the 
student. So there is an insufficiency in funding to address the 
need. And if you just add a computer on top of that, you are 
exacerbating the lack of funding for the students.
    Approximately, 88 percent of the historical black colleges 
have access to T-1 lines from their campuses, and therefore, 
the more sophisticated and the more demanding technology that 
is present, the state of the art that is operational in our 
society today, cannot be accommodated by the existence of just 
one T-1 line. So there is an insufficiency in communicating 
with the world, being a part of a global interconnectivity that 
is enjoyed in our society. We have very limited connection with 
the outside world. Only about 13 percent network with K through 
12 school districts, a concern that you have had, Mr. Chairman; 
20 percent with the Federal Government and only five percent 
with commercial vendors.
    One of the major things that need to be addressed is that 
as you advance in the technology holdings of your campus, as 
you become wireless, and as you add the fiber optic backbone to 
your campus, and as you connect up all of your buildings, and 
put facilities in dormitories, and add the T-1 line, supporting 
connectivity with the outer world, comes with that the 
requirement that you have the kind of sufficiency in terms of 
human resources that will deal with having the technical 
expertise that can maintain that system. And I can tell you 
that hardly any of our institutions have the capability or the 
money to provide the human resources that are required to 
operate at the state of the art level today in technology. So 
one of the big needs we have as we cross this digital divide is 
the ability to support the infrastructure in terms of human 
resource people to do that.
    There is a requirement for maintenance and replacement of 
installed technology. We have to train people, the 
administration and the faculty, so that they can do distance 
learning courses and so that they can use technology in the 
actual instruction in their classrooms and be responsive to a 
student body that is doing that. Today, the average modality of 
our institutions in responding to technology and the absence of 
computer on the part of our students is that we set up computer 
laboratories. And if you were to visit one of our campuses, you 
would see those laboratories are completely active all day 
long. But it is not enough. It does not get to the point that 
you raised, Mr. Chairman, of providing the first rate 
technological instruction that makes our students competitive 
when they enter the world outside of those colleges, that they 
are up to snuff, know what the other people know, and can 
compete on an even level.
    So this bill, if it is passed, will do a lot to alleviating 
that question. So we recommend for a very important reason that 
this bill and the fund, the program, be placed with the 
National Science Foundation. The reason for that is we think a 
lot of minorities going into the building out there in 
Arlington at the National Science Foundation will help them 
understand that they need to put more minorities in the other 
programs that they have, and there will be occasions that they 
will have a chance to discuss with a whole lot of people at NSF 
the need to have more minority involvement instead of the one 
plus percent that is in the other programs of the National 
Science. So the more minorities we see go into that building, 
the better we think it is for science and technology at the 
minority serving institutions. I thank you.
    [The prepared statement of Dr. Humphries follows:]

              Prepared Statement of Frederick S. Humphries

INTRODUCTION

    Mr. Chairman and distinguished Members of the House Science 
Committee, Subcommittee on Research, I am Dr. Frederick S. Humphries, 
President and Chief Executive Officer of the National Association for 
Equal Opportunity in Higher Education (NAFEO). First, I want to thank 
you for the opportunity to participate in this hearing on H.R. 2183, 
the Minority Serving Institutions Digital and Wireless Technology 
Opportunity Act. As introduced by Representative Randy Forbes (R-VA), 
H.R. 2183 would establish within the National Science Foundation an 
Office of Minority Serving Institution Digital and Wireless Technology. 
The purposes of this Office will be to (1) strengthen the ability of 
Minority Serving Institutions (MSIs) to provide capacity for 
instruction in digital and wireless network technologies by providing 
grants to, or executing contracts or cooperative agreements with, those 
institutions to provide such instruction; and (2) strengthen the 
national digital and wireless infrastructure by increasing national 
investment in telecommunications and technology infrastructure at MSIs.
    Very similar legislation, H.R. 2272 has been introduced in the 
House of Representatives by Representative Edolphus Towns (D-NY); and, 
in the Senate, Senator George Allen (R-VA) has introduced S. 196. The 
introduction of each of these measures collectively reflects a vision, 
understanding and leadership needed to close the digital divide and to 
stimulate national awareness and involvement in this area.
    As the CEO of NAFEO and a former college president, I believe this 
hearing is an exemplary way to acknowledge the contributions and 
relevance of MSIs, and the leadership we have provided in national 
policy development, particularly in the science and technology areas. 
Our inclusion and participation in this process of policy formation is 
a most necessary exercise, if we, as a community of stakeholders and 
leaders, are to succeed in meeting and overcoming the challenges before 
us. Moreover, the ultimate enactment of this legislation will put MSIs 
in a position to better address national science and technology (S&T) 
and workforce objectives, including engaging those communities where 
the digital divide is most serious. I am sure that this hearing will 
hasten a dialogue and implementation of programs that are long overdue.

NAFEO'S ROLE AND MISSION

    BACKGROUND--As background, let me begin by describing NAFEO's 
mission and role in this discussion. NAFEO serves as the national 
umbrella organization for more than 100 predominately and Historically 
Black Colleges and Universities (HBCUs). Our mission is to champion the 
interests of our member institutions through the executive, legislative 
and judicial branches of Federal and State Government. For more than 
three decades, we have played a pivotal role in articulating the needs 
for a system of higher education where race, ethnicity, socio-economic 
status, and previous educational attainment levels are not determinants 
of either the quantity or quality of higher education. The organization 
takes lead responsibility for the development and dissemination of 
public policies, programmatic efforts, and strategic and educational 
materials that: (1) enhance the role of HBCUs, generally, and (2) 
promote African American student enrollment and attainment, 
specifically. NAFEO is comprised of institutions of higher education 
that represent a broad spectrum of interests--public and private, large 
and small, urban and rural, liberal arts, agricultural, and research. 
Of the HBCUs that belong to NAFEO, 46 percent are public, and 54 
percent are private. The organization's membership is comprised of two-
year and four-year institutions, as well as schools that offer advanced 
and professional degrees, and they are situated in every quarter of the 
country, the District of Columbia, and the Virgin Islands.
    HISTORICAL MANDATE AND SIGNIFICANT ACCOMPLISHMENTS--At the time of 
Brown vs. Topeka Board of Education and the end of de jure segregation 
in the public schools, but not the end of racially exclusive, whites-
only systems of higher education in the South or nearly all-white 
systems of higher education in the north, HBCUs were producing more 
that 90 percent of all Black baccalaureates and more than 90 percent of 
all Blacks who went on to become doctors, lawyers, and Ph.D.s. Now, 
HBCUs still enroll the largest concentration of both the well and under 
prepared African American students, many of whom come from high poverty 
school systems and low-income families. While HBCUs enroll 
approximately 16 percent of all African American undergraduate 
students, these institutions graduate about 30 percent of all African 
Americans who complete their baccalaureate degrees annually. HBCUs are 
the largest producers of African American teachers and baccalaureates 
in science and technology. Additionally, a higher percentage of Black 
Ph.D. candidates from HBCUs complete their degrees than those from non-
HBCUs, 42 percent each year, to be exact. We also are building our 
Ph.D. programs to address the undersupply of African Americans in the 
science and technology fields as well as expanding our capacities to 
offer professional degree programs.
    The enrollment and graduation rates of these institutions are most 
sensitive to even the slightest shifts in state and federal policies 
affecting college admission, retention, and completion. Therefore, for 
the last 40 years, HBCUs have served as the barometer that gives the 
earliest and most reliable indicators of whether new educational 
policies instituted by federal, State, or private sector policy-makers 
will advance or retard the movement toward equality of educational 
opportunity. Undoubtedly, the appropriation of federal dollars and the 
development of federal policies specifically targeting HBCUs have 
assisted greatly in meeting national goals of expanding educational and 
workforce opportunities for all Americans, but particularly for African 
Americans. The legislation we address today is a welcome and overdue 
installment in our collective efforts to meet the worthy national 
objectives related to increasing opportunities for all Americans.

H.R. 2183 AND RELEVANT PROVISIONS

    There are two major dimensions to the digital divide: (1) providing 
access to information technology (IT) and (2) expanding the application 
and use of information technology. H.R. 2183 seeks to address both of 
these issues and helps to remedy the issue of the digital divide that 
exists among HBCUs and other MSIs as well as the communities they 
serve. The bill seeks to strengthen the institutional capacity by 
authorizing $250 million annually (providing up to $2.5 million per 
institution) in support of eight broad categorical objectives.\1\ The 
Forbes, Towns and Allen versions of the bill each include these eight 
categorical objectives under Section 3--Activities Supported.
---------------------------------------------------------------------------
    \1\ (1) To acquire the equipment, instrumentation, networking 
capability, hardware and software, digital network technology, wireless 
technology, and infrastructure; (2) to develop and provide educational 
services, including faculty development, related to science, 
mathematics, engineering, or technology; (3) to provide teacher 
education, library and media specialist training, and preschool and 
teacher aid certification to individuals who seek to acquire or enhance 
technology skills in order to use technology in the classroom or 
instructional process; (4) to implement joint projects and consortia to 
provide education regarding technology in the classroom with a State or 
State education agency, local education agency, community-based 
organization, national non-profit organization, or business, including 
minority businesses; (5) to provide professional development in 
science, mathematics, engineering, or technology to administrators and 
faculty of eligible institutions with institutional responsibility for 
technology education; (6) to provide capacity-building technical 
assistance to eligible institutions through remote technical support, 
technical assistance workshops, distance learning, new technologies, 
and other technological applications; (7) to foster the use of 
information communications technology to increase scientific, 
mathematical, engineering, and technology instruction and research; and 
(8) to develop proposals to be submitted under this Act and to develop 
strategic plans for information technology investments.
---------------------------------------------------------------------------
    Additionally, H.R. 2183 calls for the establishment of an Advisory 
Council; dissemination of information annually to further capacity 
building and collaboration; a matching requirement with a possibility 
of waiver in certain circumstances; and annual reports and evaluation.

QUESTIONS SPECIFICALLY RAISED BY THE SUBCOMMITTEE TO BE ADDRESSED

    In preparation for today's hearings, Chairman Nick Smith (R-MI) 
specifically asked that three issues be addressed. They are:

        <bullet> What were the findings of the National 
        Telecommunications and Information Administration funded 
        report, entitled Historically Black Colleges and Universities: 
        An Assessment of Networking and Connectivity? What do those 
        findings mean for graduates of Historically Black Colleges and 
        Universities (HBCUs)?

        <bullet> What are the most important technology issues for 
        HBCUs? How will H.R. 2183 help meet those unmet needs?

        <bullet> How do HBCUs currently fund their technology 
        infrastructure? What is the source of that support (Federal, 
        State, local, private)?

    Each question is addressed below.

What were the findings of the National Telecommunications and 
Information Administration funded report, entitled Historically Black 
Colleges and Universities: An Assessment of Networking and 
Connectivity? What do those findings mean for graduates of Historically 
Black Colleges and Universities (HBCUs)?

    In 2000, with the support of the Department of Commerce, NAFEO 
completed a study entitled Historically Black Colleges and 
Universities: An Assessment of Networking and Connectivity (see 
appendix). The study attempted to address a set of fundamental 
questions, e.g., ``Where are HBCUs on the Information Super Highway? 
Are they on the side of the road, the on-ramp, or speeding along in the 
fast lanes?'' The project conducted an assessment related to a broad 
spectrum of issues, including computer ownership, student/faculty 
access, connectivity, capacity, facilities, web-based services, 
distance learning and multi-media. Of 118 HBCUs surveyed, 80 
participated.
    There are several significant findings included in the study. For 
instance, half of the HBCUs surveyed did not have computers available 
in the location most accessible to students--their dormitories. 
Additionally, 80 percent of the computers on HBCU campuses are owned by 
the institution itself. Administrators and faculty are in the second 
category of ownership while students own the fewest. The study notes 
that one technology professor at a four-year, rural, public HBCU 
observed, ``We have a number of computer labs at our University that 
are open seven days a week, 24-hours a day. One of our labs has 60 
computers and its packed all day every day.'' In addition to these 
findings related to access and ownership, it is relevant to note that 
in those exceptional instances when we can identify students at HBCUs 
that own their own computers, they oftentimes own seriously outdated or 
incompatible equipment. Other findings included in the Department of 
Commerce study, which appear in the appendix and hereby are 
incorporated by reference, include the following:

        <bullet> Approximately 75 percent of students attending HBCUs 
        do not own their own computers and must rely on institutional 
        resources to connect to the Internet, World Wide Web, or other 
        networks. Contrast this finding with the 1999 Campus Computing 
        Study, which reports that among all institutions of higher 
        education, 49 percent, or about one out of every two students 
        personally own their own desktop or notebook computers.

        <bullet> Most HBCUs do not have high-speed connectivity to the 
        Internet and World Wide Web. Only three percent of these 
        colleges and universities indicated that financial aid was 
        available to help their students close the ``computer ownership 
        gap.''

        <bullet> Approximately 88 percent of HBCUs have access to T-1 
        lines from their local ISPs and operating companies and connect 
        to their networks using single or multiple T-1 lines. However, 
        a single T-1 line is not sufficient to provide a large campus 
        with effective bandwidth for 21st century connectivity. The 
        more bandwidth capacity an HBCU has, the more possibilities 
        that institution may have for participation in advanced 
        projects such as Internet2, which may be one of the key areas 
        that hold back HBCUs from making the digital leap into this 
        century.

        <bullet> Extensive connectivity to a global community appears 
        to be underutilized among HBCUs. Connectivity beyond the campus 
        borders only extends to regional and/or statewide networks, or 
        in a few instances to the Federal Government.

        <bullet> Out of the 80 HBCUs responding to the Commerce study, 
        only 31 percent indicate that they network with state college 
        systems, 13 percent network with the K-12 school districts, 20 
        percent with the Federal Government, and 5 percent with 
        commercial vendors.

    What these findings reveal is that while ``HBCUs are not in the 
`dark ages' of networking and connectivity by providing access for 
students and faculty to the Internet and World Wide Web,'' they do 
raise conclusive concerns that ``the strategies to upgrade and improve 
network systems are generally weak.'' Additionally, HBCUs have 
insufficient resources to assist students close the ``computer 
ownership gap.'' It is clear from the NAFEO study that absent proactive 
steps at the federal level to provide critical resources, the vast 
majority of HBCUs, their students, faculty, administrators and the 
communities they serve will be forced to operate on the periphery of 
the parameters that define the digital divide, or fall into a 
permanently disabling gulf of limited or no access.

What are the most important technology issues for HBCUs? How will H.R. 
2183 help meet those unmet needs?

    Many of the technology issues facing HBCUs were addressed in the 
Department of Commerce-sponsored study referenced above that was 
conducted by NAFEO. Connectivity, ownership, access, strategic 
planning, distance learning, and the infrastructure needed to support 
more advanced research and development activities are all areas where 
additional resources are needed. A short selection of certain key areas 
of concern can be summarized as follows:

        <bullet> One of the single largest information-technology 
        problems that colleges and universities must address is the 
        need to assist faculty members in their efforts to integrate 
        technology into instruction. There is a tremendous need for 
        professional development and training.

        <bullet> Every HBCU should have a plan and the resources to 
        help faculty develop the skills and knowledge that will allow 
        them to keep pace with the expectations of their students.

        <bullet> HBCUs also need qualified technical staff and 
        information technology specialists to help develop strategic 
        plans and manage the operation of information technology 
        systems. A focus must be on ensuring connectivity to other 
        HBCUs, majority institutions, state and local agencies, 
        industry and beyond the federal agencies.

        <bullet> A critical need that separates low technology 
        resource institutions from mainstream institutions is the 
        availability and quality of Help Desk and on-site technical 
        support for users and for the overall network/IT system 
        reliability. These support services are ongoing, continuing 
        costs associated with any successful operation.

        <bullet> Maintenance and replacement of installed technology 
        is a continuing cost that can approximate 10-15 percent of the 
        total cost of the installed technology base on a campus. This 
        includes costs associated with software and hardware.

        <bullet> HBCU administrators need training and IT resources to 
        manage complex data gathering, financial aid, accounting and 
        other management processes, including Enterprise Resources 
        Planning Systems/Enterprise Document Management/Data 
        Warehousing systems to facilitate planning, accountability and 
        quality responses to requests for data and reports from 
        internal managers and government agencies.

        <bullet> Many HBCUs are without sufficient bandwidth required 
        for 21st Century connectivity. Specifically, institutional-wide 
        access, i.e., students, faculty and researchers to Internet 
        resources requires multi-megabit bandwidth by institutions, 
        which is very costly. These bandwidth needs continue to 
        escalate.

        <bullet> Our students are without regular and timely access to 
        quality computers.

        <bullet> Facilities and equipment are outdated or otherwise 
        ill-equipped to accommodate state-of the-art IT requirements. 
        Resources for renovation and updating equipment are needed.

        <bullet> Network security and protection of critical data to 
        enable uninterrupted and secure transactions is a national 
        issue. Current requirements, including network audits, 
        performance analyses, installation of sophisticated firewalls 
        and other intrusion detection systems are very costly. A 
        performance analysis alone, on average at HBCUs, costs an 
        estimated $100,000. Intrusion detection systems can cost up to 
        $300,000.

        <bullet> Resources to enable the planning, testing and 
        implementation of disaster recovery and business continuity 
        programs.

    Even more specifically, on page two of the NAFEO study, it is noted 
that in order for HBCUs to successfully leap across the digital divide 
into the 21st Century, there will need to be a focus on institutional 
resources to address several areas of weakness: (1) improvement of 
high-speed connectivity rates; (2) dramatic improvement of student to 
computer ownership ratios; (3) improvement of the strategic planning 
process; and (4) willingness to incorporate innovative technologies 
into campus networks.
    H.R. 2183 attempts to meet these needs by providing significant 
flexibility in the permissible use of funds, and the way in which funds 
can be awarded. Under the legislation, eight possible categories of use 
of funds have been identified. Funding can be awarded by grant, 
contract or cooperative agreement. Additionally, the bill will allow 
the appointment of an Advisory Council. In designating appointments to 
the Council, NAFEO recommends that a representative from each MSI 
community be appointed and that any competitive proposals be peer-
reviewed by persons from these communities.
    Turning to the issue of peer-review, NAFEO asks that H.R. 2183 be 
amended to incorporate language included in Representative Towns' bill, 
H.R. 2272, Section 4. Under Section 4 of the Towns bill, language is 
included that separates the function of a peer-review panel from that 
of the Advisory Council. NAFEO deems it imperative that, in making 
competitive grant awards, representatives of the communities to be 
served be included in the review and award processes. These individuals 
will bring a distinct familiarity and understanding of the special 
challenges MSIs face related to IT.
    Finally, the one area not addressed in H.R. 2183 (or the other 
versions of the legislation), which the NAFEO study identifies as an 
area of critical need, is the student to computer ownership ratio. In 
response to this particular finding related to the paucity of HBCU 
students who own a computer, NAFEO has drafted a proposal to provide 
every fully Pell eligible freshman at an HBCU with a computer that they 
would keep through matriculation. The estimated cost is about $20 
million annually. We ask the committee to support the Freshman Computer 
initiative, either through the appropriations or authorization 
processes.

How do HBCUs currently fund their technology infrastructure? What is 
the source of that support (Federal, State, local, private)?

    The HBCU community is pursuing all possible avenues of funding to 
support the building of its technology infrastructure. Federal, State, 
local and private resources have been secured to bring us where we are. 
However, funding patterns have been sporadic, fragmented and 
insufficient to meet the needs of the community. Therefore, 
comprehensive, strategic and coordinated assistance at the federal 
level is needed.
    At the federal level, there are several competitive grant programs 
that support IT and related equipment acquisition efforts at 
institutions of higher education generally. Typically, HBCUs receive 
few of these dollars. In some instances, competition is keen, and the 
dollars available are small. In other instances, program descriptions 
often exclude HBCUs by targeting the larger, more advanced research 
institutions. Consider also, that the NSF reports that in 2001, 
institutions of higher education received $19.1 billion for federally 
supported research and development activities. Of this amount, 100 
HBCUs only received $261.9 million, about 1.3 percent of the total. 
Compare this to the $879.7 million federal R&D funding received by 
Johns Hopkins alone in the same year. This data is significant because, 
the funding of R&D also affords institutions of higher education access 
to indirect costs that can then be used to support a number of facility 
enhancing activities, including IT. In this light, it appears that the 
under-representation of HBCUs in the federally funded R&D area, 
undoubtedly, has helped to exacerbate the digital divide.
    As another example, in reviewing awards made as a part of the NSF 
Computer Science, Engineering, and Mathematics Scholarships (CSEMS)\2\ 
program, in 2000 and 2001, there appears to be an under-participation 
of HBCUs. In 2000, HBCUs received 6.9 percent of the total awards. By 
2001, HBCU participation had dropped to 6 percent, while funding for 
the overall program more than doubled--increasing from about $24 
million to over $50 million. Funding for HBCUs, during that period 
increased by $100,000 (going from $1.4 million to $1.5 million), but 
the number of schools participating declined. The most significant and 
consistent source of federal funding, with the greatest flexibility and 
broadest coverage across the HBCU community probably is the Title III, 
Part B--Strengthening Institutional Capacity Program, funded by the 
Department of Education. However, these funds, averaging between 
$500,000 to $1 million, can be used for a multiplicity of purposes and 
often are used to address other pressing campus needs. Other HBCU 
specific accounts, cutting across the federal spectrum have been useful 
also. Federal funding, unfortunately, over the years, has not kept pace 
with the actual needs of the community.
---------------------------------------------------------------------------
    \2\ The CSMES program provides grants to post-secondary academic 
institutions to fund scholarship for academically talented, financially 
needy students seeking a degree in computer science, computer 
technology, engineering technology, or mathematics. CSMES is funded 
from a $1,000 fee that employer pay for each temporary foreign 
professional employee who enters the U.S. through the H-1B visa 
program. The 1998 Act allocated 28.2 percent of the H-1B fees to CSMES.
---------------------------------------------------------------------------
    At the State level, public HBCUs typically receive funding from 
their state legislatures. Historically, there have been disparate 
funding patterns that have caused many of these institutions to receive 
less than majority institutions located in the same states. This 
historic disparity has resulted in the provision of inadequate 
resources to support IT and many other activities. Some states, 
particularly in the South are now under court order and consent decrees 
to provide redress; but, with tightening budgets and historic 
shortfalls in many states, HBCUs also are feeling the pinch of budget 
cuts. Private HBCUs, on the other hand, typically receive no support at 
the state level. Many of these schools have church affiliations that 
have inadequate resources to keep up with the growing demands in the IT 
area.
    Turning to the private sector, companies such as Gateway Computer 
Corporation, Microsoft and others have created alliances with HBCUs and 
offer equipment, software and other services at a discount. For 
example, for more than two years, the Gateway Computer Corporation has 
partnered with NAFEO to establish a comprehensive digital divide 
initiative. The agreement between the organizations enables the 
acquisition of computing resources, including personal computers, 
laptops, printers, hardware, and computer services (such as networking 
and technical support). Partial proceeds from purchases related to this 
initiative fund efforts at HBCUs related to ending the disparities that 
contribute to the digital divide. These efforts, while relevant, fall 
short of meeting the complex and critical IT challenges confronting 
HBCUs.

NAFEO'S RECOMMENDED LONG-TERM FEDERAL POLICY OBJECTIVES

    As the subcommittee continues deliberations on H.R. 2183 and 
related measures, NAFEO asks the subcommittee to adopt policies that 
foster a positive environment for the achievement of the following 
long-term goals that endeavor to:

        <bullet> Strengthen the capacity of HBCUs to participate in 
        the national effort to improve the Nation's technology and 
        telecommunications infrastructure and research enterprise;

        <bullet> Improve the quality of education for students 
        attending HBCUs, by encouraging policies and leadership that 
        support the telecommunications infrastructure necessary for 
        campus wide connectivity and workforce productivity, including 
        student computer ownership;

        <bullet> Strengthen NAFEO's capabilities and role as a 
        national service organization that provides research, 
        evaluation, and dissemination of information about 
        telecommunications and technology infrastructure to HBCUs and 
        minority institutions;

        <bullet> Enable HBCUs to realize their potential as a major 
        resource for meeting national goals related to the development 
        and retooling of the current science, technology, engineering 
        and mathematics (STEM) domestic workforce.\3\
---------------------------------------------------------------------------
    \3\ A Department of Commerce report published just last month, June 
2003, entitled Education and Training for the Information Technology 
Workforce, p. ii, notes the ``[w]idespread deployment of digital 
technologies throughout the Nation and our ongoing transformation to a 
knowledge-based economy have created strong demand for workers who can 
create, apply and use information technologies (IT).'' It also notes 
that employers generally seek candidates with post-secondary education 
for professional-level IT jobs. A four-year degree, especially a 
technical degree, helps an IT professional get a foot in the door and 
get promoted. Two-thirds of IT workers have at least a four-year 
degree, and the percentage of college-educated workers is growing.

    HBCUs have been the trailblazers and standard bearers for equal 
opportunity and have been the beacons of light for African American 
communities for over 150 years, and they provide the optimum venue to 
help this nation remedy problems associated with the digital divide. 
Without these institutions, this nation would not have African American 
participation in the professions, the military, the legislatures, and 
in business. Clearly, it is in the best national interest to seize the 
opportunity to more fully utilize HBCUs to address the crises of the 
digital divide in African American communities and other communities of 
color. As stated previously, favorable consideration of H.R. 2183 is a 
step in that direction. This legislation will offer a significant 
opportunity for those institutions serving the largest concentrations 
of the Nation's minority and low-income students to keep pace with the 
advancing technologies of the 21st century.
    Additionally, passage of H.R. 2183 will serve as a catalyst that 
promotes a technological and research trend that is so desperately 
needed at these institutions. It will go a long way in promoting the 
establishment of a technology-based curriculum that enables HBCUs to 
recruit, retain, and graduate students who are more competitive in the 
increasingly technology-based global economy and in the graduate and 
professional institutions. It will allow HBCUs to have more involvement 
in basic research to develop new technologies, which is the most 
desirable and effective method for assuring that HBCUs have the amount 
and level of technology needed for their administration, academic 
programs, student usages, and community outreach. It also will assist 
HBCUs in working with IT corporations and efforts to have them 
``mentor'' HBCUs. For instance, consistent with provisions contained in 
the measure, major companies could adopt one college and work with the 
institution in assessing and implementing long-term IT strategies. 
Ultimately, this funding will allow the institutions to access and 
increase their individual technology needs, thereby making them more 
competitive.

CONCLUSION

    Clearly, the provisions of H.R.2183 address almost all of the 
technology deficiencies identified in the NAFEO study by providing 
grants up to $2.5 million for each eligible institution to address 
technology needs related to infrastructure, networking, faculty 
development and student preparation, teacher education and media 
specialist training, community outreach, and leadership development. 
Such aid will not only strengthen HBCU technological capabilities, but 
also enhance inter-institutional relationships and community outreach. 
With the assistance of H.R. 2183 and related legislation currently 
under this committee's consideration, HBCUs and other MSIs would truly 
become leaders in helping to close the digital divide, which is widest 
in the communities we serve.
    Finally, Mr. Chairman, there are some proponents of fiscal 
constraint who may be concerned about the $250 million proposed 
authorization level contained in H.R. 2183 and related measures. Some 
say the price tag is too high. Those of us in the MSI community would 
argue, the proposed level of funding is not high enough. But, we 
recognize it is a tremendous step in the right direction and will 
assist communities that have achieved unparalleled success related to 
transforming seed investments into fields of dreams and accomplishment. 
By making a reasonable investment now at the federal level, there will 
be significant economies of scale and costs savings in the long run. 
Many MSIs (and the communities they serve) will become more self-
sufficient; our graduates will make more productive contributions to 
the national economy; and compelling federal objectives will be met. On 
the other hand, failure to commit sufficient resources to this effort 
will cause irreparable harm, not only to MSIs, but also to the Nation 
as a whole.
    This concludes my testimony. Again, on behalf of the National 
Association for Equal Opportunity in Higher Education and its member 
institutions, I thank you for the opportunity to appear before you 
today. I would be happy to answer any questions.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                  Biography for Frederick S. Humphries

    Frederick S. Humphries took office as the 4th President of the 
National Association for Equal Opportunity in Higher Education on 
January 1, 2002.
    His selection by the organization's Board of Directors and the 
Council of Presidents marked the culmination of an intensive and 
exhaustive six-month national search. A renowned scholar and admired 
public servant, Dr. Humphries, a chemist by training, has had a 
distinguished, 27 year career as President of Florida A&M and Tennessee 
State Universities.
    During his nearly 17 year tenure at Florida A&M, he more than 
doubled enrollment while simultaneously raising academic standards. He 
increased the number of National Achievement Scholars at the school 
ranking first in the Nation three times, out recruiting Harvard and 
Stanford, and made Florida A&M the Nation's number one producer of 
African-Americans with baccalaureate degrees and third in the Nation as 
the baccalaureate institution of origin for African-American doctoral 
degree recipients. He also increased Florida A&M's sponsored research 
by 17,705 percent, tops among historically and predominately Black 
colleges and universities and third in the 11 member State University 
System of Florida.
    A tireless fundraiser, Dr. Humphries also raised more than $60 
million dollars for FAMU, making the University's endowment the largest 
of the Nation's public Historically Black Colleges.
    At NAFEO, Dr. Humphries has worked diligently to raise the profile 
of the Nation's 118 historically and predominately Black colleges. He 
has fought vigorously for increased resources and the expansion of 
programs at NAFEO member institutions.
    As the public policy advocacy organization for the Nation's Black 
colleges, NAFEO, has been re-energized by Dr. Humphries' presence.
    A national treasure, Dr. Humphries is respected throughout the 
Nation for his keen insights on the education of minority students, 
particularly in math and the hard sciences, and his unique and 
visionary approaches to producing successful educational outcomes. 
Corporate America has also sought his expertise as a member of the 
Board of Directors of Wal-Mart Stores, Inc. and Brinker International 
(the parent company of Chili's Grill & Bar, On The Border Mexican Grill 
& Cantina, Maggiano's Little Italy, Cozymel's Coastal Grill, Corner 
Bakery Cafe, Big Bowl Asian Kitchen and Rockfish Seafood Grill 
restaurants).
    Born in Apalachicola, Florida, Dr. Humphries received a Bachelor of 
Science degree in chemistry, magna cum laude, from Florida A&M 
University and a Ph.D. degree in physical chemistry from the University 
of Pittsburgh. He is married to Antoinette McTurner Humphries. They are 
the parents of three grown children and the proud grandparents of four 
grandchildren.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Dr. Humphries, thank you. Dr. Hernandez.

 STATEMENT OF DR. RICARDO R. FERNANDEZ, PRESIDENT, HERBERT H. 
                      LEHMAN COLLEGE-CUNY

    Dr. Fernandez. Thank you. Good morning, Mr. Chairman, 
Representative Johnson, and distinguished members of the 
Subcommittee on Research. I am honored to testify on behalf of 
the Hispanic Association of Colleges and Universities and the 
Hispanic higher education community in support of H.R. 2272 and 
2183, the Minority Serving Institution Digital and Wireless 
Network Technology Opportunities Act of 2003.
    My name is Ricardo Fernandez and I am in my 13th year as 
President of Herbert H. Lehman College of the City University 
of New York. Lehman is a four-year comprehensive public 
institution located in Bronx County, New York. We are also 
federally designated as a Hispanic servicing institution, one 
of six, I believe, or seven in the City University system.
    I applaud the leadership of the Senate which unanimously 
passed S. 196 in April. I had the pleasure of testifying before 
Senator Allen and his Committee on this very same legislation, 
and I would urge this committee to support this legislation as 
the most effective means to serve the urgent technology 
education needs of HSIs and minority serving institutions in 
general, in serving the youngest in our case, a very growing 
population.
    I would like to just mention that HSIs are a growing and 
important resource for providing advanced knowledge and skills 
to Hispanics and to other populations. For example, in my own 
institution, Lehman College, we have--44 percent of our 
students are Latinos, but 33 percent of the students are 
African-Americans. St. Philip's College in Texas is designated 
both as an HSI and an historically black college and 
university. Such diversity within the student population at 
HSIs is not atypical; especially, at HSIs in diverse urban 
regions of the country. So any initiative aiding some of these 
institutions benefits other minority students that also attend 
these HSIs.
    Mention was made earlier that there are more than 200 
designated institutions as HSIs. That means that they have to 
have a full-time equivalent student enrollment of at least 25 
percent Hispanic. There are, I would note, also, about 100 
institutions that are emerging as HSIs. That is, their student 
enrollment is growing, so we expect that there will be more of 
these institutions. Half of all Latino students attend HSIs, 
and about 50 percent of the teachers that are trained are 
Latino teachers that are trained at these institutions.
    You asked in the letter of invitation that three specific 
questions be answered. I would like to focus the bulk of my 
comments on those to give you a sense of how this impacts an 
institution and how we are handling that within the City 
University.
    At Lehman--you asked what are the most important technology 
issues, and I want to focus on three of them. One of them is a 
lack of an appropriate information technology infrastructure 
and equipment. Second is a lack of a strategic IT plan, and 
thirdly, faculty development in the use of IT for teaching, 
learning, and research. At our own institution, in the past we 
have focused on cabling our buildings with copper wire. Now we 
are moving to change that to get fiber optic across every 
building, not just in every building but, ultimately, in every 
room in that building. We have been able to do that to some 
extent, but we still have a ways to go. We are more and more 
now experimenting with wireless technology. We have six 
facilities where we have wireless capability. We estimate we 
need about 30 more facilities in our institution.
    We have been working for the last three years on a 
multimedia center. We have received funding from the State and 
the City for about $10 million for the renovation of some 
facilities. We are still lacking about $3 million in equipment 
and we see the funds that would be awarded under this type of 
legislation as possibly coming partially from these funds.
    We have recently installed a smart lab. That is a two-way 
interactive with video and audio facility. We estimated that 
that cost us about $45,000. We want to use these for, 
particularly, in our teacher training. This enables us to 
connect with certain schools in the Bronx in a number of 
districts so that we can afford our students who are training 
to be teachers to be observing master teachers in the classroom 
and become better teachers in areas such as science and 
technology.
    We have recently installed a science education classroom, 
and that is our way of addressing some of the teacher education 
needs in New York City and in the Bronx, and we would like to 
do more of that, but these funds to purchase the equipment, to 
lay cable, to buy and upgrade software, to expand IT 
capabilities, such as video-conferencing, to provide wider 
access through wireless technology are urgently needed. We do 
get State support and local support, however, that support is 
being reduced. Tuition is going up, more fees are being charged 
to students.
    The second question is how are we currently supporting 
technology infrastructure. The answer to that is that the 
trustees of the City University of New York last year enacted a 
student fee of $75 per semester. That yields in our institution 
about $1 million a year. Those funds have to be strictly 
limited to replacing computers, upgrading software, installing 
security measures such as firewalls so that hackers can't come 
and damage our data, and to pay staff and provide services to 
students. We have gotten, fortunately, some support from the 
City and from the State, but these I am afraid are nonrecurring 
grants that happen from year to year, not every single year. 
And we also have received from the Federal Government, FIPSE 
[Fund for the Improvement of Post-secondary Education], NTIA, 
NSF, and the Department of Education.
    As far as IT planning, one of our major issues--and this is 
true of far too many, I think, minority serving institutions--
is that they don't have an information technology strategic 
plan. The approach to building information technology 
infrastructure is haphazard in many instances, depending on 
grants and whatever available funding opportunities are there. 
At Lehman, we have recently completed participation in a 
program aimed at assisting minority serving institutions. By 
the way, it was funded by NSF through EDUCAUSE, and this grant 
enabled us to develop a plan and we estimate that this probably 
resulted--if we had to do that ourselves, we would have had to 
spend about $40,000 doing that. So we have a blueprint now for 
IT expansion and development over the next three to five years. 
And the focus of our plan is going to be on developing our 
infrastructure, on teaching and learning, and on faculty 
development.
    I might point out one specific example of collaboration 
that we have been able to put together involving Lehman and two 
of our community colleges in the same borough, Bronx Community 
College and Hostos Community College, to give you a sense of 
the kinds of partnerships that are possible. Each of us, 
independently, were thinking of buying a server to provide 
email to our students, because we are running out of space in 
our current server. By collaborating and participating in this 
partnership, we were able now to buy a single server that is 
going to serve all three institutions and is going to result in 
some real economies that we can then reprogram and invest in 
our core business. This type of collaboration I think is made 
possible by IT planning and by help that we have received from 
EDUCAUSE, thanks to the funding awarded by NSF for this purpose 
in involving in our case three institutions in our borough.
    Faculty development is one of the areas that I believe is 
very, very significant, that we really need some assistance. We 
have a generational gap between older faculty and younger 
faculty. Most of our younger faculty come very well 
technologically oriented and equipped. They know, they have 
grown up with this technology. However, the older faculty, and 
still among the younger faculty, we need to integrate 
information technology into the curriculum. Our students need 
that, and when they get out in the world of work, that is the 
kind of environment that they are going to have to function in.
    In conclusion, let me just say that we believe that HSIs 
have the expertise, the commitment to students to be able to 
provide these services, and we urge you to support this 
legislation. Thank you very much.
    [The prepared statement of Dr. Fernandez follows:]

               Prepared Statement of Ricardo R. Fernandez

INTRODUCTION

    Good morning Chairman Smith and Distinguished Members of the House 
Subcommittee on Research. It is an honor for me to appear here today to 
urge your support for legislation of tremendous importance to the 
Hispanic higher education community and to our nation's economic 
success and security. I speak in support of the Minority Serving 
Institution Digital and Wireless Technology Opportunity Act of 2003, 
introduced as H.R. 2183 by the Honorable Randy Forbes of Virginia and 
as H.R. 2272, introduced by the Honorable Edolphus Towns of New York.
    I am honored to testify on behalf of the Hispanic Association of 
Colleges and Universities (HACU) and the Hispanic higher education 
community in support of H.R. 2272 and H.R. 2183, the Minority Serving 
Institution Digital and Wireless Network Technology Opportunities Act 
of 2003.
    My name is Ricardo R. Fernandez, and this is my 13th year as 
President of Herbert H. Lehman College of the City University of New 
York. Lehman College is a four-year comprehensive public institution, 
located in Bronx County, New York. Lehman College is a federally 
designated Hispanic-Serving Institution.
    Additionally, I am Chair of the Board of the American Association 
of Higher Education (AAHE), a past Chair and current Board Member of 
HACU, and Board Member of the Hispanic Educational Telecommunications 
System (HETS)--a consortium of 18 Hispanic Serving Institutions (HSIs) 
engaged in distance education through Internet-focused technologies.
    I applaud the leadership of the Senate, which unanimously passed 
S.196, the Senate version of H.R. 2272 and H.R. 2183, in April. As 
spokesman for the Hispanic higher education community, I urge this 
House committee to support H.R. 2272 and H.R. 2183 as the most 
effective means to best serve the urgent technology education needs of 
HSIs in service to the Nation's youngest and largest ethnic population, 
and to serve the urgent technology education needs of all Minority-
Serving Institutions serving the largest concentrations of our 
country's fast-growing ``emerging majority'' populations.

OVERVIEW

    Hispanic-Serving Institutions (HSIs) are the Nation's most 
important resource for providing advanced knowledge and skills to 
Hispanics, the Nation's fastest-growing school age population, and to 
other fast-growing minority populations. For example, the student 
enrollment at Lehman College is 44 percent Latino and 33 percent black. 
St. Philip's College in Texas is designated as both an HSI and a 
Historically Black College and University (HBCU). Such diversity within 
the student enrollment at HSIs is not atypical, especially at HSIs in 
diverse urban regions of the country. Any initiative that aids HSIs 
therefore benefits all minority students attending HSIs.
    The more than 200 federally designated HSIs, which have a full-time 
equivalent student enrollment that is at least 25 percent Hispanic, are 
located in the fastest-growing Hispanic population centers in 25 states 
and Puerto Rico. Half of all Latino higher education students attend 
HSIs. HSIs also are a vital resource for every age group in every 
community served, providing essential pre-collegiate outreach 
throughout the K-12 education pipeline, and rapidly expanding workforce 
development and lifelong learning initiatives.
    The critical role of HSIs is best discerned from the crucial role 
of Hispanics in our nation's future economic strength, security and 
global leadership role. U. S. Census Bureau reports this year confirm 
that Hispanics comprise the youngest and largest ethnic population in 
the United States. Hispanics already make up one of every three new 
workers joining the U.S. labor force today; by 2025, Latinos will make 
up one of every two new workers joining the U.S. workforce.
    Yet, Hispanics suffer the lowest high school and college graduation 
rates of any major population group. Latinos also suffer the least 
access among major population groups to the very technologies that 
drive our economy, national security and leadership role in the 
international marketplace. According to the U.S. Commerce Department, 
more than one half of U.S. households have computers and more than four 
of every ten have Internet access; for Hispanic households, only one-
third have computers and only about one-fifth have Internet access.
    Because of their expertise, mission and proximity to every major 
Hispanic population center, HSIs are at the forefront of every 
significant effort to address these disparities. Many of the country's 
two-year and four-year HSIs also have formed effective ``pipeline'' 
partnerships that are ensuring a successful transition from two-year 
degree programs to four-year and advanced degree programs for Hispanic 
higher education students, many of whom are first-generation college 
students from low-income families. Because of their inherent expertise 
at serving multicultural populations, HSIs also are at the forefront of 
a substantial investment in international education to provide U.S. 
students a globally comprehensive familiarity with and understanding of 
diverse cultures essential to effectively serve an economy with such a 
dynamic impact on the global marketplace and world peace.
    Yet, HSIs receive only about half the federal funding on average 
per student accorded to all other degree-granting institutions. Most 
HSIs are located in major, urban areas of the country with a 
comparatively higher concentration of poverty and subsequently lower 
average tax base. Thus, these HSIs cannot depend on local dollars to 
adequately address the digital divide.
    Moreover, state support for higher education has been declining on 
a per-student basis in almost every region of the country. In this 
year's uncertain economy, this is especially true in states with large 
Hispanic populations such as New York, California and Texas currently 
suffering major budget shortfalls. Because the mission of these HSIs is 
to promote higher education access to a population that suffers 
historically high poverty rates, most HSIs have declined to increase 
their tuition and fee formulas. Many HSIs also have access to no 
endowments or very low endowments. HSIs are thus compelled to rely on 
the few federal resources now available to them. H.R. 2272 and H.R. 
2183 will provide HSIs and other Minority-Serving Institutions a much-
needed increase in federal dollars for technology education that 
ultimately will benefit all Americans.

INFRASTRUCTURE, EQUIPMENT AND CAPABILITIES

    The Minority Serving Institution Digital and Wireless Technology 
and Opportunity Act of 2003 would provide $250 million in competitive 
National Science Foundation grants in each year over a five-year period 
to eligible Hispanic-Serving Institutions (HSIs) and other Minority-
Serving Institutions to substantially enhance their technology 
infrastructure, programs and training to bridge the digital divide. 
Lack of an appropriate infrastructure and equipment to provide access 
to students and faculty in classrooms are two important issues 
affecting HSIs. This legislation would provide grants for new 
technology equipment and infrastructure expansion as well as new 
faculty development and technology leadership initiatives, and the 
funds to create cost-effective technology partnerships.
    That H.R. 2183 and H.R. 2272 specifically identify Minority-Serving 
Institutions, including HSIs, as eligible recipients of funding is very 
much in line with the intent of this Act to reap the greatest benefits 
out of each dollar invested in those institutions with the strongest 
expertise and widest reach to the ``have-nots'' of the digital divide.
    HACU, as the only nationally recognized voice for HSIs, represents 
more than 300 HSIs and ``emerging HSIs'' with a large student 
enrollment that has not yet reached the 25 percent requirement to 
become HSIs. Many of these ``emerging HSIs,'' or ``Associate HSIs,'' 
will contribute to the expected doubling of HSIs expected to occur 
during the next few decades. An overriding goal of HACU and HSIs is to 
increase the numbers of Hispanic college graduates with advanced skills 
in every discipline in which Hispanics now are under-represented. H.R. 
2183 and H.R. 2272 promise not only to narrow the technology training 
gap, but also to ultimately increase college completion rates overall 
by providing Minority-Serving Institutions the tools they need to 
enhance pre-collegiate and on-campus student success.

FACULTY DEVELOPMENT

    H.R. 2183 and H.R. 2272 will allow HSIs and other Minority-Serving 
Institutions to seek grants, contracts or cooperative agreements to 
``develop and provide educational services, including faculty 
development, to prepare students or faculty seeking a degree or 
certificate that is approved by the State, or a regional accrediting 
body recognized by the Secretary of Education.''
    Increasing the ranks of Hispanic and other minority teachers is of 
paramount importance, not only to higher education institutions but 
also to the Nation's public schools. HSIs already award approximately 
50 percent of all teacher education degrees earned by Hispanic higher 
education students. Especially needed are teachers in the fields of 
science, mathematics and technology. Funds provided under this 
legislation would assist institutions in improving their facilities and 
infrastructure.
    However, because of a lack of funding for teacher education at 
HSIs, the shortage of Hispanic teachers is acute. While 14 percent of 
the elementary and secondary education student population is Hispanic, 
only 4.3 percent of public school teachers are Hispanic, according to 
the U.S. Census Bureau Digest of Education Statistics for 1998 and 
1999. In higher education, only 2.4 percent of all full-time faculty 
members are Hispanic (IPEDS, 1997).
    Hispanics now earn master's, doctoral and professional degrees at 
the rate of 2.4 percent among the adult population--compared to 6.0 
percent for non-Hispanics. Hence, the numbers of Hispanics attaining 
advanced degrees must more than double to achieve parity. Yet, only 20 
percent of HSIs offer a Master's degree. Less than 12 percent of HSIs 
offer a doctoral degree. H.R. 2183 and H.R. 2272 directly address the 
need to increase the capabilities of HSIs to produce more teachers with 
advanced degrees.

TECHNOLOGY IN THE CLASSROOM

    H.R. 2183 and H.R. 2272 will allow HSIs and other Minority-Serving 
Institutions to seek grants, contracts or cooperative agreements to 
``provide teacher education, library and media specialist training and 
preschool and teacher aid certification to individuals who seek to 
acquire or enhance technology skills in order to use technology in the 
classroom or instructional process.''
    Enhancing teacher education, classroom technology use and 
instructional skills will focus on expanding the only means of 
technology access for many of the youngest of the ``have-nots'' of the 
digital divide. A survey on computer access released September 5, 2001, 
by the U.S. Census Bureau reports that while only 33.7 percent of 
Hispanic households own a computer, 70 percent of the Nation's Hispanic 
students have computer access at school.
    The long experience and proven expertise of HSIs in addressing 
minority public school and community needs makes these institutions a 
vital partner in efforts to enhance teacher technology training, 
classroom and instructional skills. H.R. 2183 and H.R. 2272 capitalize 
on the geographic proximity, cross-cultural understanding and existing 
community outreach of Minority-Serving Institutions by inviting their 
active participation in new technology initiatives in the Nation's 
public schools.

TECHNOLOGY PARTNERSHIPS

    H.R. 2183 and H.R. 2272 will allow HSIs and other Minority-Serving 
Institutions to seek grants, contracts or cooperative agreements to 
``implement a joint project to provide education regarding technology 
in the classroom with a State or State educational agency, local 
education agency, community-based organization, national nonprofit 
organization, or business, including minority business or a business 
located in HUB zones, as defined by the Small Business 
Administration.''
    Joint projects and partnerships to comprehensively address 
classroom technology needs are a practical, effective means to meet the 
technology needs of the Nation's larger minority communities. This 
component of the Minority Serving Institution Digital and Wireless 
Technology Opportunity Act of 2003 encourages inclusiveness and the 
establishment of a wide base of community support and expertise.
    HSIs, historically hampered by funding disparities, have come to 
depend on the combined strengths and added resources of such 
partnerships to successfully address issues ranging from adult 
workforce development and lifelong learning to pre-collegiate 
preparatory programs.
    HSIs and other Minority-Serving Institutions already have 
established the foundation for forming effective partnerships to 
address technology disparities. H.R. 2183 and H.R. 2272 provide the 
funding and infrastructure support to capitalize on the proven 
effectiveness of such partnership approaches in addressing the digital 
divide.

LEADERSHIP DEVELOPMENT

    H.R. 2183 and H.R. 2272 also will allow HSIs and other Minority-
Serving Institutions to ``provide leadership development to 
administrators, board members and faculty of eligible institutions with 
institutional responsibility for technology education.'' Historically 
under-funded HSIs can readily benefit from this investment in support 
of those leaders who are charged with the strategic direction and 
supervision of efforts to enhance technology infrastructure, training 
and outreach.
    HSIs and other Minority-Serving Institutions recognize the critical 
role of leadership development in efforts to close the digital divide. 
For example, the Advanced Networking with Minority-Serving Institutions 
(AN-MSI) project, of which Lehman College is a member, includes a focus 
on assisting campus leadership in Information Technology training. AN-
MSI is the result of a National Science Foundation (NSF) grant to 
EDUCAUSE, a consolidation of the former CAUSE and Educom higher 
educational technology associations. A sub-award was made to the 
Education, Outreach and training Partnerships for Advanced 
Computational Infrastructure (EOT-PACI).
    EDUCAUSE established partnerships with HACU, the American Indian 
Higher Education Consortium and other associations and councils 
representing Minority-Serving Institutions. Leadership development 
aspects of this ongoing project have included the involvement of 
administrators of HSIs and other Minority-Serving Institutions at 
Seminars on Academic Computing and a recent Technology Summit. Thanks 
to this grant Lehman College has just completed a campus-wide strategic 
plan for information technology, which represents a savings of 
approximately $40,000.
    The inclusion of leadership development in H.R. 2183 and H.R. 2272 
is another example of the Act's potential for success by strategically 
addressing the Nation's digital divide on so many fronts--from 
enhancing teacher skills in the classroom to supporting administrative 
leadership development on the college campus.

CURRENT STATUS

    A major source for funding technology initiatives at HSIs are 
technology fees that are imposed on students. At the City University of 
New York, the Board of Trustees enacted a Technology fee ($75/semester 
for full-time students) during this past academic year as a means of 
upgrading technology and equipment for student use at labs and the 
Library. Approximately $1,000,000 is available on a yearly basis to 
replace equipment, upgrade software, establish new computer labs, etc. 
Technology infrastructure improvements at Lehman College are funded 
through special, non-recurring capital allocations from NY state and 
New York City. Federal grants are also a source for funding some 
limited equipment for research at four-year HSIs.
    At Lehman College we have managed over a period of many years to 
extend cabling to most of our buildings. However, we now see the need 
to replace the old copper lines with fiber optic lines and also to 
extend them to individual classrooms. The high cost of this project 
prevents from wiring all of the classrooms in need of connectivity. 
Wireless access points are a more efficient way to provide connectivity 
to classrooms. We currently have six facilities with wireless 
capabilities, mostly in the student services area, and need an 
additional thirty locations for academic purposes. In addition, 
classrooms with two-way interactive audio and video capability would 
serve to enhance the teaching and learning experience of students. 
Again, the cost of this technology makes it prohibitive for us to have 
more than the eight classrooms which were part of a major capital 
upgrade of our Technology facilities.
    Our most pressing need is to upgrade our network infrastructure, 
including network security and telephony; provide faculty with 
opportunities to develop teaching, learning and research processes 
utilizing asynchronous modalities, and to upgrade the curriculum of our 
teacher training program. We are endeavoring to meet these challenges 
by working closely with federal, state and local leaders to obtain 
funding for our initiatives. However, current budget conditions in our 
state indicate that our initiatives will have to be extended over a 
longer period of time.

CONCLUSION

    HSIs and other Minority-Serving Institutions have the expertise, 
proximity and commitment to their students and communities to provide 
front-line leadership and support in the effort to close the 
information technology gap. However, these institutions cannot succeed 
without the support of Congress and its endorsement of a substantial 
investment in federal dollars.
    The digital divide between minority and non-minority populations is 
not an empty buzzword, but an unfortunate reality in our nation. While 
all sectors of society are acquiring greater access to information 
technology and connectivity to the Internet, the gap between the better 
educated and those behind them is widening each year--not only in 
qualitative terms, but quantifiably as well.
    The U.S. Department of Commerce series of reports--``Falling 
Through the Net,'' released in 2000, and ``A Nation Online: How 
Americans Are Expanding Their Use of the Internet,'' released in 2001--
document the divide between Hispanics and non-Hispanic whites and the 
Nation as a whole. The 2000 report, the last reporting on household 
Information Technology (IT) use, tells us that more than one half of 
U.S. households have computers and more than four of every ten have 
Internet access. For Hispanic households, the numbers are only one-
third and about two of every ten, respectively.
    This same report documents that in 2000, Hispanics made almost 27 
percent less individual use of the Internet than non-Hispanic whites. 
In the latest 2001 report, the gap grew to more than 28 percent. While 
computer and Internet access is slowly increasing for Hispanics, the 
digital divide between them and the rest of the Nation's population is 
becoming wider.
    Examining individual Internet use by age groups enables us to look 
at the traditional college-age population. In the 2000 report, 
Hispanics were 32.6 percentage points behind their non-Hispanic white 
counterparts (65 percent). The 2001 report, focusing on 18-24 year-olds 
actually in school or college, documents that Hispanics are about 20 
percent less likely than non-Hispanic whites to have a home computer 
and almost 25 percent less likely to use the Internet at home.
    This reports highlights the critical importance of this bill and 
the urgency of supporting our HSIs, because the gap between Hispanics 
and non-Hispanic whites lessens to 15 percent when one considers 
outside home use, which for these students overwhelmingly means school 
or college. The 15 percent gap is still large, but it is a sign of 
progress in the right direction. Similar patterns exist for Hispanics 
ages 3 to 17 years. The 2000 report shows substantially large gaps 
between non-Hispanic whites and Hispanics overall. The latest 2001 
report underlines that Congressional action is necessary to bridge the 
widening digital divide for our youth by increasing their access to 
technology in the school setting.
    H.R. 2183 and H.R. 2272 propose a comprehensive approach to 
aggressively address the digital divide, targeting potential funding to 
those higher education institutions serving the largest concentrations 
of minority higher education students in those communities with the 
fastest-growing minority populations. The Minority-Serving Institution 
Digital and Wireless Technology Opportunity Act of 2003 is a 
strategically sound, cost-effective response to a challenge the Nation 
can no longer afford to leave unanswered.
    HSIs are the most important national resource for the education and 
training of Hispanics and other disadvantaged students across the 
Nation. This fact will only be magnified in the years ahead as the 
Hispanic population continues to grow faster than any other ethnic 
community in the country and reaffirms its crucial role in the economic 
and public life of the Nation.
    The changing nature of our economy demands that under-served and 
under-represented but fast-growing populations be educated and trained 
at increasingly higher levels for the jobs and leadership roles of the 
``new economy.'' Notwithstanding the recent bursting of the dot-com 
bubble, the high-technology sector continues to expand at the speed of 
human creativity. Thus, information technologies, telecommunications, 
and biotechnology, among others, require increasing numbers of workers 
with high skills and advanced knowledge that only a quality higher 
education can provide.
    H.R. 2183 and H.R. 2272 present a tremendous, timely opportunity 
for Congress and the President to ensure that future generations of 
Hispanics and other disadvantaged populations do not remain stagnated 
at the bottom of America's educational ladder. This cost-effective 
legislation directly addresses the technology needs of our ``emerging 
majority'' populations, which surely will propel our nation to a future 
in which all of us benefit from this equitable, practical investment in 
our nation's economic success, security and leadership. I urge 
Distinguished Members of this committee to support the Minority Serving 
Institution Digital and Wireless Technology Opportunity Act of 2003.

                   Biography for Ricardo R. Fernandez

    Prior to his appointment in 1990, Fernandez was Assistant Vice 
Chancellor for Academic Affairs at UW-Milwaukee, where he also was a 
Professor in the Department of Educational Policy and Community 
Studies.
    His research interests have focused on educational equity, school 
desegregation and language minority students, public policy and 
bilingual education, and high school dropouts/at-risk students. For the 
past six years he has served as Chair of the Bronx Educational 
Alliance, a coalition of school districts, colleges and universities, 
and community-based organizations that promotes K-12 collaboration.
    A member of AAHE and its Hispanic Caucus, in 1998-99 he was the 
Chair of the Governing Board of the Hispanic Association of Colleges 
and Universities and has been active on several committees of the 
American Council on Education and the American Association of State 
Colleges and Universities. He has served on accreditation teams for the 
Middle States Association and the Western Association of Schools and 
Colleges. Currently he is a member of the New York State Education 
Commissioner's Advisory Council on Higher Education and also of the New 
York State Senate's Higher Education Advisory Committee.
    Dr. Fernandez holds the Master's and doctorate from Princeton 
University and a B.A. and a M.A. from Marquette University. He attended 
the Institute for Educational Management at Harvard University in 1992, 
and was a Fellow in Academic Administration of the American Council on 
Education in 1981-82. In 1986-87 Dr. Fernandez was a Research Fellow at 
UW-Madison's National Center for Effective Secondary Schools.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Dr. Fernandez, thank you. Dr. Earvin.

 STATEMENT OF DR. LARRY L. EARVIN, PRESIDENT, HUSTON-TILLOTSON 
                            COLLEGE

    Dr. Earvin. Mr. Chairman and members of the House Committee 
on Science, as President of Huston-Tillotson College in Austin, 
Texas, I am pleased to appear before you today on behalf of the 
United Negro College Fund to discuss legislation to provide 
discretionary grants to America's historically black colleges 
and universities and other minority serving institutions of 
higher education to upgrade the technology infrastructure, 
instrumentation, and instructional capacity in order to produce 
students for the 21st century workforce.
    I am very pleased to join my colleagues and peers in the 
higher education community and to have the opportunity to 
discuss with distinguished members of the Subcommittee an issue 
that should be among Congress's highest legislative priorities. 
Let me make three major points and then respond to any 
questions that you may have.
    First, the digital divide is alive and well in America. 
Notwithstanding the enormous progress we have made as a nation 
in expanding access for racial minorities and the poor to 
computers and the Internet, colleges and universities like 
Huston Tillotson, which provide access to low income students 
who would otherwise find the door to post-secondary education 
closed, must overcome the double jeopardy of poverty and 
technological illiteracy in educating our students. With 
federal help, or more importantly, without federal help, we 
will fail in our mission to ensure higher education opportunity 
for all Americans, especially the growing majority of 
minorities. America will be shortchanged if we fail.
    Second, the technological capacity at too many UNCF 
institutions, as well as at other HBCUs and other minority 
serving institutions, is insufficient to meet the extraordinary 
demand of students, faculty, and staff that we serve and 
employ. In fact, without the targeted support envisioned by 
H.R. 2183 and H.R. 2272, UNCF colleges and universities will be 
unable to take the necessary steps to become fully competitive 
with other institutions of higher education. We must all have a 
technological foundation with which to prepare our students in 
the omnipresent information age.
    Third, the bills pending before the Subcommittee represent 
an important step in the right direction, but each could 
benefit from certain amendments. UNCF believes that both the 
bill introduced by Mr. Forbes and the bill introduced by Mr. 
Towns reflect considerable thought and deliberation, but 
contain provisions that need modification. UNCF urges the 
Subcommittee to consider adopting provisions from both bills in 
order to develop a bipartisan consensus proposal that can be 
adopted in the U.S. House of Representatives.
    Among the recommendations included in my written testimony, 
UNCF urges the following: (1) Adopt a strong peer review 
provision to ensure that highly qualified persons who are both 
knowledgeable about and familiar with technological 
infrastructure, instrumentation, and instructional needs of the 
HBCUs and MSIs, but also, who are conversant with the academic 
programs and needs of these institutions in general, will 
evaluate all proposals to determine their merit; (2) Evaluate 
carefully the agency best suited to house, manage, and assure 
the programmatic success of this program for the Congress; and 
(3) Ensure that adequate reporting requirements are applied 
both to agency administration and institutional implementation 
of the program so as to guarantee to the maximum extent 
practical the successful achievement of Congress's legislative 
objectives.
    Thank you for the opportunity to present UNCF's testimony 
and to provide their recommendations. I would be pleased to 
answer any questions that you may have.
    [The prepared statement of Dr. Earvin follows:]

                 Prepared Statement of Larry L. Earvin

    Good afternoon Mr. Chairman and Members of the Committee. I am 
pleased to appear before you today, with my other colleagues, on behalf 
of the United Negro College Fund (UNCF), of which Huston-Tillotson 
College, where I am President, is a member institution. I personally am 
honored to testify before a Committee represented by so many 
distinguished Members of Congress from the great State of Texas, which 
is home to Huston-Tillotson and 8 other historically black colleges and 
universities. UNCF's President and CEO, William H. Gray, III, was 
unable to testify and I am privileged to speak on behalf of the 39 
member colleges and universities in UNCF. UNCF is America's oldest and 
most successful African American higher education assistance 
organization.
    As you may know, Huston-Tillotson College is the oldest institution 
of higher education in Austin, Texas. Our current student body--554 
students--is educated in an intimate academic atmosphere with a 
faculty/student ratio of 12 to 1, and an average class size of 12 
students. Academic programs range from mathematics and education to 
political science and music. Huston-Tillotson is an innovator in 
teacher preparation and international business.
    Mr. Chairman and Committee Members, the bill, H.R. 2183, the 
Minority Serving Institution Digital & Wireless Network Technology 
Opportunity Act, provides Congress with the opportunity to address the 
technology instrumentation and infrastructure needs of the Nation's 
Historically Black Colleges and Universities (HBCUs) and other 
minority-serving institutions. Enhancing the technology instrumentation 
and infrastructure at the HBCUs is one of the most critical issues 
affecting the education of African Americans and other minority 
students in America. It is critical that Congress enact legislation to 
assist HBCUs and other minority-serving institutions with the 
acquisition of technology instrumentation and infrastructure, faculty 
development, training and the integration of technology into the 
curriculum at the Nation's college and universities that educate our 
minority students.
    Unfortunately, too many of these minority students have been raised 
in families without a computer in the home, attended poor urban and 
rural schools that were not wired nor equipped with 21st Century 
technology, and have been taught by educators who may have had less 
facility with computers than their students. This reality has been 
documented in Falling Through The Net--A Report on the 
Telecommunications and Information Technology Gap in America (July 
1999). Despite attempts to deny this income-based reality--we face it 
everyday in American higher education.
    For example, UNCF member institutions and other HBCUs enroll large 
numbers of poor students, whose parents are unable to help pay college 
costs. In fact, nearly 60 percent of all UNCF students come from 
families with incomes less than $25,000. An estimated 92 percent of all 
UNCF students receive some form of federal financial assistance, and 
sixty percent of UNCF students are first-generation college students. 
It is clear, then, that the confluence of these demographic factors 
make virtually certain that many UNCF students will have their first 
exposure to computers and to the Internet when they arrive on the 
college campus.
    Mr. Chairman, let me describe for you the state of technology at 
UNCF member institutions and how, in conjunction with UNCF's Technology 
Enhancement Capital Campaign, the legislation being discussed today 
should be structured to address this important issue. For many UNCF 
institutions, which enroll large numbers of minorities, making up the 
digital deficits at home and at school constitutes a real financial 
challenge. The inability of institutions to finance the acquisition of 
needed technology infrastructure creates another digital divide. 
Compared to other colleges, private black colleges have very small 
endowments and cannot fall back on sizable numbers of wealthy alumni. 
The average endowment of UNCF schools for the 1999-2000 academic year 
was $23.358 million. Larger, well-financed institutions have greater 
access to the funding necessary to purchase technology, than do 
smaller, private colleges with fewer resources.
    Technology capacity, at some UNCF member institutions, is 
insufficient to support extraordinary demands of the students, faculty, 
and staff. As a result, those campuses are unable to take the necessary 
steps to being fully competitive with other institutions of higher 
education. Some campuses do not have adequate bandwidth; they have a T-
1 line. Further, with only one broadcast domain, these institutions 
cannot segment the T-1 line. This is like needing an eight-lane highway 
and only having one lane. You are unable to manage the data. This means 
we are slow to receive information, and any increased traffic causes 
backups, etc.
    Some UNCF member institutions would ultimately like to provide a 
wireless domain on campus, which they are unable to do currently. A 
wireless domain would allow portability to deliver curriculum in 
creative ways and not solely within the boundaries of an actual 
classroom. Such capabilities increase an institution's attractiveness 
to students. In fact, at some campuses, residential students are forced 
to choose between a wired dorm room shared with other students and a 
single room without computer access.
    Faculty at UNCF campuses is skilled across the range of 
capabilities in terms of the technology on campus. For example, one 
member institution houses and hosts a super computer cluster that is 
used by numerous campuses, although this network is not robust enough 
to allow faculty to conduct research due to the limitations in the 
system to manage the traffic. Many are learning the basics of using 
technology and/or are moving to use technology to increase 
productivity. Very few yet have reached the mastery over technology 
where they are prepared to develop entirely new learning environments 
that utilize technology as a flexible teaching and learning tool.
    What exists at UNCF member institutions is not dissimilar to what 
you have heard and will hear from the other distinguished witnesses. 
The `digital divide' in higher education has been documented in 
``Historically Black Colleges and Universities--An Assessment of 
Networking and Connectivity'' (October 2000), ``Ending The Digital 
Divide--The Nation's Tribal College and Universities,'' and 
``Assessment of Technology Infrastructure in Native Communities;'' and 
in ``The Power of The Internet for Learning'' (December 2000). The 
digital divide threatens to deny minority students and our institutions 
the competitive skills they need to defeat the remaining vestiges 
imposed by race and economic segregation in America.
    Fortunately, UNCF member institutions have benefited from its 
Technology Campaign. Campuses now are closing the digital divide. In 
fact, last year, UNCF's President and CEO, William H. Gray, III, 
testified before the Senate Commerce, Science and Transportation 
Committee on this very topic. Without UNCF's assistance, many campuses 
would be that much more digitally challenged. Let me take a moment to 
highlight some of the accomplishments from the UNCF Technology 
Campaign.
    In January 2000, UNCF announced a partnership with Microsoft, IBM, 
AT&T and other major corporations and launched an $80 million 
Technology Enhancement Capital Campaign (TECC). The campaign was 
designed to strengthen the technological capacity of each of the 39 
member colleges and universities in three significant ways.
    First, TECC strengthened the technology capacity through 
modernizing each institution's technology platform and gave every 
student and faculty member access to computers. As a result of this 
campaign, all UNCF colleges and universities meet certain minimum 
technology standards, including increased network capacity and uniform 
systems that enable electronic learning among institutions. Technical 
support was given so that all wiring, equipment installment, and data 
migration and configuration of hardware--including system testing--have 
been properly accomplished. This created equity in opportunity by 
making the same technology available to students attending UNCF member 
colleges and universities as is now available to students at majority 
institutions.
    Second, on-campus training is being provided to a core group of 
campus officials who will then train others in the operation of all 
equipment. TECC also includes a faculty development component to assist 
faculty in integrating information technology into the curriculum and 
to assist faculty members in strengthening their research and 
instructional techniques using technology.
    Third, TECC is helping make technology more affordable for 
individual students and faculty. HBCU students, faculty, and staff can 
purchase computer hardware and software from major technology 
providers, such as Dell, IBM, Hewlett Packard and Microsoft, at 
discounted prices--as low as three hundred dollars--along with low-cost 
financing through UNCF's e-commerce web site, which was developed 
through a generous contribution of technical services from Electronic 
Data Services (EDS).
    UNCF's TECC campaign is helping to close the digital divide on UNCF 
campuses. UNCF already has exceeded its $80 million TECC campaign goal. 
Here are a few examples of the campus-based results of the TECC 
campaign:

        <bullet> In Texas, four member colleges--Paul Quinn College, 
        Huston-Tillotson College, Jarvis Christian College and Wiley 
        College--received from UNCF $8.3 million. With their share of 
        the technology funds, Huston-Tillotson was able to purchase and 
        implement a state of the art, voice-over IP telephone solution. 
        Furthermore, the college also implemented a wireless LAN that 
        expands the entire campus.

        <bullet> In Florida, where UNCF has three member colleges--
        Bethune-Cookman College, Edward Waters College, and Florida 
        Memorial College--UNCF provided $6.6 million in technology 
        funds. One example of the use of the funds is that Bethune-
        Cookman established a quality infrastructure for storage and 
        distribution of applications and data.

        <bullet> In North Carolina, there are six member colleges and 
        universities--Johnson C. Smith University, Shaw University, St. 
        Augustine's College, Barber Scotia College, Bennett College and 
        Livingstone College. Here UNCF has invested $13.7 million in 
        technology. With its portion of the funds, Johnson C. Smith 
        University developed a print solution and a robust e-mail 
        system.

        <bullet> In Georgia, UNCF colleges and universities--including 
        Clark Atlanta University, Interdenominational Theological 
        Center, Morehouse College, Spelman College and Paine College--
        received a total investment of $18.0 million. At Clark Atlanta 
        University, computer lab capability and access were enhanced, 
        with improved security.

        <bullet> In Virginia, there are two member institutions--St. 
        Paul's College and Virginia Union University, where UNCF funded 
        $2.7 million in technology. As an example, Virginia Union 
        University established a totally wireless campus and created 
        mathematics computer labs for classroom teaching and accounting 
        computer labs for teaching and student exercises.

        <bullet> In Tennessee, three UNCF institutions--Fisk 
        University, Lane College and LeMoyne-Owen College--received a 
        total investment of $6.0 million. Fisk University installed 
        computers in the dorms, improved its web site and enhanced 
        networking capabilities.

        <bullet> In Alabama, there are five UNCF member institutions--
        Miles College, Oakwood College, Stillman College, Talladega 
        College, and Tuskegee University, where UNCF funded $12.5 
        million in technology. Tuskegee University wired its entire 
        campus, enabling it to provide access to students and faculty 
        campus-wide.

    In addition, all 39 UNCF campuses have benefited from upgraded 
network infrastructures and increased access to technology for 
students, faculty, and staff.

        <bullet> UNCF institutions have received hardware, including 
        5,500 desktop computers, almost 1,800 network printers, nearly 
        2,000 network servers, and about 2,000 laptops, as well as 
        hundreds of hubs, switches and network routers, courtesy of 
        Hewlett Packard, Cisco, Lexmark, Dell and Pfizer;

        <bullet> The wiring of member institution campuses is 
        completed--including over 3,800 network drops in learning 
        centers and administrative and academic facilities and 
        equipment installation and configuration; and

        <bullet> UNCF member institution received 145,000 current 
        versions of Microsoft, including Windows 2000, Encarta 
        Reference Suite 2000, Microsoft Office Suite 2000, Windows XP, 
        and Encarta Africana 2000 courtesy of an `in-kind' gift from 
        Microsoft.

For the record, Mr. Chairman, I am submitting the list of these 
contributors.
    Even with all the support from UNCF and its supporters, we are far 
from closing the digital divide. Much more remains to be done. This 
leaves a clearly defined role for Congress to play.
    Mr. Chairman and Members of the Committee, I must point out, 
however, that any legislation directed at closing the digital divide at 
UNCF member institution, its sister historically black colleges and 
universities, and other minority institutions of higher education, 
cannot be marginalized. Simply put--with the technology needs being so 
paramount at our schools--the legislation must be drafted and designed 
to meet the varying needs of the HBCUs and all MSIs. That is why so 
focus has been given to placing such a critical federal initiative at 
the appropriate department or agency--one where there are no statutory 
constraints that limit the agency's ability to meet the needs of the 
eligible institutions and to accomplish the goals Congress has defined.
    The question has been raised as to whether Huston-Tillotson, for 
example, could acquire technology for and train staff in the student 
financial aid office, if the program authority contemplated in H.R. 
2183 is placed at the National Science Foundation (NSF). What if 
Huston-Tillotson wants to make a course in Farci, taught via the 
Internet or telecommunications satellite with the University of Texas, 
available to its students (and to students at neighboring Wiley College 
or Paul Quinn College) with technology purchased with H.R. 2183 funds? 
I know there are individuals who will argue that such activities are 
possible, if indeed a federal program were established at NSF. 
Nonetheless, I question whether NSF has the authority to fund 
activities that are not tied directly to research and education in the 
sciences, mathematics and engineering or to competitively fund ``bricks 
and mortar'' projects. As I noted earlier, UNCF member institutions' 
needs vary widely and may extend well beyond a narrow interpretation of 
NSF's focus.
    In the past, NSF has been less than eager to fund science education 
and research projects at institutions that are not among the flagship 
academic and research institutions in America. NSF is not alone in this 
regard. The Department of Commerce and NSF's records of performance in 
providing grants, contracts, and cooperative agreements to the MSIs 
leave much to be desired. Presidents at UNCF member institutions can 
recount numerous stories about these federal departments' and agencies' 
track records with the HBCUs. I imagine that with Hispanic-Serving 
Institutions and with Tribal Colleges and Universities this track 
record also is far from stellar. Outside of the programs housed in 
NSF's Education and Human Resources Directorate, only a handful of 
minority-serving institutions benefit from the full complement of NSF's 
research and related activities. The Department of Commerce does not 
have a single dedicated HBCU or minority serving institution Therefore, 
UNCF member institutions are reticent about how such a program would 
fare at NSF, not to mention at other departments and agencies.
    This is not to say that NSF, the Department of Commerce, and the 
other federal departments and agencies all should not have some 
dedicated, capacity building program for HBCUs. In fact, the 
President's Advisory Board on HBCUs has made such a recommendation to 
the President in its recent ``2001-2002 Annual Report to the President 
Under Executive Order 13256.'' I hope that this very goal is something 
this Congress and this Administration will soon achieve.
    Mr. Chairman, for these reasons, on behalf of UNCF member 
institutions, I make the following specific recommendations as you 
deliberate this issue and H.R. 2183:

        <bullet> delete the Advisory Council in section 4(b) and 
        substitute a strong peer review panel provision that ensures 
        that people, both knowledgeable about and familiar with the 
        technology infrastructure, instrumentation, and instructional 
        needs of HBCUs/MSIs, and also conversant with the academic 
        programs and the needs of these institutions in general, 
        participate on these panels;

        <bullet> modify section 3 (5) to state--``(5) to provide 
        professional development and training to administrators and 
        faculty of eligible institutions with responsibility for all 
        phases of academic instruction and institutional 
        administration;'' and

        <bullet> include a provision that calls for, to the maximum 
        extent possible, equitable distribution of appropriated funds 
        to the range of eligible institutions that will participate in 
        the program.

UNCF also has some concerns regarding the reporting requirements in the 
bill, which it has provided some recommendations, for the record.
    In addition, the legislation established an Office of Digital and 
Wireless Network Technology to carry out the activities designated in 
H.R. 2183. It remains unclear as to whether or not the salaries and 
expenses to support this office are stipulated in the bill as written.
    In closing, HBCUs face the twenty-first century as maturing 
institutions with an educational legacy that now is more important than 
ever given the rapidly changing demographics of this nation. The action 
you take on this significant issue will have a momentous impact on the 
future prosperity and security of our entire nation.
    Again, I want to thank the Committee for this opportunity to 
testify and to present the views of UNCF on this important legislation. 
UNCF is available to assist you, Mr. Chairman, and Members of the 
Committee as you proceed with consideration of the bill.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Attachment B

                    PROPOSED REVISIONS IN SECTION 7

(c) Contents of Evaluation.--The Director shall prepare an evaluation 
of the program authorized by this Act, based on the annual reports 
submitted by each institution that receives a grant under this Act. The 
Director's evaluation shall assess the short- and long-range impact of 
the activities undertaken by each grantee relative to the institution's 
plan for addressing the technology infrastructure, instrumentation and 
instructional needs of that institution. The Director's evaluation 
shall include the first five years of funded institutional activity.

(d) Report To Congress. The Director shall prepare and submit a report 
to Congress no later than one-year after the fifth year of funded 
institutional activity. The Report to Congress shall include a summary 
of the institutional activity undertaken and a comprehensive report on 
each institutional award, including: the amount of funds provided, the 
institution's technology enhancement plan, the activities undertaken 
with federal funds, any activities undertaken with matching or 
institutional ``in-kind'' (non-federal) funds, and the institution's 
assessment of the impact of the grant. The Director may also include an 
assessment of the impact of the program on closing the ``digital 
divide'' at minority-serving institutions and appropriate 
recommendations for the continuing need for federal support for the 
program.

                     Biography for Larry L. Earvin

    A post in education that was to last one year resulted in a 27-year 
career filled with numerous accomplishments, successes, and a 
presidential appointment. Effective July 1, 2000, Dr. Larry L. Earvin 
was appointed by the Board of Trustees as the fifth President and Chief 
Executive Officer of Huston-Tillotson College. His millennium year 
appointment was made during the College's 125th anniversary.
    Dr. Earvin's reputation as an efficacious leader was established 
during his seven successful years as Dean of the School of Arts and 
Sciences at Clark Atlanta University. As President of Huston-Tillotson 
College, he has used his leadership skills to garner support for the 
College from the entire community.
    Since his arrival in Austin, Earvin has steadied the pace of his 
leadership in building community and corporate support for higher 
education. He has become actively involved in several local public 
interest concerns including the Capital Area United Way, the Austin 
Area Urban League, and the Austin Area Research Organization. At the 
local level, he has also been applauded for his leadership in 
innovative collaborations which include Tarrytown United Methodist 
Church, The Austin Chapter of The Links, Southwestern University at 
Georgetown, and the Austin Idea Network.
    Earvin's expertise has been recognized through his election to 
several state and national boards of directors, including the 
Independent Colleges and the University of Texas, the Council of 
Independent Colleges (Washington, D.C.), National Association for Equal 
Opportunity in Higher Education (Washington, D.C.), the University 
Senate, the Black College Fund of the United Methodist Church, and the 
Higher Education Council of the United Church of Christ.
    Earvin obtained a Bachelor of Arts degree from the former Clark 
College, a Master's of Science from Georgia State University and the 
doctor of philosophy from Emory University.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Smith. Dr. Earvin, thank you. Dr. Fennell.

   STATEMENT OF DR. DWIGHT J. FENNELL, PRESIDENT, PAUL QUINN 
                            COLLEGE

    Dr. Fennell. Good morning. Thank you, Chairman Smith and 
Ranking Member, Congresswoman Eddie Bernice Johnson, for the 
opportunity to testify before you today on behalf of Paul Quinn 
College. The need for higher education institutions to be in 
the forefront of the digital divide is paramount. In order to 
maintain a preparatory presence, it is essential that faculty, 
staff, and students keep abreast with the introduction of new 
and current technologies.
    In this regard, higher education institutions must have, at 
a minimum, technologies that include desktop computers, 
connectivity with Internet access, and the ability to provide 
professional development on the various types of administrative 
and office productivity software. Higher education must also 
effectively prepare students to meet and address the workforce 
demands and expectations. For these purposes, it is critically 
important that higher education initiatives now include the 
element of a functional plan of action to upgrade the campus 
environment, retain and retool campus constituents, and 
maintain a vigilance about new technologies and their use.
    Paul Quinn College is a private, four-year liberal arts 
institution located in Dallas, Texas. The college was founded 
in 1872 and has served an historically black population during 
her tenure. The college for 131 years has been meaningful to 
the development of individuals from communities throughout 
Texas and the Nation, with the provision of educational 
enhancements that provide the necessary, functional, and 
sustaining skill sets that are contemporary for competitive 
employment and/or pertinent to individuals' matriculation to 
graduate and professional schools.
    This has been especially true in the area of technology, 
and in spite of the increasing demands placed on higher 
education with new software, hardware, and training, there 
continues to be a need to remain technologically functional. As 
a private institution, it is important to have access to 
funding pools that would increasingly aid in the building and 
maintaining the technology infrastructure. This is pertinent to 
both the administrative operations of the college and the 
instructional preparation of our students.
    Paul Quinn College is currently positioned with a new 
wireless network and complete Internet access. The college has 
also purchased a new administrative software package called 
Comprehensive Administrative Management System, or referred to 
as CAMS. This purports that the administrative operations of 
the college, student labs, faculty offices, and select areas 
such as the library have been upgraded. Notwithstanding, the 
most pressing technology needs are enriching the living-
learning environment of the college's residence halls and the 
need to further create a campus friendly initiative with the 
use of technology with on-line registrations, review of 
billing, expansion of inter-relational connectivity with the 
area campuses, and the establishment of informational 
opportunities between students and faculty. Significant to the 
aforementioned are training and professional development needs 
as well.
    The current address of technology is achieved through the 
process of grantsmanship, fundraising, and philanthropic 
support. The United Negro College Fund is also a major 
supporter in both the provision and the creation of 
opportunities for acquiring technologies. As a result of 
technology having a short-term innovative life, the support for 
more available and assured streams of funding is essential. 
Also essential is the need to have funding for a computer/
technology refreshing program and the need to revamp the core 
structure of the campus with technological upgrades.
    In spite of the accomplishments to date, Paul Quinn 
College, as many other higher education institutions, continues 
to have an increasing obligation to do more with technology. As 
a result of the fast paced growth in this area, funding pools 
will continue to be needed to upgrade technology 
infrastructures, which are essential to the growth and 
development of our students. This, too, purports the training 
that is essential for faculty and training that is necessary 
for staffs that conduct the operations of our institutions.
    As H.R. 2183, the Minority Serving Institution Digital and 
Wireless Technology Opportunity Act, takes form, it is proposed 
that the following items be considered for the betterment of 
all higher education. The recommendations would include that 
the Act allow for the provision of a process that provides for 
the receipt of funding that will be pertinent to any technology 
needs as identified by the institutions. This is critically 
important in that the needs as identified by the institution 
speaks to the necessary technology that is needed to advance 
the campus. Moreover, while institutions have comparable needs, 
they are not all the same needs in terms of technological 
advances.
    Technically, the provision of a process that is not 
prescribed for select disciplines or programs. Most often, the 
use of technology is associated with the scientist, math, or 
engineering disciplines. Being a liberal arts institution, we 
find it now significantly important that liberal arts 
disciplines and programs also be prepared with the same 
technology for research, instruction, or delivery. The 
informational exchange is most practical and necessary during 
this time.
    We believe, also, that there is a need for a process that 
ensures a peer review procedure. A peer review, in our opinion, 
is crucial and critical. A study or statement by those who best 
understand the institution from our history, from our mission, 
to our program delivery, is significantly important to offering 
the review that is needed to assist in advancing our 
institution's developments in technology.
    And lastly, the provision of campus-wide opportunities in 
professional development and technical assistance. In order for 
students, faculty, and staff to advance, complimentary supports 
must be placed throughout the campus. Such supports for 
professional development and technical assistance provide for 
reinforcement across the campus in learning and providing the 
technological growth that is needed both for the institution 
and the individual.
    The concerns as expressed on behalf of Paul Quinn College 
have universal appeal to institutions that are similarly 
situated. Moreover, independent private institutions, in 
particular, and all of higher education more generally, have a 
need for assistance with building capacity, enriching the lives 
of our constituents, and enhancing the living-learning 
environment, all of which are essential for a better nation.
    Thank you for the opportunity to present this testimony and 
we are prepared to answer any questions that are placed before 
us.
    [The prepared statement of Dr. Fennell follows:]

                Prepared Statement of Dwight J. Fennell

    The need for higher education institutions to be in the forefront 
of the digital divide is paramount. In order to maintain a preparatory 
presence, it is essential that faculty, staff and students be kept 
abreast with the introduction of new and current technologies. In this 
regard, higher education institutions must have, at a minimum,
    technologies that include desktop computers, connectivity with 
Internet access and the ability to provide professional development on 
the various types of administrative and office productivity software. 
Higher education must also effectively prepare students to meet and 
address workforce demands and expectations. For these purposes, it is 
critically important that higher education initiatives now include the 
element of a functional ``Plan of Action'' to upgrade the campus 
environment, retrain and retool campus constituents and maintain a 
vigilance about new technologies and there use.
    Paul Quinn College is a private four-year liberal arts institution 
located in Dallas, Texas. The College was founded in 1872 and has 
served a historically black population during her tenure. The College 
for 131 years has been meaningful to the development of individuals 
from communities throughout Texas and the Nation, with the provision of 
educational enhancements that provide the necessary, functional and 
sustaining skill sets that are contemporary for competitive employment 
and/or pertinent to the individuals' matriculation to graduate and 
professional schools. This has been especially true in the area of 
technology and in spite of the increasing demands placed on higher 
education with new software, hardware and training, there continues to 
be a need to remain technologically functional. As a private 
institution, it is important to have access to funding pools that would 
increasingly aid in building and maintaining the technology 
infrastructure. This is pertinent to both the administrative operations 
of the College and the instructional preparation of students.
    Paul Quinn College is currently positioned with a new wireless 
network and complete Internet access. The College has also purchased a 
new administrative software package Comprehensive Administrative 
Management System (CAMS). This purports that the administrative 
operations of the College, student labs, faculty offices and select 
areas such as the library have been upgraded. Notwithstanding, the most 
pressing technology needs are enriching the living-learning environment 
in the College's residence halls and the need to further create campus 
friendly initiatives with the use of technology in on-line 
registrations, review of billing; expansion of inter-relational 
connectivity with area campuses; and the establishment of informational 
opportunities between students and faculty. Significant to the 
aforementioned are training and professional development needs as well.
    The current address of technology is achieved through the process 
of grantsmanship, fundraising and philanthropic support. The United 
Negro College Fund, Inc., is also a major supporter in both the 
provision and creation of opportunities for acquiring technologies. As 
a result of technology having a short-term innovative life, the support 
for more available and assured streams of funding is essential. Also, 
essential is the need to have funding for a ``computer refreshing 
program'' and the need to revamp the core structure of the campus with 
technological upgrades.
    In spite of the accomplishments to date, Paul Quinn College (as 
many other higher education institutions) continues to have an 
increasing obligation to do more with technology. As a result of the 
fast paced growth in this area, funding pools will continue to be 
needed to upgrade technology infrastructures which are essential to the 
growth and development of our students. This too purports the training 
that is essential for faculty training and the training that is 
necessary for staffs that conduct the operations of the institution.
    As ``H.R. 2183, the Minority Serving Institution Digital and 
Wireless Technology Opportunity Act,'' takes form, it is proposed that 
the following items be considered for the betterment of all of higher 
education. The recommendations would include, the Act allowing for:

        <bullet> The provision of a process that provides for the 
        receipt of funding that will be pertinent to any technology 
        needs, as identified by the institution.

        <bullet> The provision of a process that is not prescribed for 
        select disciplines or programs.

        <bullet> A process that ensures a peer review procedure.

        <bullet> Provision of campus-wide opportunities in 
        professional development and technical assistance.

    The concerns as expressed on behalf of Paul Quinn College have 
universal appeal to institutions that are similarly situated. Moreover, 
independent private institutions, in particular, and all of higher 
education more generally, have a need for assistance with building 
capacity, enriching the lives of our constituents and enhancing the 
living-learning environment; all of which are essential for a better 
nation.

                    Biography for Dwight J. Fennell

    Dr. Dwight Fennell is the 32nd President of Paul Quinn College. Dr. 
Fennell is a native of Miami, Florida where he completed all of his 
grade level education in the public school system.
    Upon completion of high school, he attended Saint Augustine's 
College in Raleigh, North Carolina, where he completed the 
baccalaureate degree in History and Government. Immediately following 
his undergraduate education, he pursued and completed the Master of 
Arts Degree in History at (the then) Atlanta University. He also 
attended and completed a second Master of Education degree in Education 
at Florida International University, Miami Florida. The Doctor of 
Philosophy and Education Specialist degrees were completed at The 
Florida State University in Tallahassee, Florida.
    Dr. Fennell began his career in higher education at Florida 
International University where he worked in various capacities 
associated with student services. While at Florida International 
University he worked with community service initiatives, Adult and 
Continuing Education and as assistant director of the college's Honors 
Program. He was also employed with Florida Atlantic University, in Boca 
Raton, Florida where he directed the university's initiative for 
student retention and served as assistant to the university's 
affirmative action officer.
    After leaving the state university system of Florida, Dr. Fennell 
taught at Morris Brown College in Atlanta, Georgia, and later at Saint 
Augustine's College in Raleigh, North Carolina. While at Saint 
Augustine's College he became a tenured professor of History and 
education. He also became the Vice President for Academic Affairs, a 
position he held for seven years (of his eleven-year tenure).
    Dr. Fennell came to Paul Quinn College in 1998, to the position of 
Provost. In this capacity, he was responsible for oversight of the 
areas of academic and student affairs and serving as needed when called 
upon by the President.
    On last year Dr. Fennell was selected as Interim President, during 
the search period for a permanent president. It was also during this 
period that Paul Quinn College had a phenomenal year; the enrollment 
grew both semesters, the retention of students increased and the 
College operated in the black.
    Effective May 4, 2002, Dr. Fennell received the unanimous vote of 
the Board of Trustees to become Paul Quinn College's 32nd President. 
Dr. Fennell states that he ``sees a bright future for the College with 
an emphasis being placed on: increased enrollments, the establishing of 
`niche' academic programs, greater enhanced retention, increased 
collaboration with the community, increased scholarship opportunities 
for students and expanded athletic programs.'' Dr. Fennell is very 
optimistic about the future of Paul Quinn College, as the gateway to 
the ``educational corridor'' in the Dallas community.
    Dr. Fennell has contributed to the production of articles in 
history; he has contributed to research in both history and education; 
he has experience in grantsmanship and fundraising; and he has done 
extensive work in program accreditation and institutional 
accreditation.
    Dr. Fennell is married to Angelia Fennell, and they have one son, 
Dwight, Jr.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               Discussion

    Chairman Smith. Thank you very much. For the panel's and 
the audience's information, in just a couple of minutes we are 
going to go to the Floor, I understand, for three votes. 
Interestingly, it is on education and how we encourage quality 
teachers in compliance with No Child Left Behind. But also, as 
a special priority for science and math, looking at increasing 
the forgiveness of student loans from, I think it is $5,000 now 
up to $17,000 for math and science teachers, to try to 
accommodate some of the great needs.
    You know, originally, in the 107th when the bill was 
introduced, the legislation called for this responsibility 
going to the Department of Commerce. We have established the 
Technology Administration in Commerce. We will be talking about 
what is the best and most effective way to get this money out 
in a reasonable fashion, so we have also asked the Director of 
the National Science Foundation, Rita Colwell, to be here today 
to give us her ideas. Is there any particular thoughts that any 
of you have with why we shouldn't at least consider the 
technology administration in Commerce for administering this 
program? Does anybody have any particular comments on that? Dr. 
Humphries.
    Dr. Humphries. I am going to become technologically 
literate before it is over. The National Science Foundation 
today already has programs which deal with minority 
institutions, and there are several of those programs that 
produce within the National Science Foundation a currency and 
knowledge about the institutions. They have programs that focus 
on the graduate level, they have programs that focus on the 
undergraduate level, and they have programs that focus pre-
college in terms of getting people to do what you were talking 
about, how you get more minorities to come into science and 
technology.
    So there is a base of knowledge pertaining to minority 
institutions that is within the National Science Foundation in 
existence. This couples the technology sufficiency at our 
institution, couples well with the kind of things that they are 
doing presently in terms of this, and so we need to do more 
with the National Science Foundation in terms of their support 
for minority serving institutions. The more we put over there, 
the more I think that we can get more of a synergy which 
relates to getting more focused.
    Chairman Smith. Dr. Fernandez, you mentioned the importance 
of a blueprint, a plan. Should that be part of the requirements 
for these grants, that there is a plan in place to move ahead 
in this area? Should that be part of the grant application 
provisions?
    Dr. Fernandez. I would not want to put that as a 
requirement, because there are some institutions who need these 
funds precisely to put together that plan on how to best 
utilize that. But I would like to, if I may, talk also about 
the previous point. In looking at the NSF executive summary of 
the strategic plan, I note on page 3 that they talk about core 
strategies, one of which, the second one, is strengthen the 
physical infrastructure. And I quote, ``Modernize existing 
facilities and instruments and plan for future needs, including 
taking full advantage of the capabilities of emerging 
information technologies.'' So that struck me as certainly one 
area, one justification, for including this program under the 
National Science Foundation. But ultimately, I guess, it is up 
to the Committee to----
    Chairman Smith. I guess part of the challenge is that money 
is limited in NSF. Our budget is very modest compared to, for 
example, NIH. And so there has been some feeling of a priority 
that we get the most bang for our basic research dollar, and 
having peer reviews of what areas of basic research should we 
be looking at and who can best accommodate that research. I 
mean, I guess my personal feeling, it is possible, we could do 
it. I am reluctant to make NSF an affirmative action agency. I 
think even on this legislation, the question that comes to my 
mind is, you know, two areas maybe. One is what is the need for 
non-minority institutions? And I think we need to assess that. 
It might be some of our colleges that aren't necessarily 
serving minorities that have just as great a need. So need 
should be part of our priority, and the reason we are 
considering this bill is because it has become obvious that 
there is a greater need with minority serving institutions. And 
so I think it is reasonable and logical that we proceed with 
this bill, but the other part of this kind of effort to get 
results, it seems to me, is start examining a situation where 
other advanced learning institutions might need some of the 
same kind of help.
    Any comments that any of you have on trying to help make 
sure that this is results oriented or that we help those 
colleges and universities that need this kind of help if we are 
going to have the kind of workforce in this country that is 
going to accommodate our future needs?
    Dr. Fennell. Mr. Chair, if I may?
    Chairman Smith. Yes, Dr. Fennell.
    Dr. Fennell. We are finding that in 2003, many of our 
students that come to HBCUs are first generation students, 
which essentially means that their parents have had no prior 
education and no understanding of the use of technology, which 
often purports that there is no technology in the homes unless 
it is affiliated with their matriculation during high school. 
This is not to say that majority or other institutions don't 
have as great a need as HBCUs, but I think all of higher 
education needs to look at this issue and emphasis, because in 
four years of high school, coming to institutions of higher 
learning and not receiving the type of preparation for 
technological literacy creates a further gap in terms of the 
education process.
    I would offer that, however, the language and intent of the 
program or the bill is identified that it is done so with the 
full intent of making and creating a better technological 
society, and I think that is critical and crucial, and we all 
agree in regards to that regard. Now, how it is done, I think, 
again, the language needs to be looked at critically, and the 
components for which will be piped in the bill to achieve the 
intent need to be looked at very critically. And so I think 
some of us are not prepared to make specific comments as such 
because that language would need to be so noted and reviewed 
before there is some comfort with providing support for it.
    Chairman Smith. Thank you. Representative Johnson.
    Ms. Johnson. Thank you very much for your testimony. Dr. 
Humphries, do you have an idea of a set amount of money that 
would address most of the needs of the institutions? I know 
that most of them have very old buildings because they are old 
institutions, and some of the infrastructure has been improved 
and others have not. But do you have a good estimate of how 
much money might be needed to bring them up to par?
    Dr. Humphries. Well, we indicated in my testimony that $2.5 
million per institution would be extremely helpful in terms of 
attacking the deficiencies that we noted in the study. Now, 
$2.5 million is an average figure. There will be some 
institutions who will need more money than that, depending on 
how far away they are. And there will be some institutions 
needing less than that, depending on what they have done thus 
far. So again, the $2.5 million would all be taken up by 
historical black colleges and universities, and the core heart 
of institution has been stated as in excess of 400. So again, I 
would reiterate the point that was made, that we need more than 
one year of funding at the $250 million level to really tackle 
this problem in a significant way for the institutions who are 
involved in this activity.
    Could I just make one comment to your comments, Mr. 
Chairman? I have listened to CNN. I have listened to--I mean, 
we have a major problem in this country. We are not producing a 
significant number of well-trained physicians, scientists, 
Ph.D.s, and the like. And so when you raise the question about 
research for the National Science Foundation, the question 
becomes then, who will do the research for the National Science 
Foundation dollars? Will they be American citizens or will they 
be people brought in from abroad who will operate the 
laboratories in our major national universities that you give 
research dollars to? If the National Science Foundation does 
not broaden its mission to include how to be effective in 
producing from out of minority communities, Ph.D.s in physics 
and biology, and mathematics, and computer sciences, and the 
like, we are going to have an under-representation that will 
make our scientific and technical progress dependent upon 
bringing people from outside the country, and we will fail 
miserably in providing opportunities for people who live inside 
this country to participate at the highest level in terms of 
this activity. So this is not and idle--last night on the CNN 
program, it said that we cannot protect our country in terms of 
homeland security and biohazards in an attack because we don't 
have enough well trained physicians who have good scientific 
and technical backgrounds and to go into medicine.
    Chairman Smith. I totally agree, but this is your time.
    Ms. Johnson. I am just listening. I agree with you as well.
    Dr. Humphries. So they need to broaden their mission, and 
it is not affirmative action. It is national need, security 
driven.
    Chairman Smith. Ms. Johnson, if you would yield, there are 
two programs that we have implemented. One is the partnership 
program that we have authorized $200 million to start an effort 
of having research grants come in, or applications come in, of 
how we best can stimulate doing a better job in the K through 
12. And then with Tech Talent, encouraging all universities to 
do a better job in high tech at the university level. And I am 
sure Director Colwell might comment on that, too. But we will 
crank your time back to five minutes, Representative Johnson.
    Ms. Johnson. Thank you very much. I was--let me ask Dr. 
Fernandez, do you have an opinion as to whether--we have a bill 
that places this program in the Department of Commerce and one 
for the National Science Foundation. Do you have an opinion of 
where you think it might work best?
    Dr. Fernandez. As I indicated earlier, in reviewing the 
strategic plan, I felt that there was an appropriate place for 
this program in the National Science Foundation. My institution 
is part of a consortium in telecommunications that has received 
funding under the NTIA Act from the Department of Commerce to 
develop satellite and other telecommunication system. It is 
called the Hispanic Education Telecommunication System, and we 
have received funding strictly for infrastructure. I think part 
of the issue here is that some of these funds and some of these 
resources really need to be focused also on the development of 
faculty and on teaching and learning, which is appropriately a 
responsibility of NSF and not so much the Department of 
Commerce. I mean, the Department of Commerce doesn't really 
deal very directly with a lot of institutions of higher 
learning, or for that matter, K-12.
    So if you are talking about community colleges and if you 
are talking about four-year institutions, including mine, that 
have some graduate programs, and we hope to develop some of 
these scientists that, you know, my colleague is talking about, 
then that is why I felt that NSF was a more appropriate 
location for this program.
    Ms. Johnson. So you feel with the institutions where you 
have been that you have had a fair share, fair opportunity, to 
participate with the National Science Foundation grant 
programs?
    Dr. Fernandez. Some of our faculty have competed and 
received some funding for that. I have no--I don't have any 
specific percentages because I haven't looked at that data. We 
encourage our faculty to apply, and we believe in the peer 
review process. I think the issue is whether the institutions 
that are sending these proposals have adequate representation 
on some of these panels. And often times there is not enough 
knowledge in these panels about the needs and the circumstances 
in which these institutions operate.
    I have encouraged my faculty to submit their names and 
resumes, and some of them, indeed, have been invited to be part 
of panels that end up reviewing applications, but we need to do 
much more of that because it is an insufficient number.
    Ms. Johnson. Thank you. Dr. Earvin, would you comment on 
that?
    Dr. Earvin. I think as the legislation takes place, we will 
be guided in our response to that question as to which may be 
the more appropriate agency. There are unique needs at these 
institutions that we are seeking to address, and some of those 
needs may more appropriately be addressed in one agency than 
another. I know, for example, at Commerce, we have worked 
through the National Oceanic and Atmospheric Administration to 
deal with capacity building at historically black institutions 
and minority serving institutions, so there is a capacity 
within both, I think, agencies to serve the needs, provided 
that the needs are being served as they are identified under 
this legislation.
    Ms. Johnson. Dr. Fennell, do you have a comment?
    Dr. Fennell. Yes. I would offer that I have no aversion to 
placement in either entity. Notwithstanding, based on the need 
of the institutions which entity would best be able to 
facilitate it, I think I would offer a recommendation. And I 
make specific reference to the fact that sometimes because our 
HBCUs, in particular, are aged and have a need for building 
rehabilitation, we would need an agency to be able to provide 
and support an application process that would allow for brick 
and mortar and/or building rehabilitation.
    Often, because some of our programs are, being a liberal 
arts institution by makeup and nature, we want to expand the 
use of technology beyond just the areas of the math, science, 
and engineering programs to include the liberal arts areas. I 
think, again, we would also want to look at the idea that 
wherever the program needs are as specified by the institution 
be given some full and thorough consideration, so be it a peer 
review process or advisory body process, we want to take into 
consideration as to how the need has been identified by the 
institution to take the priority in terms of funding 
consideration. And that has been cheered by some. I think the 
peer review process is essential in that the mission and the 
history of many of our institutions and those groups that we 
currently serve, in spite of being in 2003, again, because 
there are first generations coming, there are adult learners 
that are coming back to us, we need a process that would be 
sensitive to and willing to educate those persons in the area 
of technological developments, not just in the sciences, not 
just in the area of technology, but again, across disciplines.
    Ms. Johnson. Thank you. My final question to each of the 
panelists, have you personally served as a peer on any review 
panels?
    Dr. Humphries. Yes, I have.
    Ms. Johnson. And in serving, do you feel that there is good 
input from----
    Dr. Humphries. Well, certainly, from my experience serving 
as a panelist in a peer review activity, had ascertained for me 
all of the concerns that have been expressed here. You can get 
a fair decision out of the process because you are there and 
you help explain certain kind of things that people 
misinterpret as they are reviewing proposals. And therefore, 
you enhance the opportunity that is a fairer presentation of 
that proposal and how it is scored happens. And so there is a 
lot of benefit to having people from a cross section of 
institutions participate in a peer review process. And when you 
have only major institution peer reviews dealing with major 
institutions, they sort of take care of each other. And when 
you don't have that diversity there, you don't get a clearer 
picture of the fairness of how that proposal is rated in 
responding to the issues that are there. So I would recommend 
that diversity be added, not just racial diversity, but 
institutional diversity, in terms of looking at the issues of 
this grant making process that we have in effect. It is highly 
desirable.
    Ms. Johnson. Anyone else?
    Dr. Earvin. I share that same perspective. I have served on 
a number of panels and I can tell you that the deliberations 
have been greatly enhanced by having that diversity, and 
difference, and perspective as we peruse the proposals that are 
before us.
    Dr. Fernandez. Years ago, I served on a few panels in the 
Department of Education to review various programs. I have not 
been part of any NSF review processes.
    Dr. Fennell. None for NSF. I did some review for NASA 
proposals. Again, it was a peer established process.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Chairman Smith. Just before I call on Representative 
Forbes, just reacting to Dr. Fennell's comments. I visualize 
the possibility in this kind of program with these kinds of 
goals that maybe an MSI that is predominantly a teacher 
training college might have more long-term results getting some 
technology equipment into that facility for a better 
understanding and appreciation of the people that are going to 
teach more people. The long-term effects might be greater 
regardless of some researcher or science or math person trying 
to evaluate that kind of consideration. So in my opinion, this 
is not just for colleges that are trying to encourage science 
and math. It is for every person across the population that can 
go into almost any job, because the understanding, and 
appreciation, and ability to use technology, regardless of your 
profession, is going to be very important in our future. So 
that is my comment. Representative Forbes.
    Mr. Forbes. Thank you, Mr. Chairman, and I will be very 
brief. It would seem to me that just listening to your 
testimony--and I apologize. I have had to be in and out because 
we have a markup in another committee, but you have some 
differences as perhaps where you would like to see the program 
located among the four of you, but at the same time, there is 
an agreement for the need for the program and for the need for 
this kind of funding to overcome some of the digital 
deficiencies that we have. Is that a fair assessment from--
anyone disagree with that comment?
    The second question I have is I am always surprised when--I 
have four children. Three of them, I have attended their 
colleges when they were doing orientation--at the percentage of 
students that enter a university or college and change their 
career path from the time that they enter until when they 
leave, and the percentages have been staggering. Do you have 
any idea of what that percentage might be for your respective 
institutions? Freshmen coming in, what is the average percent 
that would change their career path or not have it established 
when they come in and by the time they leave?
    Dr. Fernandez. I don't know that I can give you a specific 
percentage, but we do require our students, mostly because of 
financial aid provisions, that they must declare a major as 
early as possible. But that doesn't happen until at least 
sometime in the second year. By the time they reach 60 credits, 
they must have that, otherwise, they may--we may end up getting 
in trouble with auditors because of funds.
    Significant numbers, a large percentage of students, start 
in one area and then decide they want to do something else. I 
mean, I would say half, maybe more than that is typical.
    Dr. Earvin. I would agree that it would be at least half of 
the students that come to us. Having different notions about 
careers and beginning to learn more about those careers once 
they enter college and what is required for them, students 
begin to make different kinds of considerations and shift 
majors. One of the things that we have been concerned about is 
creating a climate, particularly, for science education, so 
that students are encouraged to stick it out and stay in those 
majors. That is critically important. I think that is one of 
the pipeline issues that we have to address if we are going to 
address the core issue involved in this legislation.
    Mr. Forbes. And that is the essence of my question, really. 
I have heard some institutions say as high as 70 percent of 
their students either don't know when they enter as freshmen or 
change from the time that they were freshmen. And it seems like 
to me, the two biggest criterion for them in determining where 
they are going to go is when the interest that they have in a 
particular subject matter, and also, the job opportunities that 
are out there for those. And one of the things that I think is 
important with this bill is it helps to foster both of those by 
creating job opportunities and also by creating the interest 
for the students if we do want to encourage people to go into 
math and sciences. Would you agree with that or feel I am off 
base on that?
    Dr. Fennell. I think you are on target.
    Mr. Forbes. Thank you. Good. Thank you, Mr. Chairman. I 
don't have any other questions.
    Chairman Smith. Mr. Honda, did you have a question? We have 
about three minutes?
    Mr. Honda. It won't take that long. Thank you, Mr. 
Chairman. And I really appreciate our experts here and 
testifying here. I support the outcome of the study that 
concludes that, you know, this is a great need out there. My 
question to you is the focus of the studies have, generally, 
been around Latinos and African-Americans. My question is, is 
there room in the bill for inclusion of Asian-Americans? I know 
that many people who are not from the west coast or have very 
limited exposure to Asian-American populations, there is a 
greater assumption, including members of our own communities, 
that Asians have made it. And it is a false assumption, because 
when you disaggregate the information, you will find that many 
of our populations suffer the same kinds of maladies that 
communities that come from recent immigrants, or who are 
poverty stricken, or who are just not part of the mainstream as 
of yet are not part of the studies and they fall out, you know. 
I am just wondering what your thoughts are relative to APIs 
[Asian and Pacific Islanders]?
    Dr. Fernandez. If I may, at my institution we have a small 
number of Asian students, however, because that is simply the 
demographics of the borough from which we draw most of our 
students. However, other units within the City University have 
large numbers of Asian students, and as a port of entry, New 
York has a lot of immigrant families, a lot of first generation 
students coming into our school, and that sounds very similar 
to the situation you would find in some cities in California. 
So yes, by all means, these funds would benefit some of these 
institutions and those students would also profit from that.
    Mr. Honda. Is there--thank you.
    Dr. Earvin. May I respond to that, also?
    Mr. Honda. Sure.
    Dr. Earvin. Representing HBCUs, we have never been closed 
to anybody who wants opportunity, and if they come to us 
needing special attention, regardless of their circumstance, we 
will provide it. So we have a small Asian population at my 
institution, and many of them come with the same needs that 
some of the African-American and Hispanic students that we 
serve, and we treat them all as students and address the needs 
that they have with the resources that we are able to garner.
    Dr. Humphries. With some reasonable fixed numbers, and for 
those institutions that are similarly situated as we are by the 
Asian Pacific Islanders, we wouldn't have any objections to 
their inclusion in the bill.
    Mr. Honda. Thank you very much. I appreciate that, and as 
advocates, I think that we have to build that coalition. I 
guess within the population, if it appears that it is targeting 
certain populations, but it is not inclusive, or there is no 
outreach program that says this program is for you, too, I 
think that that might be something that we can think of in the 
interim. I appreciate your work and I support it 100 percent in 
making sure that these kinds of help and, you know, additional 
kinds of funding that we need in our institutions are extended 
to all these universities. Thank you very much. Mr. Chairman, 
thank you.
    Chairman Smith. We have three votes. The Committee will 
stand in recess for until about 20 minutes after 12:00, and 
then we will take up our third panel with the Director of the 
National Science Foundation testifying. My guess is we will 
finish the vote sometime between 15 minutes after 12 and 20 
minutes after 12. And with that, the Committee is in recess.
    Mr. Honda. Mr. Chairman, just a question. When at some 
point in time in this process are we able to have an amendment 
to include API in the language, API institutions?
    Chairman Smith. I think it is appropriate to consider 
amendments and changes in this subcommittee. In two weeks we 
will be taking this to the full Science Committee for a full 
markup.
    Ms. Jackson Lee. Mr. Chairman?
    Chairman Smith. Yes?
    Ms. Jackson Lee. I am in markup in Judiciary. Could I get 
one question into this panel before you adjourn? I think there 
is about seven minutes on the vote. I am going to have to go 
back to markup.
    Chairman Smith. Would it be possible to have you, 
personally--since we only have five minutes until the close of 
the vote, would it be possible if you personally asked the 
individual for a minute instead of calling us back. I have, 
technically, recessed it, but why don't you proceed on the 
microphone and we will print in the record the response, 
without objection, when we reconvene?
    Ms. Jackson Lee. Let me just--this is an issue that is very 
important to me, Dr. Humphries, and I only came to make sure 
that whatever issues we need to resolve in markup are 
effectively handled. I am in Judiciary markup at this time and 
will not be able to come back when this committee reconvenes. 
So all I want to know is, is this legislation on the right 
track? Is there something that we can add with respect to 
amendments to make sure that it effectively answers the 
concerns that the historically black colleges have with respect 
to the digital divide? And also, with respect to the funds 
being authorized, are we appropriately or sufficiently funding 
this effort as relates to historically black, and obviously, 
Hispanic serving, Native American institutions, I assume, are 
included in this?
    And I thank the Chairman for his indulgence. I hope that 
will be put on the record as well. I thank the Chairman very 
much for allowing me to ask this question.
    Dr. Humphries. To respond, number one, if we get it funded 
at $250 million, it is not a one-time funding. It needs to have 
multi-year funding. The $250 million is a good start. The 
average size grant should be about $2.5 million, and therefore, 
that will only cover about 100 institutions. And so there are 
about 400 institutions involved in this, and so we need to have 
more money than that. And so $250 million is a good start.
    Ms. Jackson Lee. And as to the reason the bill is for $250 
million, a one-time grant, a one-time allotment, or over a 
period of time?
    Dr. Humphries. I think you would have to--I would be much 
more comfortable if that were reinforced that this is a multi-
year program.
    Ms. Jackson Lee. I got you. I am pulling out for you the 
issues that I am concerned about. All right. And so I have got 
that.
    Dr. Humphries. The second thing is that we would like 
strong language in the bill which assures that the peer review 
committee will come from the core heart of institutions that is 
being considered for funding. We want to be judged by a jury of 
our peers. I mean, it really means what it says, the peers. So 
we want an honest effort at making sure that the people who 
look at these proposals come from HBCUs and minority, 
Hispanics, and minority serving institutions. Okay? We really 
like the idea of the advisory council, and would want to make 
sure that there is a good representation by stellar people from 
our groups on that advisory committee to advise the National 
Science Foundation or wherever you put this bill with regard to 
that.
    Ms. Jackson Lee. Let me thank you, gentlemen. I think I am 
now down to 21/2 minutes to be able to get to the Floor to 
vote. I respect all the witnesses that are here. I won't 
inquire of all of you. I wanted to clearly get on the record my 
support for the intent of this legislation, but my desire to 
make it where it really works for our students, our faculty, 
and to reemphasize that I believe it is vital that you all are 
a real part in both the digital divide, homeland security 
research, and research dealing with issues such as 
bioterrorism, and of course, medical research. I think that is 
extremely important, and would like to close simply by saying 
that I added to the bioterrorism, bioshield legislation, the 
ability for these types of institutions to collaborate and 
receive funding for such research. I thank you very much.
    [Recess]

                               Panel III

    Chairman Smith. The Subcommittee will reconvene from recess 
and proceed back to the work before this subcommittee. And we 
welcome our third panel and one of the world's greatest leading 
advocates and administrators for scientific research in the 
fundamental and basic area, Dr. Rita Colwell. Dr. Colwell, 
please proceed with your comments.

 STATEMENT OF DR. RITA R. COLWELL, DIRECTOR, NATIONAL SCIENCE 
                           FOUNDATION

    Dr. Colwell. Mr. Chairman, I really appreciate the 
opportunity to testify before the Committee on H.R. 2183, the 
Digital and Wireless Technology Program Act of 2003, and I will 
add that I do enjoy testifying before your Committee, so I 
thank you, sir.
    Although NSF supports the goal of assisting America's 
institutions to develop fully the technological infrastructure, 
and we demonstrate this through a number of ongoing 
programmatic activities that are aimed at strengthening science 
and engineering research and education at minority serving 
institutions, we cannot support H.R. 2183 in its current form. 
My written testimony, which I would respectfully request be 
entered into the record, describes----
    Chairman Smith. Certainly, without objection.
    Dr. Colwell. Thank you, sir. It describes in detail some of 
the issues raised by the bill. And although we fully support 
the aims of the legislation--and I repeat, we fully support the 
aims of the legislation--we believe that it may prove a better 
fit in some ongoing activities in other departments than 
creating a new effort at NSF. Rather than serving as a resource 
for providing high bandwidth connections and wireless networks, 
NSF has a much more appropriate role in finding the most 
effective way to put technology to work in minority serving 
institutions.
    Mr. Chairman, as you know, one of my goals during my tenure 
as Director of NSF is to increase representation by 
underrepresented groups in science, technology, engineering, 
and mathematics. I believe that we are well on the way to 
achieving truly vertical and horizontal integration of all 
those efforts at NSF. But obviously, we can do better. We have 
been taking a close look over the past two years at improving 
the participation of minority serving institutions in all of 
our activities. Although we had anticipated making this 
announcement as part of our Fiscal Year 2005 budget request in 
February, let me share with you some of our thinking right now.
    The President's Fiscal Year 2004 budget request seeks a 
significant increase in our funding for the Louis Stokes 
Alliances for Minority Participation, referred to as the LSAMP 
program. This program has been singled out as having in place a 
number of best practices approaches to improving minority 
science and engineering enrollment and retention. We will also 
place greater emphasis on the success of the LSAMP efforts in 
placing students in graduate programs and involving them in 
other NSF research-related activities. We expect to continue to 
see healthy growth in the budgets of this very important 
program. We also look forward to using this model across all of 
our research and education programs.
    It has become clear to me that our efforts at improving the 
participation of the MSIs, minority serving institutions, in 
various programs has created a situation where no one person at 
NSF is responsible for supervising and tracking the individual 
efforts of our directorates. That is why I am creating a new 
senior position within my office to oversee our efforts to 
improve the involvement of underrepresented groups in science, 
technology, engineering, and mathematics. Now, this position 
will report directly to me, will be given the authority within 
NSF to ensure that the individual directorates are held 
accountable for the various pieces of this effort and will 
serve as NSF's chief link to the community. I expect to have 
someone in this position very soon.
    In addition, although NSF's efforts at increasing support 
for minority serving institutions have been successful in the 
education and human resources programs, we have been lagging 
behind in this effort in our research and related activities 
accounts. Therefore, this new position will work with each of 
the NSF's assistant directors to determine how the MSIs can 
most effectively participate in our research and related 
activities, including, but not limited to, activities such as 
identifying specific opportunities within all directorates that 
are relevant to MSIs and establishing a plan for increasing the 
participation of those institutions; providing travel and 
support funds for professors and students from MSIs to work in 
summer positions at the NSF supported multi-user facilities; 
developing a systematic program of travel grounds for 
professors from MSIs for professional development activities, 
including supporting MSI faculty attendants at proposal writing 
workshops; and ensuring greater outreach so that MSIs have the 
information that they need to be competitive in programs to 
provide classroom laboratory instrumentation.
    The Math and Science Partnership Initiative also serves as 
an important point of entry for MSIs to the Foundation. We will 
work with our MSP team to schedule workshops at MSIs to assist 
them in developing viable partnerships for future competitions.
    Mr. Chairman, I see these as first steps in expanding NSF's 
support for minority serving institutions; they are only first 
steps. I would like to develop a trusting, mutually 
advantageous, long-term working relationship between every 
directorate within the National Science Foundation and the 
minority serving community, and I believe this new position 
will do that. I also believe it will put in place the final 
piece of the puzzle that is needed to ensure complete vertical 
and horizontal integration of these important programs.
    Let me assure you that NSF stands ready to work with the 
Committee to achieve our common goal of meeting the 
requirements of our 21st century workforce. Our future economic 
and national security demands a coherent strategy that will 
fully utilize all of America's human resource in science and 
technology.
    Mr. Chairman, I appreciate your and your subcommittee's 
longstanding support of NSF. We are truly grateful. I would be 
pleased to answer any questions that you may have. Thank you.
    [The prepared statement of Dr. Colwell follows:]

                 Prepared Statement of Rita R. Colwell

    Mr. Chairman and Members of the Committee, I appreciate the 
opportunity to testify before the Committee on H.R. 2183, the Digital 
Wireless Technology Program Act of 2003. H.R. 2183 would establish a 
new Office of Digital and Wireless Network Technology at the National 
Science Foundation to administer a new grant program to ``eligible 
institutions'' as defined in the bill, and would provide authorizations 
of $250 million for each year for the next five fiscal years.
    Let me begin by emphasizing that the National Science Foundation is 
fully committed to assisting America's institutions, including those 
that serve minorities and women, in developing their technological 
infrastructure. As I have said before, the U.S. S&T enterprise has 
failed to cultivate a vast pool of untapped talent among women and 
minorities. Minorities earn only one-tenth as many S&E doctoral degrees 
as their white counterparts; and whereas women comprise half of the 
college-educated workforce, they continue to fill only 10 percent of 
the country's engineering jobs. The requirements of the Nation's 21st 
century workforce, and indeed our future economic and national 
security, call for a coherent strategy that will fully utilize all of 
America's human resources in science and technology.
    The National Science Foundation is leading the way in pursuing such 
a strategy. I believe that if we work together to strengthen and 
improve existing efforts that are consistent with the goals underlying 
this legislation, and to establish new activities that will further 
these goals, we can make substantial improvements in the educational 
and research infrastructure of all our colleges and universities, 
including those that serve populations currently under-represented in 
science, engineering and technology.
    As you know, the National Science Foundation is authorized by the 
Science and Engineering Equal Opportunities Act

        Lto undertake or support a comprehensive science and 
        engineering education program to increase the participation of 
        minorities in science and engineering, and to support 
        activities to initiate research at minority institutions.

    We seek to fulfill this mandate through a comprehensive portfolio 
of programs that challenge the research and education community to 
present NSF with ideas, plans, programs, and actions that will result 
in a demonstrable gain in the number of U.S. citizens from under-
represented groups who pursue science, technology, engineering, and 
math careers at every level--from high school through post-graduate 
education. Through our merit-review process, we fund the most promising 
ideas, and we can claim some success in this regard.
    Institutions receiving funds through the Louis Stokes Alliances for 
Minority Participation program (LSAMPs)\1\ funded by NSF have produced 
174,000 minority Bachelor degrees in science and engineering since 
1991. In 2001 alone, the LSAMP institutions produced 21,704 minority 
S&E graduates--70 percent of all minority S&E baccalaureate graduates 
that year. Our budget request for FY04 increases funding to the LSAMP 
program by 23 percent and our Historically Black Colleges and 
Universities Undergraduate Program by 43 percent. Funding for our Major 
Research Instrumentation program, which assists in the acquisition or 
development of major research instrumentation by U.S. institutions and 
benefits a broad and diverse class of institutions, is increased by 67 
percent. In addition, our Workforce for the 21st Century Initiative 
recognizes the need to increase the number of scientific and 
technologically literate U.S. citizens in the labor force. One of its 
principal goals is to broaden participation in science and engineering. 
In many institutions, including minority-serving institutions, the 
focus will be on drawing elements from existing NSF programs and 
challenging collaborators at these institutions to design programs that 
complement integrated activities at the pre-K-12 and graduate levels to 
develop an innovative and seamless route of advancement for the 
students they serve. We are also investing in research to determine the 
experiences and strategies that are most effective in attracting and 
retaining students in careers that require fluency in math, science, 
engineering or technology.
---------------------------------------------------------------------------
    \1\ Many of the LSAMP alliances include Minority Serving 
Institutions. However alliance participants include a broad and diverse 
group of institutions.
---------------------------------------------------------------------------
    Integrating these proven strategies into any new initiatives is 
crucial to maintaining momentum and propelling us further along the 
path toward achieving our agreed-upon objective--to increase the number 
of graduates, including under-represented minorities, in science, 
mathematics, engineering, and technology by providing access to 
leading-edge research and educational-networking technologies to 
America's institutions of higher education, including minority-serving 
institutions, that can demonstrate a plan for using this technology to 
increase the number of students and graduates, including under-
represented minorities, in science.
    Although NSF supports the goal of assisting America's institutions 
to develop their technological infrastructure, as demonstrated through 
a number of ongoing programmatic activities aimed at strengthening 
science and engineering research and education at all institutions, 
including minority-serving institutions, we cannot support H.R. 2183 in 
its current form. The following describes some of the issues raised by 
the legislation. We also understand that the Department of Justice is 
reviewing the legislation for possible Constitutional concerns.
    NSF's existing organizational structure, widely recognized for its 
efficiency and effectiveness, is already adequate to administer 
programs targeted at ensuring equal access to all institutions, 
including minority-serving institutions. Adding an Office of Digital 
and Wireless Network Technology, as proposed in the legislation, would 
constrain rather than facilitate the integration of research and 
education programs within the Foundation, and would operate with a 
mandate that is much more narrow than the broad, integrative approach 
consistent with our present plans.
    Another concern is the inherent tension between the way that the 
program proposed in H.R. 2183 would be administered and NSF's 
fundamental operating policies. For example, the proposed program is 
comparable to our STEP (Tech Talent) Program in that it includes an 
evaluation component to assess the impact of improving connectivity 
with the specific outcomes, such as improving the quality of education, 
increasing the number of students at target institutions who take math, 
science, engineering, and technology courses, and increasing the number 
of graduates with majors in these fields. However, the evaluation 
process does not follow the Foundation's well-regarded merit-review 
process and award-administration tradition of ensuring that experts in 
the field are included in the review process.
    Similarly, the proposed program would require NSF to fund every 
single eligible institution that applies, regardless of merit. Although 
there may very well be value in such an approach with respect to 
institutions that badly need infrastructure improvement, NSF would not 
be the right entity to administer it. The legislation is also silent 
with respect to planning grants. I would encourage you to consider the 
value of planning grants as an effective and proven way of engaging 
institutions that have not previously applied for funding or have been 
unsuccessful. We have found that providing funding to support faculty 
and administrators to thoroughly consider the long-term costs, 
commitments, and need to integrate technology throughout their 
institutions results in proposals for full awards that are much more 
successful and capable of meeting programmatic goals.
    We also note that the President's FY 2004 Budget supports a number 
of programs in the Departments of Commerce, Education and Agriculture, 
and elsewhere that already address the goals of H.R. 2183 to provide 
financial assistance to improve technology instruction and 
infrastructure at higher-education facilities, including minority-
serving institutions.
    Furthermore, the authorized spending levels in the bill are simply 
not realistic. It is NSF's view that the current authorization levels 
in the bill would set unrealistic expectations within the community 
that could not be met. It would be nearly impossible to fund anything 
near the levels currently authorized in the bill.
    For example, if this program were fully funded within the FY '04 
request it would represent:

        <bullet> Nearly half (43 percent) of our Computer and 
        Information Science and Engineering account ($584 million in 
        '04);

        <bullet> More than a quarter (27 percent) of our Education and 
        Human Resources activity ($938 million in '04);

        <bullet> 22 percent of our requested amount for Tools ($1.112 
        billion), which is the budget area that provides ``broadly 
        accessible, state-of-the-art and shared research and education 
        tools;'' or

        <bullet> 5 percent of our total budget ($5.481 billion).

    Mr. Chairman, if this program were appropriated within our existing 
budget request, we would be obliged to cut drastically some of the very 
NSF accounts, which I have cited above, that are responsible for 
tremendous advances in increasing the populations currently under-
represented in the Nation's science, engineering and technology fields. 
Furthermore, we would be forced to cut other areas that this committee 
cares deeply about, such as our STEP (TechTalent) program, our 
CyberSecurity efforts, Noyce Scholarships, and possibly the Math and 
Science Partnership Program.
    Rather than serving as a resource for commodity high bandwidth 
connections and duplicating existing programs, NSF has a much more 
appropriate role in assessing the most effective way to integrate 
emerging technology into research and educational settings in America's 
institutions, including its minority-serving institutions.
    Mr. Chairman, as you know, one of my goals during my tenure as 
Director of NSF is to seamlessly integrate efforts to increase 
representation by under-represented groups in science, technology, 
engineering and mathematics. As my testimony has already indicated, I 
believe we are well on the way to achieving truly vertical and 
horizontal integration of these efforts at NSF. But we can do better.
    In looking over the range of NSF programs, I am struck by several 
realities. First, we have in our portfolio a number of programs 
designed to attract under-represented minorities to the fields of 
science, technology, engineering and mathematics. We have viewed these 
as experiments to determine a set of ``best practices'' that could 
eventually be adopted--both throughout NSF and in the higher education 
community.
    This is fine as far as it goes. But we need to provide more 
effective incentives for adopting these best practices--both within NSF 
and in the educational community at large. One way NSF is addressing 
the need for greater attention to under-represented groups is by 
focusing attention on the broader impacts proposed activities in the 
evaluation of grant proposals. In this regard, we emphasize that, as a 
matter of policy, NSF returns--without review--any proposal for funding 
that does not separately address broader impacts such as how well a 
proposed activity broadens the participation of under-represented 
groups and to what extent it will enhance the infrastructure for 
research and education in STEM fields.
    Second, it is important that we also address diversity needs much 
more directly. As I have already discussed, demographic reality demands 
that we work much harder to create a high-tech workforce that truly 
looks like America. This will require a cadre of professionals, 
managers and technicians in STEM-related disciplines that are 
representative of the population.
    We have been taking a close look over the past two years at various 
efforts we could undertake to improve the participation of Minority 
Serving Institutions across all of our activities. There are several 
steps we will take, both immediately and across the next five years, to 
respond to this need. Although we had anticipated making this 
announcement as part of our FY05 budget request in February, let me 
share with you some of our thinking now.
    There are several steps that will be taken in the near term. As I 
have mentioned before the President's FY04 budget request seeks a 
significant increase in funding for the Louis Stokes Alliances for 
Minority Participation (LSAMP) program. This program has been singled 
out as having in place a number of ``best practices'' approaches to 
improving minority STEM enrollment and retention. We will also place 
greater emphasis on the success of the LSAMP efforts in placing 
students into graduate programs and involving them in other NSF 
research related activities. We look forward to leveraging this success 
by vertically and horizontally integrating all of our research and 
education programs, including LSAMP.
    That alone, however, is not enough. Mr. Chairman, it has become 
clear to me that our efforts to integrate programs aimed at increasing 
the number of students who pursue studies in science, technology, 
engineering and mathematics at all levels, while successful, have also 
created a situation where no one person is responsible for supervising 
and tracking the individual efforts of our directorates. That is why I 
am creating a new senior position within the Office of the Director to 
oversee all of our efforts to increase representation by under-
represented groups in science, technology, engineering and mathematics. 
The person in this position will report directly to me, will be given 
the authority within NSF to ensure that the individual directorates are 
held accountable for their various pieces of this effort, and will 
serve as NSF's chief link to the community. I expect to have someone in 
this position very soon.
    In addition, although NSF's efforts at increasing support for 
Minority Serving Institutions have been successful in our Education and 
Human Resources programs, we have been lagging behind this effort in 
our Research and Related Activities accounts. Therefore, the person in 
this new position will work with each of NSF's Assistant Directors to 
determine how MSIs can most effectively participate in our Research and 
Related Activities, including but not limited to activities such as:

        <bullet> Identifying specific opportunities within all 
        directorates that are relevant to MSIs and establishing a plan 
        for increasing the participation of those institutions;

        <bullet> Providing travel and support funds for professors and 
        students from MSIs to work in summer positions at NSF-supported 
        multi-user facilities;

        <bullet> Developing a systematic program of travel grants for 
        professors from MSIs to attend professional meetings, 
        workshops, and other professional development activities;

        <bullet> Ensuring greater outreach so that MSIs have the 
        information they need to be competitive in programs to provide 
        classroom laboratory instrumentation; and

        <bullet> Establishing a program of awards to MSIs to support 
        faculty attendance at proposal writing workshops and to provide 
        summer salary awards to enable faculty to write proposals.

    The Math and Science Partnership (MSP) initiative should also serve 
as an important point of entry for MSIs to the National Science 
Foundation. Many current MSP programs involve school districts serving 
a significant proportion of minority and disadvantaged K-12 students. I 
will ask the person in this new position to work with our MSP team to 
schedule workshops at MSIs to assist them in developing viable 
partnerships for future Math and Science Partnership competitions.
    Mr. Chairman, I see these as first steps in expanding NSF support 
to MSIs--but only first steps. I want to develop a trusting, mutually 
advantageous, long-term working relationship between every directorate 
within NSF and the MSI community, and I believe this new position will 
do just that. I also believe it will put in place the final piece of 
the puzzle that is needed to ensure compete vertical and horizontal 
integration of these important programs.
    Let me assure you that NSF stands ready to work with the committee 
to achieve our common goal of meeting the requirements of our 21st 
century workforce. Our future economic and national security demands a 
coherent strategy that will fully utilize all of America's human 
resources in science and technology.
    Mr. Chairman I appreciate your, and your Subcommittee's 
longstanding support of NSF. I would be pleased to answer any questions 
that you may have.

                     Biography for Rita R. Colwell

    Dr. Rita R. Colwell became the 11th Director of the National 
Science Foundation on August 4, 1998. Since taking office, Dr. Colwell 
has spearheaded the agency's emphases in K-12 science and mathematics 
education, graduate science and engineering education/training and the 
increased participation of women and minorities in science and 
engineering.
    Her policy approach has enabled the agency to strengthen its core 
activities, as well as establish support for major initiatives, 
including Nanotechnology, Biocomplexity, Information Technology, 
Social, Behavioral and Economic Sciences and the 21st Century 
Workforce. In her capacity as NSF Director, she serves as Co-chair of 
the Committee on Science of the National Science and Technology 
Council.
    Before coming to NSF, Dr. Colwell was President of the University 
of Maryland Biotechnology Institute, 1991-1998, and she remains 
Professor of Microbiology and Biotechnology (on leave) at the 
University Maryland. She was also a member of the National Science 
Board (NSF's governing body) from 1984 to 1990.
    Dr. Colwell has held many advisory positions in the U.S. 
Government, non-profit science policy organizations, and private 
foundations, as well as in the international scientific research 
community. She is a nationally respected scientist and educator, and 
has authored or co-authored 16 books and more than 600 scientific 
publications. She produced the award-winning film, Invisible Seas, and 
has served on editorial boards of numerous scientific journals.
    She is the recipient of numerous awards, including the Medal of 
Distinction from Columbia University, the Gold Medal of Charles 
University, Prague, and the University of California, Los Angeles, and 
the Alumna Summa Laude Dignata from the University of Washington, 
Seattle.
    Dr. Colwell has also been awarded 26 honorary degrees from 
institutions of higher education, including her Alma Mater, Purdue 
University. Dr. Colwell is an honorary member of the microbiological 
societies of the UK, France, Israel, Bangladesh, and the U.S. and has 
held several honorary professorships, including the University of 
Queensland, Australia. A geological site in Antarctica, Colwell Massif, 
has been named in recognition of her work in the polar regions.
    Dr. Colwell has previously served as Chairman of the Board of 
Governors of the American Academy of Microbiology and also as President 
of the American Association for the Advancement of Science, the 
Washington Academy of Sciences, the American Society for Microbiology, 
the Sigma Xi National Science Honorary Society, and the International 
Union of Microbiological Societies. Dr. Colwell is a member of the 
National Academy of Sciences.
    Born in Beverly, Massachusetts, Dr. Colwell holds a B.S. in 
Bacteriology and an M.S. in Genetics, from Purdue University, and a 
Ph.D. in Oceanography from the University of Washington.

                               Discussion

    Chairman Smith. Thank you, Dr. Colwell. You speak of the 
new administrative position that you are instituting at NSF, 
but as I have expressed some of my concerns to some of the 
colleges around the country that may have as great a need as a 
minority serving institution, I guess my interest would be that 
we don't end up overlooking the need in this area of equipment, 
and technology, and wiring, if you will, of some of those 
schools that aren't minority serving institutions. And so I am 
not sure what the obligation--are you just implementing this 
position as sort of an affirmative action effort to make sure 
that we don't overlook the needs of minority serving 
institutions?
    Dr. Colwell. No, sir. Mr. Chairman, this has been, 
actually, in the works for some time, because we have learned a 
couple of years ago as we looked across the Foundation, we 
found that there were programs for minority serving 
institutions in each of the directorates, but they weren't 
connected. They weren't working as a team, if you will. We also 
felt that the efforts in the education and human resources 
directorate needed to be linked strongly with the research 
components of the National Science Foundation. So we have been 
working toward this direction.
    In addition, we have found that we have programs that 
address, as you well know, K-12 education, and undergraduate 
institutions, graduate institutions, and even programs for 
community colleges for continuing students returning to 
college. But we haven't linked these together. That is, if you 
have some very bright kids who are in the K-12 programs, we 
should somehow tag them or encourage them, find a way to make 
sure that they are aware of and can be introduced to the 
undergraduate programs like the very successful Louis Stokes 
Alliance Minority Participation. And that those students who do 
very well in undergraduate school in the Louis Stokes programs, 
we should be tracking those students and encouraging them to go 
into graduate school. So it is an effort that has been 
underway, and having an individual to ensure connectivity would 
be very, very effective for the program, for the entire 
Foundation.
    Chairman Smith. Are you prepared--if not NSF, are you 
prepared to make a recommendation where this might be 
administered that might be most appropriate?
    Dr. Colwell. Well, the earlier panel spoke of a technology 
program in another agency which appears to be much more aligned 
with what the objectives of this program would be. And I would 
say that as presently constructed, the program, although 
extremely important and valuable in intent, and with which we 
agree, doesn't fit the NSF program structure and culture. It is 
worthwhile, but it doesn't really fit NSF because the programs 
we have underway are very effective, and we intend to increase 
funding for those very successful programs, link them, and do 
the kinds of activities that NSF does so well.
    Chairman Smith. Relate to some of the members, witnesses on 
the previous panel suggested that there wasn't the kind of 
representation from small colleges, from MSIs, minority serving 
institutions, and that lack of representation biased the end 
results of what grants were approved for what universities.
    Dr. Colwell. We have a difficult problem in that we 
maintain an electronic database of about 270,000 reviewers, and 
the potential reviewers are identified from a variety of 
sources, including applicant suggestions, references attached 
to proposals, published papers, scientific citation indexes, 
and similar databases. In addition, when I am traveling to 
institutions, such as a recent visit, a very wonderful visit, 
to Tuskegee University, I asked the president and the faculty 
to send me names and very brief CVs of potential reviewers to 
be added to the database. And this has been a very important 
mechanism and the staff do the same.
    During fiscal year 2002, about 48,000 reviewers were sent 
one or more proposals for review; 10,000 reviewers served as 
panelists; and in all, 54,000 individuals served in a panel, 
were sent a proposal for mail review or served in both 
functions, and about 9,000 of these reviewers had never 
reviewed an NSF proposal before. So we are reaching out. Now, 
the difficulty we have is that we cannot legally demand or 
require the reviewers to state whether they are African-
American, or Hispanic, or whatever, but they can voluntarily 
provide that information. And so demographic information was 
volunteered for only 3,507 of these reviewers; and 1,168, 33 
percent of these 3,507 reviewers indicated they are members of 
an underrepresented group.
    Now, the low response rate overall, the many, many 
reviewers, can be attributed to the inability of NSF to legally 
require reviewers to provide the demographic information. 
Because this information is voluntary, we can request it, but 
we cannot require it. Nevertheless, I think it does give a 
sample of our--particularly, in recent years, our sincere 
effort to increase minority participation in panels and as 
reviewers.
    Chairman Smith. In your evaluation of grants through NSF 
and the peer review process, there is equipment that certainly 
has to be considered in who gets what grant. As far as--does 
the lack of equipment and the mechanics, and machinery, and the 
plans that maybe some minority serving institutions don't have, 
is that an obvious discredit or discount in their ability to 
get grant applications through NSF?
    Dr. Colwell. There is no question that all institutions 
that do not have the capacity to compete because of lack of 
instrumentation. We do have the small grants for 
instrumentation program which is now nearly $100 million, and 
this is open to all institutions, and the minority serving 
institutions do compete and are successful.
    Chairman Smith. Is that predominantly based on need, the 
granting of those grants?
    Dr. Colwell. The need is certainly a component, but as you, 
yourself, pointed out in comments earlier, sir, we must take 
into account in the review process the excellence of the idea 
proposed for the use of the instrumentation, as well as the 
proposer of the institution being able to accommodate the 
instrumentation. But need, certainly, is obviously part of it, 
because if you don't have the instrument, you wouldn't be 
asking for it. And being able to place it, to enable as many 
students as possible to have access to the equipment, of 
course, is the objective.
    Chairman Smith. How would we go about--I mean, I feel very 
strong on a results evaluation of whatever we do with taxpayers 
dollars. How could we discover and find out the needs of some 
of these universities? I mean, we have had a study on the black 
serving institutions, and obviously, there is a great need 
there, but we haven't done such a study, to my knowledge, on 
other institutions from community colleges, to small state 
colleges, to private colleges, in terms of their lack of 
facilities that would accommodate the high tech age that we are 
approaching.
    Dr. Colwell. You touch on an area where we are deeply 
interested in making a sincere concerted effort, and that is 
focusing on the community colleges and the smaller 
institutions, the four-year colleges, because we have learned 
that is where the majority, I think about 80 percent of Native 
Americans, and well over 50 percent of Hispanic, Chicano, 
African-American students will be found. And obviously, we have 
got to upgrade the instrumentation, but also, the capability 
that is to assist in improving the science and math education 
at these institutions, because they are feeding the future 
science and technology personnel and workers for the workforce 
for our country in this 21st century.
    Chairman Smith. What would NSF do to--assuming for a moment 
that the responsibility for this legislation for helping these 
particular colleges is not there, what is NSF doing to help in 
reducing the, if you will, digital divide problem?
    Dr. Colwell. Within the computer science side, the computer 
and information science and engineering directorate, there are 
programs that are open to and encouraging for minority serving 
institutions for infrastructure building, and especially, 
through the cyber infrastructure program that we are well 
underway and emphasizing. This is to build connectivity to all 
institutions, all of the scientific enterprises around the 
country, that is the colleges and the universities, and 
especially, those that are not now connected to computing 
capacity. So that is a program and a major effort for the 
Foundation, which I think is very, very important and is 
crucial for connectivity, particularly, for the minority 
serving institutions.
    Chairman Smith. Expanding on this a little bit, NSF has 
tried--has programs to encourage greater minority graduates in 
science and engineering.
    Dr. Colwell. Yes.
    Chairman Smith. Review what that program is for the 
Committee.
    Dr. Colwell. Well, the Louis Stokes Alliances for Minority 
Participation is one that we are really very proud of because 
it has produced 174,000 minority Bachelor's degrees in science 
and engineering since 1991. And just in 2001 alone, the LSAMP 
institutions produced 21,704 minority science and engineering 
graduates, and that was 70 percent of all the minority science 
and engineering baccalaureate graduates that year, 2001. So our 
budget request for Fiscal Year 2004 increases the funding for 
that program by 23 percent, and our Historically Black Colleges 
and Universities Undergraduate program, another very successful 
program, by 43 percent. And so funding for the major research 
instrumentation program that I just mentioned, which assists in 
getting the equipment, is going to be increased by 67 percent. 
So we think these are the programs proven to be effective, they 
are competitive, and they work. And I think these are the 
programs we want to enhance.
    Chairman Smith. Thank you. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. Thank you, Doctor, for 
appearing here and your testimony. And thank you for your 
support of the overall goal of what we are trying to accomplish 
here. One of the questions that I had in reading your written 
testimony that you submitted for the record is whether or not 
you are under the impression that the funding for this program 
would come out of the existing budget for NSF?
    Dr. Colwell. We don't see any evidence of otherwise, and 
that creates a serious problem.
    Mr. Forbes. So your testimony has been based on your belief 
that the funding for this program would come out of the 
existing NSF budget?
    Dr. Colwell. Based on the evidence to date, sir, that would 
be a conclusion that would be warranted.
    Mr. Forbes. Okay. If , in fact, the budget, the 
appropriations were to come on top of the NSF budget, would 
that change your opinion?
    Dr. Colwell. There is serious difficulties with the 
program. Frankly, I would rather see a program more attuned to 
the EPSCoR program for the minority serving institutions. There 
are some difficulties in that the peer review, as I understand 
the Chairman's comments, needs to be not just from a single 
institution, but it needs to be representative of whatever the 
proposed use and research effort is to be undertaken.
    Mr. Forbes. Excuse me. Let me just clarify that. Do you 
believe additional peer review needs to be in this bill?
    Dr. Colwell. No. I think the NSF peer review works very, 
very well, extremely well.
    Mr. Forbes. And your understanding that we have an advisory 
board under this bill as opposed to the peer review that you 
heard testified about?
    Dr. Colwell. Which I do not think is necessary, because we 
do have a National Science Board which sets policies for the 
National Science Foundation, and we do have advisory committees 
for each of the programs. And I would like to point out, 
actually--I am sorry that Dr. Humphries is not here, but Dr. 
Humphries and Dr. Badonia, Deputy Director of the NSF, some 
years ago, before Dr. Badonia was with NSF, he and Dr. 
Humphries served on the panel that established the Minority 
Participation Program which has evolved into the Louis Stokes 
Minority program, and that has proven to be enormously 
successful.
    Mr. Forbes. But let me clarify, you have advisory boards on 
other programs?
    Dr. Colwell. We have advisory for the director, advisory 
committees for the directorates and a committee of visitors for 
the directorates.
    Mr. Forbes. And they work well?
    Dr. Colwell. They work well.
    Mr. Forbes. You also made the comment in your written 
testimony that you thought the authorized spending levels in 
the bill were simply not realistic. Can you tell me what a 
realistic spending level would be?
    Dr. Colwell. Realistic in the sense of not having any new 
money.
    Mr. Forbes. Okay. Now, I want you to, if you can, tell me 
what spending levels you think would be appropriate to 
accomplish these goals that were here. Your statement there was 
based on the fact that they wouldn't be realistic if they were 
coming out of your existing budget. Is that right?
    Dr. Colwell. Yes.
    Mr. Forbes. But so that wasn't addressed to whether or not 
the spending levels were appropriate to accomplish the goals of 
the bill.
    Dr. Colwell. I think that an analysis of the needs of the 
institutions would be not outside of that which is listed as 
overall needed, but obviously, the realism of it being 
appropriated in one fell swoop is unlikely.
    Mr. Forbes. Can you tell us what the direct NSF funding to 
minority serving institutions was over the last decade 
percentage-wise of the budget?
    Dr. Colwell. 3.6 percent of the NSF funds go directly to 
minority serving institutions.
    Mr. Forbes. And do you feel that that was adequate to 
accomplish the goals that we are talking about here?
    Dr. Colwell. Obviously, I do not, because we are working 
very hard to improve programs, and also, outreach. That is, we 
have learned that over the last few years that workshops which 
we, our staff, hold to assist and advise institutions which 
have not been successful or have not even applied to NSF 
before, and therefore, are unaware of the processes involved, 
that these workshops can be very, very helpful. And so we have 
had these workshops in states like Alabama and Mississippi, 
where institutions are located, and at minority serving 
institutions around the country, to improve their capability of 
competing.
    Mr. Forbes. And Mr. Chairman, if I could just ask one more 
question? I know my time has expired, but you have written that 
there were 174,000 degrees that had been given to minorities 
based on the program that you cited. Can you tell me what the 
number of those degrees were that came from historically black 
colleges?
    Dr. Colwell. I will have to get you that precise number.
    Mr. Forbes. If you could, and the other question, and you 
can follow up in writing on this one as well. One of my 
concerns, also, is we talk about what we are doing in K through 
12, but I would like your feeling on how we keep those students 
involved in math and sciences when they get to historically 
black colleges if we don't have the technology there to be able 
to continue to feed that interest and keep them involved in it.
    Dr. Colwell. Technology is critical. There is no question 
about it. But I think what is more important is to have the 
connectivity, K-12, with universities. We have established the 
GK-12 program, and that program has proven to be enormously 
successful, because it funds graduate students who are pursuing 
their degrees in science or engineering to spend 20 hours a 
week not in the undergraduate classes but actually in the 
elementary, middle, and high schools, as a source of 
information, but more importantly, as mentors and role models. 
And we have found that this is very, very important because it 
allows these young children to identify with these students who 
are going on to become engineers and scientists in a way that 
wouldn't be done just through reading about it in a book.
    Mr. Forbes. Thank you, Doctor.
    Dr. Colwell. So these kinds of program are very important.
    Mr. Forbes. Thank you, Mr. Chairman.
    Chairman Smith. Mr. Forbes, if you would allow a colloquy 
between you and I?
    Mr. Forbes. Sure.
    Chairman Smith. Where did the $250 million come from, how 
was that figure derived?
    Mr. Forbes. Well, I think that was a figure that came from 
discussions with the minority serving institutions. And again, 
as you heard some testimony, it came from averages. I think you 
could get testimony that would say you would need twice that 
amount of money. You would also have people that say you could 
get by with half that amount of money. But we felt that based 
upon the testimony that we had heard from individuals, that the 
$250 million allocation was a good start in how we could bridge 
these gaps that were there. And you heard testimony today that 
I think was similar to that.
    Chairman Smith. I guess I should--allow me to express some 
of my concerns. The Federal Government is going to be more and 
more, if you will, strapped for funds in the future, and I 
expect that future budgets are going to be very lean as we 
accommodate our largest deficits in history. We are now 227 
years old, and the first 200 years we accumulated $500 billion 
of debt. Now we are going deeper in debt, $500 billion a year. 
So if it is true that we are faced with very tight budgets in 
the future, and NSF and our research effort is going to share 
in those tight budgets, I would be particularly concerned that 
an additional responsibility put in NSF would endanger some of 
our efforts in our partnership effort to promote better K 
through 12 education in science and math. It could very well 
jeopardize our Louis Stokes effort that we have in NSF, and 
certainly, even jeopardize some of our efforts in Tech Talent. 
So I would be very wary of assigning this additional 
responsibility to NSF that might endanger some of those 
existing programs. And currently, it would be my preference 
that it go into the new administration that we have assigned to 
Commerce and the Technology Division. Maybe it goes to NIST, 
but I guess just expressing my personal concerns that we not 
endanger some of the good programs that we have in NSF, and I 
think I hear you, Dr. Colwell, saying you agree that that is a 
potential danger?
    Dr. Colwell. Sir, you have become a very strong advocate, 
and as a result, you know very well how NSF works. And I do 
agree with you, sir.
    Chairman Smith. Is there--do you have anything else that 
you would like to add to the comments of the previous panel?
    Dr. Colwell. No, sir. I think that it has been very 
valuable to discuss this very important issue, and I would like 
to assure you that the programs that we have at NSF we are very 
proud of and we have no intention of doing anything except 
strengthening them. Thank you, sir.
    Chairman Smith. Thank you very much for your patience today 
and for waiting for us to vote. And if there are no other 
questions, this subcommittee is adjourned.
    [Whereupon, at 12:57 p.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


                   Answers to Post-Hearing Questions

Responses by Rita R. Colwell, Director, National Science Foundation

Question submitted by Representative J. Randy Forbes

Q1. You have written that there were 174,000 degrees that have been 
given to minorities based on the program that you cited [Louis Stokes 
Alliances for Minority Participation]. Can you tell me what number of 
those degrees were that came from historically black colleges?

A1. The data captured for the Louis Stokes Alliances for Minority 
Participation (LSAMP) shows in excess of 174,000 baccalaureate 
graduates since the inception of the program in 1991. In 2001-2002, the 
most recent reporting period for the program, 5006 degrees were awarded 
by Historically Black Colleges and Universities (HBCUs) of the 22,057 
total degrees awarded in LSAMP. HBCU graduates represents approximately 
50 percent of the 9,496 degrees awarded to African American students in 
LSAMP. During that reporting year 61 HBCUs were in partnerships in the 
LSAMP Program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Questions submitted by Representative Eddie Bernice Johnson

Q1. After reviewing the summary of Total Awards to HBCUs (FY 2000), I 
noticed that almost $2.8 billion was given to institutions of higher 
education (IHE). However, I am somewhat concerned with the column title 
Awards to HBCU as percent of Total Awards to IHE. It seems that HBCU 
received just under $36 million, and only 1.29 percent of the total 
funds given to IHE. Do you find this figure disturbing? How do you 
intend on increasing funding for HBCU (or MSIs for the matter) to a 
more representative proportion of the total IHE funding?

A1. NSF agrees that HBCUs and other Minority Serving Institutions 
(MSIs) have the potential to participate at higher levels within the 
existing NSF research and education programs. We believe that the 
potential for increased participation by MSIs in NSF funding hinges on 
the continued development of research capacity at these institutions.
    In support of this effort, we maintain a comprehensive portfolio 
that includes several significant programs that support research as 
well as build the research and educational capacity of HBCUs and other 
MSIs. These programs include:

        <bullet> The HBCU-Undergraduate Program which has funded 47 
        awards, a total of $68.9 million since 1998, to improve the 
        quality of undergraduate education in science, technology, 
        engineering, and mathematics (STEM) at HBCUs. NSF has requested 
        a 43 percent increase in the budget for HBCU-UP in FY 2004.

        <bullet> The Louis Stokes Alliance for Minority Participation 
        (LSAMP) program supports 63 HBCUs in their efforts to increase 
        the numbers of minority STEM baccalaureate graduates. NSF has 
        requested a 23 percent increase in the budget for LSAMP in FY 
        2004.

        <bullet> The Centers of Research Excellence in Science and 
        Technology (CREST) program currently provides $8.7 million for 
        state-of-the-art research activities at HBCUs, Hispanic-Serving 
        Institutions (HSIs), and other MSIs.

        <bullet> The Research Infrastructure for Science and 
        Engineering (RISE) is a relatively new program, which supports 
        the development of research capacity at HBCUs that currently 
        offer doctoral STEM degrees. RISE started with $2.7 in FY 2002 
        and is now funded with $5 million for FY 2003.

    Participation in these and other programs by HBCUs has been 
significant. For example, since 1998 seventy-one different HBCUs have 
received research and education funding from NSF. Sixty-six different 
HBCUs have participated in the education and human resource programs at 
NSF (totaling $252 million since 1998)--an average of 56 awards to 
HBCUs per year. Fifty-six different HBCUs have also received research 
and development grants from NSF (totaling $92 million since 1998)--an 
average of 61 awards to HBCUs per year--most of these institutions 
participate in both research and education programs.
    NSF is committed to increasing the participation of HBCUs in all 
programs within the foundation. We are taking action to leverage our 
success in these programs by vertically and horizontally integrating 
all of our research and education programs. For example, building on 
the portfolio of best practices that has been created in LSAMP, we are 
developing programmatic linkages to the Alliances for Graduate 
Education and the Professoriate Program (AGEP) to create a seamless 
pathway from undergraduate, to graduate, to the professoriate.

Q2. In your view, how should awards be selected under the program 
established by H.R. 2183? That is, what kinds of criteria should be 
used and what mechanism should be used to apply the criteria?

A2. Although the proposed program under H.R. 2183 would require funding 
every single eligible institution that applies, regardless of merit, 
the National Science Foundation would likely use its well-regarded 
merit-based peer review procedures to select awards under the program 
in order to ensure that funds went to high quality projects that were 
truly ready for implementation. The peer review mechanisms that are in 
place at the NSF have proven to be valuable tools in the determination 
of quality and impact of the projects that are funded by NSF. The merit 
review criteria are: 1) What is the intellectual merit of the proposed 
activity? and 2) What are the broader impacts of the proposed activity? 
The Foundation's peer review process and award-administration ensures 
that diverse experts in the field are included in the review process. 
Maintaining the quality of the projects under this proposed program 
would also require the flexibility for NSF to support planning grants. 
Planning grants have been proven as effective ways to assist 
institutions to delineate long-term strategies for their own specific 
institutional development and to improve the quality of proposals.

Q3. Since minority serving institutions vary greatly in their current 
educational and research capacities and in their financial well-being, 
how can the program be structured to ensure an equitable allocation of 
resources among the disparate institutions?

A3. Within our merit review system, the National Science Foundation has 
several tools in place that can address the continuum of institutional 
capacity at MSIs. These include planning grants for those that would 
benefit the most from time and money to plan how best to use the 
technology funds. In addition, we have a tradition of supporting 
institutions through targeted technical assistance workshops to help 
them develop high quality proposals. In this case this technical 
assistance would include strategies for long term technology planning.
    NSF also has extensive experience with programs that serve MSIs 
that have varying institutional STEM capacity. For example, 
institutions that are not heavily focused on research, including 
community colleges, participate in programs like HBCU-Undergraduate 
Program and Tribal College-Undergraduate Program, which focus on 
increasing the numbers of under-represented students participating in 
STEM and the quality of STEM education. Institutions that are already 
producing quality STEM research but can contribute even more, 
participate in Centers of Research Excellence in Science and Technology 
(CREST) and Research Infrastructure for Science and Engineering (RISE), 
which help to build the caliber of the research through the 
establishment of research centers. In addition, we have programs that 
encourage collaboration between institutions at every level of capacity 
such as Louis Stokes Alliance for Minority Participation (LSAMP) and 
the Alliances for Graduate Education and the Professoriate Program 
(AGEP).
    NSF also has plans to create a new senior position within the 
Office of the Director to oversee all of our efforts to increase 
representation by under-represented groups in science, technology, 
engineering and mathematics. The person in this position will also be 
charged with ensuring equitable access to NSF programs by MSIs with 
varying levels of institutional capacity.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


From the issue dated June 27, 2003

                            Playing Catch-Up

A bill in Congress could give minority institutions new money for 
                    computer technology

                          By Andrea L. Foster

    It's hard for Steve Villanueva, Manager of computer services at 
Virginia Union University, to fathom that the nearby University of 
Richmond has 62 people to assist with the development, use, and 
maintenance of campus technology. Virginia Union, a historically black 
college with half the enrollment of the University of Richmond, has a 
computing staff of four.
    Mr. Villanueva recently spoke with a technology administrator at 
Richmond and learned that the institution has not only a help desk for 
problems with users' machines, but also separate departments to support 
administrative software, the campus network, and academic technology.
    Richmond also has a staff for Web development and a security 
administrator. The university is a private institution and serves 3,400 
students, about 12 percent of whom are members of minority groups.
    ``I have one person who runs my whole network, maintains the 
server, and is in charge of desktops,'' says Mr. Villanueva, who has 
been working at Virginia Union, a Christian college, for almost four 
months. The university's information-technology department is made up 
of Mr. Villanueva, two data-management specialists, and a network 
engineer.
    The technological disparities between Virginia Union and the 
University of Richmond are representative of a much larger problem. 
Minority educators have long worried about a technology gap between 
colleges that serve mostly white students and financially strapped 
black colleges. Support-staff sizes are only one area of concern. 
Others include the quality and amount of black colleges' computer 
equipment and the robustness of their campus networks.
    Now federal lawmakers are taking note of the gap and trying to do 
something about it.

Competition for Grants

    On April 30, the U.S. Senate voted 97 to 0 to approve the Minority 
Serving Institution Digital and Wireless Technology Opportunity Act of 
2003. The measure would allow colleges that serve primarily black, 
Hispanic, and American Indian students to share $250 million in 
technology grants for each of fiscal years 2004 through 2008.
    The money, to be made available through the National Science 
Foundation, could help colleges purchase computer hardware and 
software, set up new wireless networks, and upgrade existing hard-wired 
networks. Colleges eligible for the money would compete for grants.
    Sen. George Allen, the Virginia Republican who sponsored the bill, 
said the need for it was underscored in a report on information 
technology at historically black colleges, issued by the U.S. 
Department of Commerce in 2000. The report, ``Historically Black 
Colleges and Universities: An Assessment of Networking and 
Connectivity,'' was prepared by the National Association for Equal 
Opportunity in Higher Education (known as NAFEO) and was based on a 
survey of 80 such colleges.
    The report said that most black colleges lagged behind their white 
counterparts in preparing students for careers in an increasingly 
technological society.
    Among the areas of concern: student access to networking and 
computing resources, colleges' development of strategic plans for 
technology, colleges' awareness of network security, and faculty 
members' use of the Web and instructional software in their courses.
    ``I am saddened to learn from our research that fewer than 25 
percent of our students own their own computing resources,'' wrote 
Henry Ponder, the former President of NAFEO, in the report.
    ``This means that in spite of the best efforts of historically 
black colleges, students must often wait hours at labs to use computers 
in order to gain access to the Internet and the World Wide Web,'' he 
added.
    The Senate bill is now awaiting action in the U.S. House of 
Representatives, where it was introduced last month by Rep. J. Randy 
Forbes, a Virginia Republican.
    It's no coincidence that Virginia lawmakers have taken an interest 
in the technological divide that separates white from black colleges. 
Virginia has five of the 107 historically black colleges in the 
country: Hampton University, Norfolk State University, St. Paul's 
College, Virginia State University, and Virginia Union.
    The federal money for computer technology in the legislation, 
however, will not be enough to bring most black colleges up to the 
level of white colleges.
    For example, Virginia Union has a $555,000 information-technology 
budget this year, about $400,000 of which is federal money from Title 
III of the Higher Education Act. The University of Richmond has an $8 
million technology budget.

Wireless, or Not?

    Virginia Union's administrators aren't counting on getting money 
from the legislation, since a similar bill stalled in Congress last 
year. However, they say any funds they do get through the legislation 
would improve the quality of education for students and make the 
university more competitive.
    ``I don't know that it will necessarily level the playing field,'' 
says Walton D. Meekins, director of information services at the 
university. ``But it will greatly enhance where we are now.''
    Virginia Union's president, Bernard W. Franklin, has spoken 
frequently of the need to make his campus technologically advanced. 
When he was inaugurated in September 2000, he said he envisioned a 
campus where students could connect to the Internet while sitting under 
a tree, and where every classroom is a computer lab.
    Nearly three years later, that is still just a vision.
    In November 2000, Virginia Union was one of the first historically 
black colleges to set up a wireless network on its campus. The 
university wanted to be on the cutting edge of technology, says Mr. 
Meekins. But because only 15 percent of the students own computers, 
most students rely on about 250 machines in the university's five 
computing labs to connect to the Internet. That has led some to 
question the usefulness of the campus-wide wireless network.
    At the University of Richmond, seven miles west of Virginia Union, 
96 percent of students own computers. Some of Richmond's buildings are 
connected to a wireless network, but the university is debating whether 
to make dormitories wireless. Students can use more than 400 Windows 
and Macintosh machines in computing labs around the campus.

Costly Laptops

    More than two years ago Virginia Union considered requiring all 
students to have their own laptops. For now, that idea has been 
abandoned. More than 90 percent of the colleges' students receive 
financial aid, so asking them to spend more than $1,000 each for 
laptops would be too burdensome, says Mr. Franklin.
    ``We want to remain fiscally competitive in terms of attracting 
students,'' he says.
    Virginia Union does provide all 84 full-time faculty members with 
IBM laptops, however. And when a local computer vendor offered laptops 
to students at the beginning of the year at a small discount, 80 
students took advantage of the program, says Mr. Meekins.
    Tuition at the university for the forthcoming academic year is 
$16,866, including a $310 technology fee.
    Unlike Virginia Union, the University of Richmond has no technology 
fee for students. Technology costs will be included in the $24,940 
tuition for the 2003-4 academic year. The university requires only its 
law students to have laptops.
    Despite the technological challenges Virginia Union faces, Mr. 
Meekins says he is not discouraged. The university is focused on 
developing ``quality students'' and ``productive members of society,'' 
he says.
    Mr. Meekins says faculty members and students are especially proud 
of an instructional tool the university purchased called Videodidact 
that is available in a computer laboratory in Pickford Hall. It permits 
students using the machines to see exactly what an instructor is doing 
on a computer at the front of the room. Virginia Union hopes to expand 
the technology to other computing labs, says Mr. Meekins.
    Even though only a fraction of Virginia Union students own 
computers, university administrators do not cite equipping students 
with computers as one of their priorities if the technology bill 
pending in Congress ends up providing the university with any money.
    Instead, the administrators talk about other goals. They want to 
expand their fiber-optic network, provide training to faculty members 
and students in the use of technology, have storage space on the 
network for students' data, build more computing labs, and keep at 
least one computing lab open 24 hours a day. They also want to purchase 
course-management software from Blackboard Inc. for organizing online 
materials.
    The University of Richmond, meanwhile, is in the process of 
upgrading to version 6 of the Blackboard software.
    Virginia Union's strategic plan for 2000 through 2005 calls for, 
among other things, establishing a distance-learning program and 
creating a teaching-and-learning center for faculty members that would 
promote technology in the classroom.
    One of the college's short-term goals is trying to move the network 
operating system from the outdated Windows NT 4.0 to Windows 2000. 
``It's a $30,000 project,'' says Mr. Villanueva, ``We have the 
software. We need someone to help install it.''
    Institutions that serve minority groups have a recurring problem 
with attracting and retaining high-quality technology staff members, 
says David A. Staudt, director of the Advanced Networking Project With 
Minority-Serving Institutions. The project works with colleges serving 
primarily black, Hispanic, and American Indian students to improve 
Internet connectivity, network technical support, training, and use of 
the Internet for teaching and research. The program was set up by 
Educause with a four-year, $6 million grant from the National Science 
Foundation.
    ``A lot of these schools are not in prime locations, particularly 
tribal colleges,'' says Mr. Staudt. ``They're way the heck out there, 
and it's hard to attract people with the skills needed.''
    And employees who develop expertise on the job may eventually leave 
for better paying work, adds Mr. Staudt.
    ``They get bought off by somebody who will pay them twice as much, 
or more,'' he says. ``These guys could make as much as some of the 
presidents of these colleges.''
    Kathryn J. Monday, vice president for information services at the 
University of Richmond, and Doug West, the university's director of 
telecom, media support, and user services, describe the summer on their 
campus as a busy time for technology improvements. Three-year-old 
computers are being replaced. And a construction crew is busy 
installing 10 multimedia classrooms and preparing to install wireless 
hubs in the new Weinstein social sciences building.
    Over the next 18 months, 27 multimedia classrooms will be installed 
in Gottwald Science Center, adding to the 34 multimedia classrooms 
already dotting the campus. The library houses six digital-video-
production workstations, and a technology center that allows students 
to produce professional-grade advertising posters.
    Virginia Union has no multimedia classrooms.
    Richmond's promotional literature says it provides every student 
with ``virus-protection software, space for a personal Web page, and 
most importantly, space on a file server to store critical documents.''
    ``We also provide access to the latest in hardware, software, and 
peripherals and assistance in learning how to use this equipment. This 
ensures that students are always using the most recent technology as 
they complete their academic assignments,'' the literature continues.
    The university offers a number of other technology amenities, as 
well. For example, students can check out digital cameras for academic 
assignments. And Richmond faculty members and students can gain access 
to the Internet2 consortium's high-speed network through a partnership 
with Virginia Tech.
    At Virginia Union, Mr. Meekins and Mr. Villanueva say they don't 
know what Internet2 is.
    Like Virginia Union, other historically black colleges struggle to 
keep pace with colleges that serve primarily white students.
    About 10 percent of students own computers at Virginia State 
University at Petersburg, a historically black public institution 27 
miles south of Virginia Union. The institution does not have access to 
Internet2 and is using an outdated administrative-software system. The 
college has 44 multimedia classrooms, but has had trouble training 
faculty members in how to use the equipment.
    A recent visitor to the campus saw a chemistry professor using a 
traditional overhead projector and transparency to show students 
formulas--even though the classroom's multimedia lectern was equipped 
with a document camera.
    M. Hadi Moadab, director of academic technology at Virginia State, 
says the university's network system is secure. But the same visitor 
used a machine in one of the computing labs on the campus to connect to 
the Internet without being prompted for identification. According to 
network-security experts, requiring all users to have proper 
identification is a basic tenet of network security.
    Virginia State and Virginia Union administrators say they are 
constantly playing catch up to the latest technological advances that 
neighboring white institutions can offer.
    But it all comes down to dollars, the administrators say.
    ``When you look at what we're trying to achieve with the funds we 
have,'' explains Mr. Meekins, the money is ``really not enough.''

http://chronicle.com
Section: Information Technology
Volume 49, Issue 42, Page A27

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
